APPENDIX TABLE OF CONTENTS
Memorandum Opinion of the Ninth Circuit
(May 1, 2019)........................................... .......

la

Order Denying Plaintiffs’ Motion to Assign
Rental Income or Force Sale, and Staying
Case Pending Appeals (November 9, 2018)

5a

Order Granting in Part Erickson’s Motion to
Amend the Judgment (October 5, 2017)..

13a

Order of the Ninth Circuit Denying Petition for
Rehearing En Banc (June 7, 2019)......... ......

40a

California Probate Code
Statutes and Definitions

41a

Internal Revenue Service Code 671-678

56a

Appellant’s Informal Opening Brief
(April 23, 2018).............................

58a

Appellant Informal Reply Brief
(June 6, 2018).......................

115a

Appellant Informal Petition for Rehearing
En Banc (May 15, 2019).........................

145a

Black Oak Trust Document, Relevant Excerpt... 167a
County of San Mateo Assessor-County
Clerk-Recorder Website Screenshot

170a

App.la
MEMORANDUM* OPINION OF
THE NINTH CIRCUIT
(MAY 1, 2019)
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
ERICKSON PRODUCTIONS, INC.;
JIM ERICKSON,
Plain tiffs-Appellees,
v.
KRAIG RUDINGER KAST,
Defendant-Appellant.
No. 17-17157
D.C. No. 5:13-cv-05472-HRL
Appeal from the United States District Court
for the Northern District of California
Howard R. Lloyd, Magistrate Judge, Presiding
Submitted March 25, 2019**
San Francisco, California
Before: THOMAS, Chief Judge,
HAWKINS and MCKEOWN, Circuit Judges.
* This disposition is not appropriate for publication and is not
precedent except as provided by Ninth Circuit Rule 36-3.
** The panel unanimously concludes this case is suitable for
decision without oral argument. See Fed. R. App. P. 34(a)(2).

App.2a

Following a jury trial, the district court entered
judgment against Kraig Kast (“Kast”) in favor of Jim
Erickson and Erickson Productions, Inc. (collectively,
“Erickson”), on Erickson’s copyright claims. We resol­
ved East’s appeal of that judgment in a published
opinion. See Erickson Prods., Inc. v. Kast,
F.3d
. 2019 WL 1605668 (9th Cir. Apr. 16, 2019). We
now address East’s appeal of the district court’s order
adding several judgment debtors to the judgment,
including “Eraig East as Trustee of the Black Oak
Trust (a/k/a Eraig East, Trustee of The Black Oak
Trust, dated March 11, 1995).” We have jurisdiction
under 28 U.S.C. § 1291 and affirm.1 _
East challenges the district court’s jurisdiction
to amend the judgment while it was on appeal, and
further asserts that the district court lacked jurisdic­
tion over some of the parties it added to the judg­
ment. While “an appeal to the circuit court deprives a
district court of jurisdiction as to any matters involved
in the appeal,” Hoffman v. Beer Drivers & Salesmen’s
Local Union No. 888, 536 F.2d 1268, 1276 (9th Cir.
1976), the district court retains authority to “exercise
ancillary jurisdiction ... to manage its proceedings,
vindicate its authority, and effectuate its decrees,”
Peacock v. Thomas, 516 U.S. 349, 354 (1996) (citation
and quotation marks omitted). Thus, the district court
had jurisdiction to amend the judgment to facilitate its
enforcement against East, but could not add parties
“not already liable for that judgment.” Id. at 357.
The district court concluded that adding East in
his capacity as trustee of the Black Oak Trust would
not hold a new party liable for the copyright judgment.
1 All pending motions are denied as moot.

App.3a

Two premises supported this conclusion. First, the
Black Oak Trust was a revocable trust. Second, Kast
was the trustee of the Black Oak Trust. Thus, the
trust property was subject to Kast’s personal liability.
See Cal. Probate Code § 18200; Zanelli v. McGrath,
82 Cal. Rptr. 3d 835, 850 (Cal. Ct. App. 2008) (“Property
transferred to, or held in, a revocable inter vivos
trust is nonetheless deemed the property of the settlor
and is reachable by the creditors of the settlor.”). We
affirm on both points.
The district court did not err in concluding the
Black Oak Trust entity containing Kast’s rental pro­
perties was revocable. Erickson presented trust docu­
ments, deeds, and communications indicating Kast
formed multiple Black Oak Trust entities to confuse
creditors, but actually transferred his rental properties
into a revocable trust. Kast’s explanation that his
attorney told him to utilize this unusual trust structure,
and that clerical errors by his title company accounted
for the relevant deeds’ description of the Black Oak
Trust as a “revocable” rather than “irrevocable” trust,
is not persuasive.
Nor did the district court err in concluding that
Kast is the trustee of the Black Oak Trust. As the
district court acknowledged, Kast presented a notarized
resignation from his position as trustee of the Black
Oak Trust, dated December 31, 2015. However, based
on evidence of Kast’s communications with his financial
advisor, the district court reasonably concluded that
Kast continued to hold himself out as trustee and
exercise control over the trust assets after that date.
An individual “who is not a trustee, but has ‘under­
taken to act in the capacity of a trustee’. . . may be
held liable as a trustee under certain circumstances.”

App.4a

Gaynor v. Bulen, 228 Cal. Rptr. 3d 243, 249 n.4 (Cal.
Ct. App. 2018) (quoting King v. Johnston, 101 Cal.
Rptr. 3d 269, 283 (Cal. Ct. App. 2009)); see also In re
Allustiarte, 786 F.2d 910, 914 (9th Cir. 1986) (“A
person who voluntarily acts as if he or she is a
trustee is a de facto trustee.”); cf. Solomon v. N Am.
Life and Cas. Ins. Co., 151 F.3d 1132, 1138 (9th Cir.
1998) (party that “did not create, operate or control
the trust,” or “perform any duties as trustee,” was
not a de facto trustee). On these facts, we affirm the
district court’s conclusion that East’s behavior after
his alleged resignation rendered him a de facto trus­
tee of the Black Oak Trust for purposes of judg­
ment enforcement.
Thus, the district court’s addition of judgment
debtors was supported by proper jurisdiction and
complied with California trust law.
We also affirm the district court’s conclusion that
Erickson’s motion to amend the judgment was timely.
In light of the lengthy investigation Erickson engaged
in to learn about East’s assets, the motion to amend
was brought within a reasonable time. See In re
Levander, 180 F.3d 1114, 1121 n.10 (9th Cir. 1999).
Finally, we affirm the district court’s denial of
East’s motion to quash Erickson’s improperly-captioned
subpoenas. Erickson was entitled to broad post-judg­
ment discovery regarding East’s finances, including his
assets held in trust. See Fed. R. Civ. P. 69. We are
not persuaded the subpoenas were harmful to East, let
alone fraudulent on Erickson’s part.
AFFIRMED.

App.5a
ORDER DENYING PLAINTIFFS’ MOTION
TO ASSIGN RENTAL INCOME OR FORCE SALE,
AND STAYING CASE PENDING APPEALS
(NOVEMBER 9, 2018)
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF CALIFORNIA
SAN JOSE DIVISION
ERICKSON PRODUCTIONS, INC.
and JIM ERICKSON,
Plaintiffs,
v.
KRAIG R. KAST, ET AL.,
Defendants.
Case No. 5:13-CV-05472
Re: Dkt. No. 307
Before: Lucy H. KOH, United States District Judge.
Plaintiffs Erickson Productions, Inc. and Jim
Erickson sued Defendant Kraig Kast for copyright
infringement. Plaintiffs prevailed at trial and were
awarded $450,000 in damages. Plaintiffs later moved
to amend the judgment to add various corporate entities
and trusts that Kast purportedly controlled. Plaintiffs
also requested attorneys’ fees and costs. Plaintiffs’
motion was granted, and an amended judgment was
entered for a total amount of $636,186.58 plus post-

App.6a
judgment interest. In an effort to collect on the judg­
ment, Plaintiffs have filed a motion to request assign­
ment of rental income from rental properties Defend­
ants own, or in the alternative, force the sale of prop­
erty to satisfy the judgment. Having considered the
parties’ submissions, the relevant law, and the record
in this case, the Court DENIES Plaintiffs’ motion to
assign rental income or force sale for want of subject
matter jurisdiction. Furthermore, the Court STAYS
this case pending Defendants’ Ninth Circuit appeals.
I.

Background
A. Factual Background

Jim Erickson is a professional photographer who
licenses his photographs through Erickson Productions,
Inc. ECF No. 70 at 1. Plaintiffs claim that Kast copied
several of his photos and used them without permission
for Kast’s business’ website. Id. at 2.
B. Procedural History
On September 27, 2013, Plaintiffs sued Kast for
copyright infringement, and contributory and vicarious
copyright infringement in the United States District
Court for the Central District of California. ECF No.
1 at If If 64-85. The parties then stipulated to transfer
the case to the Northern District of California. ECF
No. 13. Both parties consented to United States Mag­
istrate Judge jurisdiction. ECF Nos. 26, 27. United
States Magistrate Judge Howard Lloyd presided over
the case. After lengthy pre-trial motions practice, the
case was tried before a jury starting on April 13,
2015. ECF No. 102. On April 15, 2015, the jury found
Kast guilty of vicarious infringement and contributory

App.7a

infringement, and found that the infringement was
willful. ECF No. 107. The jury awarded damages
totaling $450,000. Id. On June 12, 2015, Plaintiffs
moved for attorneys’ fees and costs. ECF No. 108.
The Magistrate Judge denied the motion for attorneys’
fees without prejudice on July 22, 2016. ECF No. 174.
On August 19, 2015, the Magistrate Judge entered
judgment against Kast in his personal capacity in the
amount of $450,000. ECF No. 118.
On September 10, 2015, Kast filed his first notice
of appeal to the Ninth Circuit. ECF No. 123. Plaintiffs
cross-appealed, but eventually voluntarily withdrew
the cross-appeal. ECF Nos. 124, 182.
On November 7, 2015, Kast moved to stay judg­
ment pending appeal without a supersedes bond in
the district court action. ECF No. 133. The Magis­
trate Judge denied Kast’s motion. ECF No. 175.
On November 23, 2016, Plaintiffs moved to amend
the judgment to include as judgment debtors various
trusts and corporate entities allegedly controlled by
either Kast or his fiance, Mariellen Baker. ECF No.
189. The Magistrate Judge ordered additional briefing
on whether the Court had jurisdiction to amend the
judgment as requested during the pendency of an
appeal. ECF No. 198. After briefing was completed
on this issue, the Magistrate Judge entered on October
18, 2017 an amended judgment granting Plaintiffs’
requested attorneys’ fees and costs, and added as
judgment debtors various trusts and corporate entities
supposedly controlled by Kast. ECF No. 246. Thus,
an amended judgment was entered against Kast,
corporate entities, various trusts, and “Kraig Kast,
Trustee of the Black Oak Trust (a/k/a Kraig Kast,
Trustee of The Black Oak Trust, dated March 11,1995)”

App.8a

(collectively, “Defendants”) in the amount of $636,
168.58 plus interest on October 18, 2017. Id. That
same day, Defendants filed a second notice of appeal
to the Ninth Circuit, this time appealing the amended
judgment. ECF No. 247.
Both the first and second appeals to the Ninth
Circuit remain pending. In Kast’s first appeal, the
Ninth Circuit has appointed pro bono counsel to assist
in briefing the case and to appear at oral argument.
Erickson Productions, Inc. v. Kast, No. 15-16801, at
Dkt. No. 54 (9th Cir. May 7, 2018).
On November 15, 2017, Kast filed a motion in his
second Ninth Circuit appeal to stay the amended
judgment. Erickson Productions, Inc. v. Kast, No. 1717157, Dkt. No. 5 (9th Cir. Nov. 15, 2017). The Ninth
Circuit denied Kast’s motion. Id., Dkt. No. 13 (9th Cir.
Feb. 27, 2018).
Now, Plaintiffs have filed a motion requesting
that the rents from various properties owned by
Defendants be assigned to Plaintiffs to satisfy the
amended judgment. ECF No. 307 at 5-7 (“Mot.”). In
the alternative, Plaintiffs request an order to force sale
of one of the properties. Id. at 8-9. Kast filed a socalled first motion to dismiss Plaintiffs’ motion to
assign/sell. ECF No. 311. Kast then filed a response
to Plaintiffs’ motion. ECF No. 319. Plaintiffs filed a
reply. ECF No. 320.

App.9a

II.

Legal Standard
A. A District Court’s Jurisdiction During an
Appeal

The United States Supreme Court has held that
“a federal district court and a federal court of appeals
should not attempt to assert jurisdiction over a case
simultaneously.” Griggs v. Provident Consumer Dis­
count Co., 459 U.S. 56, 58 (1982). However, “[albsent a
stay or supersedeas, the trial court. . . retains juris­
diction to implement the judgment or order, but may
not alter or expand upon the judgment.” In re
Padilla, 222 F.3d 1184, 1190 (9th Cir. 2000). This is
because district courts “may not finally adjudicate
substantial rights directly involved in the appeal.”
McClatchy Newspapers v. Central Valley Typographical
Union No. 46, Int’l Typographical Union, 686 F.2d
731, 734-35 (9th Cir. 1982).
III. Discussion
First, the Court discusses why it lacks subject
matter jurisdiction to entertain Plaintiffs’ motion to
assign rent or force sale. Second, the Court discusses
a stay of this case.
A. The Court Lacks Jurisdiction to Entertain
Plaintiffs’ Motion to Assign Rent/Force Sale
Plaintiffs move to enforce the October 18, 2017
amended judgment that added as a judgment debtor
“Kast as Trustee of the Black Oak Trust (a/k/a/ Kraig
Kast, Trustee of The Black Oak Trust, dated March
11, 1995).” ECF No. 243 at 18.
Federal Rule of Civil Procedure 17(b) states that
for “parties other than corporations or individuals

App.lOa

not acting in a representative capacity, capacity to
sue or be sued is determined by the law of the state
where the court is located.” Green v. Cent. Mortg.
Co., 148 F. Supp. 3d 852, 864 (N.D. Cal. 2015). Under
California law, a “trust is not an entity separate from
its trustees.” Ziegler v. Nickel, 64 Cal.App.4th 545,
548 (1998) (citing Moeller v. Superior Court, 16 Cal.
4th 1124, 1132 n.3 (1997)). The trust is not a legal
entity that can sue or be sued. Green, 148 F. Supp.
3d at 864. Thus in litigation, the trustee, not the
trust, “is the real party in interest.” Moeller, 16 Cal.
4th at 1132 n.3.
Here, Plaintiffs argue that they are entitled to
rental income from properties owned by the Black Oak
Trust. Mot. at 3.1 Moreover, Plaintiffs contend that
Kast, “through the Black Oak Trust,” collects rental
income from these properties. Mot. at 4. However,
Kast appears not to be the trustee of the Black Oak
Trust. For example, one of Plaintiffs’ exhibits in sup­
port of their motion to assign rent or force sale shows
that Mariellen Baker is listed as the trustee of the
Black Oak Trust. ECF No. 308-7. Furthermore,
Baker asserts that she assumed the role of trustee of
the Black Oak Trust on December 31, 2015, when Kast
resigned as trustee. ECF No. 213 at 3.
Because Baker now appears to be the trustee of
the Black Oak Trust, a point that Plaintiffs’ brief
concedes, Br. at 7 (describing a bank account “listed
under the Black Oak Trust name, with Baker as
trustee”), the Court lacks subject matter jurisdiction
1 According to documents Plaintiffs submitted, two properties
were transferred to the Black Oak Trust on January 3, 2012.
ECF No. 308-1. See also Mot. at 3.

App.lla
to enforce the terms of the amended judgment. Baker
as trustee of the Black Oak Trust was not party to
the copyright infringement lawsuit or original judg­
ment against Kast. ECF No. 118. Thus, to enforce the
amended judgment, the Court would need to include
nonparties to the original judgment. Under Padilla,
that would be an impermissible expansion of the scope
of the original judgment, which only concerned Kast
in his personal capacity. Therefore, the Court DENIES
Plaintiffs’ motion to assign rental income or force
sale for want of subject matter jurisdiction.
B. A Stay of these Proceedings is Warranted
The Ninth Circuit has appointed pro bono counsel
for Kast and ordered supplemental briefing on two
issues that concern Kast’s liability as to the copyright
charges. Erickson Productions, Inc. v. Kast, No. 1516801, at Dkt. No. 65 (9th Cir. Aug. 23, 2018). Further­
more, the Court is concerned that it lacks subject
matter jurisdiction to enforce the terms of the amended
judgment. “Courts have the power to consider stays
sua sponte.” Washington v. Trump, 2017 WL 1050354,
at *3 (W.D. Wash. Mar. 17, 2017). Thus, in the interest
of judicial efficiency, this Court will STAY the case
until both of Kast’s Ninth Circuit appeals have been
resolved.
IV. Conclusion
For the foregoing reasons, the Court DENIES
Plaintiffs’ motion to assign rental income or force sale.
Furthermore, the Court STAYS this case pending
resolution of Ninth Circuit appeal numbers 15-16801
and 17-17157.

App.l2a
The Clerk shall administratively close the file.
This is a purely internal administrative procedure
that does not affect the rights of the parties.
IT IS SO ORDERED.
Is/ Lucy H. Koh
United States District Judge
Dated: November 9, 2018

App.l3a
ORDER GRANTING IN PART ERICKSON’S
MOTION TO AMEND THE JUDGMENT
(OCTOBER 5, 2017)
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF CALIFORNIA
SAN JOSE DIVISION
ERICKSON PRODUCTIONS, INC, ET AL.,
Plaintiffs,
v.
KRAIG R. KAST,
Defendant.
Case No. 5:13-CV-05472-HRL
Re: Dkt. No. 189, 221, 231
Before: Howard R. LLOYD,
United States Magistrate Judge.

BACKGROUND
Erickson Productions, Inc. and Jim Erickson
(collectively referred to in the singular as “Erickson”)
sued Kraig Kast for copyright infringement, alleging
that he used, without permission, three of Erickson’s
photographs on a website for Kast’s business, Atherton
Trust. Erickson and Kast expressly consented that
all proceedings in this matter may be heard and finally
adjudicated by the undersigned. 28 U.S.C. § 636; Fed.

App.l4a

R. Civ. P. 73. Erickson’s infringement claims proceeded
to a jury trial. The jury returned a verdict for Erickson
and awarded statutory damages of $450,000. Judgment
was entered accordingly. Kast appealed that judgment,
and the appeal remains pending.
At trial, there was some evidence presented about
trusts that Kast managed, including the Kraig Kast
Living Trust and another one called the Black Oak
Trust. With respect to the latter, Kast testified that
his fiancee, Mariellen Baker, was the beneficiary. In
December 2015, several months after judgment was
entered, Kast says he resigned as trustee of the Black
Oak Trust and Baker became the successor trustee.
Meanwhile, Erickson proceeded with efforts to
collect on the judgment. He propounded written judg­
ment debtor discovery to which, he says, Kast never
responded. Erickson also served subpoenas on Baker,
as well as a number of financial institutions and
other entities.l
Erickson now moves to amend the judgment to add
judgment debtors, including Kast’s birth name and
alias (Warren Craig Rudinger) and various “doing
business as” fictitious names; the “Kraig Kast Living
Trust”; the “Black Oak Trust (a/k/a The Black Oak
Trust, dated March 11, 1995)”; and Kast as “Trustee
of the Black Oak Trust (a/k/a Kraig Kast, Trustee of
The Black Oak Trust, dated March 11, 1995).” (Dkt.
189 at 2). Additionally, although she was not a party
to the underlying litigation, Erickson moves to add
Baker, as “Successor Trustee of the Black Oak Trust
1 Kast and Baker/Black Oak Trust have filed several motions to
quash the subpoenas. The court will address those motions in a
separate order.

App.l5a

(a/k/a Mariellen Baker, Successor Trustee of the Black
Oak Trust, dated March 11, 1995)” as a judgment
debtor. {Id). The basic premise of the motion is that
Kast has used various aliases, “doing business as”
fictitious names, and trusts in order to confound
creditors and avoid paying the judgment. As for Baker
and the Black Oak Trust, Erickson contends that they
can be added to the judgment on the grounds that they
are Kast’s alter egos and that Baker is a successor to
the debt.
Pursuant to an interim order, the parties sub­
mitted briefing on the question of this court’s author­
ity to entertain Erickson’s motion to amend, in view
of Kast’s pending appeal. Erickson maintained that
the requested relief would have no substantive
impact on the appeal because, as oft-recited by Cali­
fornia cases with respect to such motions, he does not
seek to add new debtors, merely the true ones.
Baker/Black Oak Trust, on the other hand, argued that
the motion seeks to substantively amend the judg­
ment to hold liable additional persons and entities who
had no connection to this lawsuit. As for Kast, he
suggested that this court should defer ruling on the
motion to amend until after the Ninth Circuit decides
his appeal and that the state court should address
issues concerning trusts and alter ego liability. 2
2 Kast also argued that Erickson’s motion was brought too late
because it was not filed within 28 days after entry of judgment
under Fed. R. Civ. P. 59(e). The Ninth Circuit, however, has
rejected that same argument, instead requiring that such
motions be brought within a reasonable time. In re Levander,
180 F.3d 1114, 1121 n.10 (9th Cir. 1999). As will be discussed
more fully below, Erickson argues that the full scope of Kast’s
alleged subterfuge with respect to the subject trusts and assets
has only recently come to light.

App.l6a
Although this court harbored some doubt as to
the propriety of the relief Erickson sought, it never­
theless proceeded with full briefing and hearing on
the merits of the motion to amend the judgment. In
his reply brief, Erickson submitted a number of addi­
tional documents he said he recently obtained in
response to subpoenas and which, he claims, show that
Kast (l) created multiple “Black Oak” trusts on the
same day, with only slightly different titles; (2)
transferred various properties to a revocable trust,
despite his claims that the properties were placed in
an irrevocable one; and (3) treated the various trusts
as his personal piggy bank. All this, says Erickson,
was done in an effort to confuse creditors and avoid
paying the judgment.
After briefing was submitted, and just a few days
prior to the hearing on Erickson’s motion to amend,
Baker/Black Oak Trust filed a motion for leave to
submit a supplemental brief addressing this court’s
subject matter jurisdiction to entertain Erickson’s
motion (Dkt. 221). Because the court has an ongoing
duty to evaluate its subject matter jurisdiction, Fed.
R. Civ. P. 12(h)(3), at the motion hearing the court
granted Baker/Black Oak Trust’s request and accepted
the proffered supplemental brief. Additionally, at the
motion hearing, the court inquired whether it is
required to obtain Baker/Black Oak Trust’s consent
to proceed before a magistrate judge in these post­
judgment proceedings. Everyone was given an oppor­
tunity to present oral argument on the issues. Addi­
tionally, at his request, Erickson was given leave to
submit a supplemental written response on the
subject matter and magistrate jurisdiction issues.
And, at their request, Baker/Black Oak Trust were

App.l7a

given leave to submit a supplemental written response
to the arguments and evidence in Erickson’s reply on
the motion to amend.
Erickson filed his post-hearing supplemental brief
on jurisdictional issues. Later that evening, Baker/
Black Oak Trust filed a post-hearing supplemental
brief that did not address Erickson’s reply arguments
and evidence. Instead, Baker/Black Oak Trust chose
to address subject matter and magistrate jurisdiction
issues.3 And, along with her supplemental post­
hearing brief, she submitted a declination to proceed
before a magistrate judge. (Dkt. 226).
During the pendency of this motion (involving
several rounds of briefing on complex issues) and as
made clear by Erickson’s oral arguments presented,
the focus of the motion shifted to whether the assets
that Kast says are off-limits ever went to an irrevocable
trust at all. As previewed above, Erickson contends
that Kast transferred various properties to a revocable
trust that he continues to own or control.
Having considered the moving and responding
papers,4 as well as the oral arguments presented,
3 Erickson moves to strike Baker/Black Oak Trust’s post-hearing
supplemental brief on the ground that the brief does not
address any of the issues for which leave to file that brief was
given (Dkt. 231). As discussed above, however, the court has a
continuing duty to evaluate its jurisdiction; and, the court did
solicit views concerning magistrate judge jurisdiction. Accordingly,
the court has accepted and considered Baker/Black Oak Trust’s
post-hearing supplemental brief. Erickson’s motion to strike is
denied.
4 The court conditionally sealed a number of documents submit­
ted by Erickson, primarily to protect information such as Social
Security numbers, account numbers, and the like. This order

App.l8a

this court now grants in part Erickson’s motion to
amend as follows:
DISCUSSION
A.

Subject Matter Jurisdiction

The question is whether Erickson’s motion to
amend the judgment falls within this court’s ancillary
jurisdiction. The Supreme Court has identified two
purposes for which a court may exercise ancillary
jurisdiction over a claim that would otherwise not
fall within the court’s jurisdiction: ‘“(l) to permit dis­
position by a single court of claims that are, in varying
respects and degrees, factually interdependent; and (2)
to enable a court to function successfully, that is, to
manage its proceedings, vindicate its authority, and
effectuate its decrees.’” Peacock v. Thomas, 516 U.S.
349, 354 (1996) (quoting Kokkonen v. Guardian Life
Ins. Co., 511 U.S. 375, 379-380, 114 S. Ct. 1673, 1676,
128 L.Ed.2d 391 (1994)). Arguing that he is seeking
to collect on the judgment, Erickson says it is the
second purpose that applies here. See id. at 356 (“We
have reserved the use of ancillary jurisdiction in
subsequent proceedings for the exercise of a federal
court’s inherent power to enforce its judgments.”).
As between those cases where ancillary jurisdiction
exists and those where it doesn’t, caselaw teaches
that the key inquiry is whether the judgment creditor
merely seeks to collect a judgment or whether it seeks
to hold a new party directly liable for the original
judgment on new claims or theories. If it is the latter,
only discusses information from those documents that are part
of the public record in this matter.

App.l9a

courts have generally found that there is no ancillary
jurisdiction, absent an independent basis for federal
jurisdiction. Deciding where a case falls within this
framework necessarily requires analysis of the
nature of the post-judgment claims and allegations
asserted in a particular case.
For example, in Peacock, after unsuccessful
attempts to collect the judgment, the judgment creditor
filed a new suit in federal court against the judgment
debtor (a corporate entity) and the debtor’s officer,
alleging that the officer conspired to siphon the
debtor’s assets to prevent satisfaction of the judgment.
In concluding that the district court did not have
ancillary jurisdiction over that matter, the Supreme
Court reasoned that ancillary jurisdiction may not be
exercised to impose an obligation to pay an existing
federal judgment on a person not already liable for
that judgment. 516 U.S. at 357. However, the Court
declined to address arguments that the new action
was simply an attempt to collect the judgment because
neither the parties nor the lower courts had ever
characterized the suit in that way. And, indeed, the
judgment creditor expressly stated that the new action
was not one to collect the judgment, but rather to
pierce the corporate veil in order to establish the
officer’s liability for the judgment against the debtor.
Id. at 357 n. 6.
Several months after Peacock was decided, the
Ninth Circuit addressed the issue in Thomas, Head,
& Greisen Employees Trust v. Buster, 95 F.3d 1449
(9th Cir. 1996). There, the judgment creditor brought
supplementary proceedings against the debtor to collect
on the judgment and then subsequently filed an
amended complaint adding as defendants several

App.20a
individuals and entities who were not parties to the
original action or judgment. These additional defend­
ants were included in the supplementary proceedings
on allegations that the debtor had fraudulently
transferred various properties to them in an effort to
avoid paying the judgment. In concluding that the dis­
trict court had subject matter jurisdiction over the
supplementary proceedings, the Ninth Circuit began
with the principle that “Where can be little question
that federal courts generally possess the power to
protect their judgments by setting aside fraudulent
conveyances of the judgment debtor.” Id. at 1453.
That power, the court observed, “derives from the
long-recognized principle that a federal court may
assert authority over non-federal claims ‘when
necessary to give effect to the court’s judgment.”’ Id.
(quoting Finley v. United States, 490 U.S. 545, 551,
109 S. Ct. 2003, 2008, 104 L.Ed.2d 593 (1989)). The
court went on to find that Peacock was inapposite
because, unlike in Peacock, the judgment creditor
was not attempting to hold the additional individuals
and entities liable for the original judgment, but
sought “only to disgorge from them, as alleged fraud­
ulent transferees, the property [the debtor]
wrongfully transferred to them.” Id. at 1454.
In applying these principles here, this court first
addresses Erickson’s arguments as to Kast. For the
reasons to be discussed, the court concludes that it
has subject matter jurisdiction over Erickson’s
motion as to Kast and finds it unnecessary to reach
Erickson’s allegations as to Baker.

App.21a
B.

Motion to Amend re Kast

Erickson says that Kast has used various aliases
and fictitious names in order to avoid paying the
judgment. And, despite Kast’s claims to the contrary,
Erickson contends that Kast transferred various
properties, not to an irrevocable trust, but to a
revocable one of which he is the identified grantor or
trustee with complete control over the trust assets.
The relief sought by Erickson’s motion as to Kast’s
strikes this court as nothing more than an attempt to
collect on the judgment. Under the precedents discussed
above, this court concludes that it has subject matter
jurisdiction over Erickson’s motion to amend the
judgment as to Kast.
In responding to this court’s interim order, Kast
suggested that Erickson’s motion should be decided
by the state court—an argument that this court
construes as a request that the court decline to exercise
ancillary jurisdiction. There is no dispute that the
exercise of ancillary jurisdiction is discretionary. See
Thomas, Head, & Greisen Employees Trust, 95 F.3d at
1453 (stating that the power to protect judgments by
setting aside fraudulent conveyances “derives from
the long-recognized principle that a federal court
may assert authority over non-federal claims when
necessary to give effect to the court’s judgment.”)
(citation omitted) (emphasis added). Nevertheless,
“[wjithout jurisdiction to enforce a judgment entered
by a federal court, ‘the judicial power would be incomp­
lete and entirely inadequate to the purposes for
which it was conferred by the Constitution.’” Peacock,
516 U.S. at 356 (quoting Riggs v. Johnson Cnty., 6
Wall. 166, 187, 18 L.Ed. 768 (1868)). And, while
Erickson could pursue proceedings against Kast in

App.22a
the state court, this court finds that would not serve
the interests of judicial economy or efficiency. Accord­
ingly, the court will not decline to exercise jurisdic­
tion.
Erickson seeks to amend the judgment to add
Kast’s aliases and fictitious business names. Erickson
submits evidence that Kast has used his birth name
“Warren Craig Rudinger” (or variations of it) on bank
accounts. (Dkt. 191, Declaration of Kevin McCulloch
ISO Motion (“McCulloch Deck”) 4, Ex. 2; Dkt. 215,
Declaration of Kevin ISO Reply (“McCulloch Reply
Decl.”) 1J 2, Ex. l). Erickson has also presented evidence
that Kast registered a number of fictitious “doing
business as” names in California. (McCulloch Decl.
Iflf 5-6, Exs. 3-4). The alias and businesses are not
separate legal entities; they are merely Kast by other
names. Global Concierge Holdings v. Charbo, No. CV
13-5203-RGK MANX, 2013 WL 6241589, at *4 (C.D.
Cal. Dec. 3, 2013) (“Use of a fictitious business name
does not create a separate legal entity”); Pinkerton’s,
Inc. v. Super. Ct., 49 Cal.App.4th 1342, 1348, 57
Cal. Rptr. 2d 356, 360 (1996) (same); see also Mad
Dogg Athletics, Inc. v. NYC Holding, 565 F. Supp. 2d
1127, 1130 (C.D. Cal. 2008) (stating that in cases
involving fictitious business entities, post-judgment
amendments are similar to clerical error corrections).
The court grants Erickson’s motion to amend the
judgment to add Kast’s birth name/alias Warren Craig
Rudinger and the fictitious business names “Atherton
Trust,” “Atherton & Associates,” “Atherton Insurance
Services,” “The Atherton Company,” “Atherton Invest­
ment Advisors,” and “CB Real Estate Wealth Manage­
ment.”

App.23a
Erickson also seeks to amend the judgment to add:
“Kraig Kast Living Trust and Black Oak Trust (a/k/a
The Black Oak Trust, dated March 11, 1995)” and
“Kraig Kast, Trustee of the Black Oak Trust (a/k/a
Kraig Kast, Trustee of The Black Oak Trust, dated
March 11, 1995).” (Dkt. 189 at 2). This court is told
that there is no longer a Kraig Kast Living Trust (at
least, not by that name). And, Kast says that he
resigned as trustee of the Black Oak Trust; that Baker
is now the trustee and beneficiary; and that the Black
Oak Trust is irrevocable, so its assets are not subject
to Erickson’s judgment anyway. See Laycock v.
Hammer, 141 Cal.App.4th 25, 30, 44 Cal. Rptr. 3d 921
(2006) (stating that in order to reach the assets held
by a trust, a judgment creditor must show that, not­
withstanding the trust’s terms, the trust is revoca­
ble). As discussed, Erickson contends that, in order to
confuse and avoid creditors, Kast created multiple
“Black Oak Trusts” on the same day, with only slightly
different titles, and transferred various properties to
a revocable “Black Oak Trust” over which he main­
tains complete control, despite his claims that the
properties were placed in an irrevocable one.
Federal Rule of Civil Procedure 69(a) pertains to
the execution of judgment and provides that “[t]he
procedure on execution—and in proceedings supple­
mentary to and in aid of judgment or execution—must
accord with the procedure of the state where the
court is located, but a federal statute governs to the
extent it applies.” Rule 69(a) “empowers federal
courts to rely on state law to add judgment-debtors.”
In re Levander, 180 F.3d 1114, 1120-21 (9th Cir. 1999).
California Code of Civil Procedure § 187 permits a
court to amend a judgment to add judgment debtors:

App.24a
As a general rule, ‘a court may amend its
judgment at any time so that the judgment
will properly designate the real defend­
ants.’
Judgments may be amended to
add additional judgment debtors on the
ground that a person or entity is the alter ego
of the original judgment debtor. . . . ‘Amend­
ment of a judgment to add an alter ego “is
an equitable procedure based on the theory
that the court is not amending the judgment
to add a new defendant but is merely inser­
ting the correct name of the real defend­
ant. ... ‘Such a procedure is an appropriate
and complete method by which to bind
new. . . defendants where it can be
demonstrated that in their capacity as alter
ego of the corporation they in fact had
control of the previous litigation, and thus
were virtually represented in the lawsuit.
Greenspan v. LADT, LLC, 191 Cal.App.4th 486, 508,
121 Cal. Rptr. 3d 118 (2010) (quoting Hall, Goodhue,
Haisley & Barker, Inc. v. Marconi Conference Ctr.
Bd, 41 Cal.App.4th 1551, 1554-55, 49 Cal. Rptr. 2d
286 (1996)). “California courts have applied the alter
ego doctrine to trusts.” In re Schwarzkopf, 626 F.3d
1032, 1038 (9th Cir. 2010) (citing Torrey Pines Bank
v. Hoffman, 231 Cal.App.3d 308, 282 Cal. Rptr. 354,
359 (1991)). While a trustee may be added a's a judg­
ment debtor, a trust itself is not subject to the alter
ego doctrine because it is not a legal entity. Greenspan,
191 Cal.App.4th at 496.
There are four California properties in question—
three in Foster City and one in Valley Center. They
will be referred to here as the “Beach Park” property;

App.25a
“De Soto” property; “East Court” property; and “Valley
Center” property.
It is undisputed that the Kraig Kast Living Trust
was a revocable trust established on March 11, 1995,
with Kast as the grantor or trustee with “all rights to
all income, profits and control of the trust property”
during his lifetime. (Dkt. 213-1, Declaration of Kraig
R. Kast ISO Baker’s Opposition (“Kast Deck”) If 3,
Ex. l). The parties have submitted deeds showing that
three of the properties at issue—De Soto, Beach Park,
and East Court—were placed in the Kraig Kast Living
Trust in 2005. (McCulloch Reply Deck 23, Ex. 22;
Kast Deck f f 5-7, Exs. 2-4).
On this record there also seems to be no contro­
versy that on December 11, 2007, the Kraig Kast Living
Trust was amended. The import of those purported
amendments, however, is disputed.
According to Kast, he amended and restated the
Kraig Kast Living Trust, changing the name to “The
Black Oak Trust,” converting it to an irrevocable
trust, and adopting a new 100-page trust document.
(Kast Deck
12-14, Ex. 6; Dkt. 213-2 Declaration of
Mariellen Baker ISO Opposition (“Baker Deck”) f 2).
The trust document identifies Kast as the settlor and
initial trustee and Baker as the sole lifetime beneficiary
and designated successor trustee. (Kast Deck 13,
Ex. 6, Art. 2; Baker Deck U 2). Kast and Baker aver
that Kast has never been the beneficiary of this trust.
(Id). Kast further states that the Beach Park, De
Soto, and East Court properties (formerly held in the
Kraig Kast Living Trust) and the Valley Center prop­
erty (subsequently acquired by Kast later in Decem­
ber 2007), were all placed in this irrevocable Black
Oak Trust pursuant to an “Addendum A” to the trust

App.26a
document. (Kast Decl
12, 16, Ex. 6 Section 1.04,
Addendum A). The “Addendum A” is a one-page doc­
ument that says “Properties included in the Black
Oak Trust,” followed by a list of the four properties at
issue and by what appears to be Kast’s signature and
the date December 30, 2007. (Id.). Kast says that,
before putting the De Soto property in the irrevocable
Black Oak Trust for Baker, he refinanced that property
(Kast Decl.
21-22); and, at oral argument, he said
that the proceeds were used to the buy the Valley
Center property. He says that deeds subsequently were
recorded to reflect the December 11, 2007 and December
30, 2007 actions as follows: February 20, 2008 for the
Valley Center property; March 12, 2008 for the De
Soto property; and on February 3, 2012 for the East
Court and Beach Park properties. (Kast Decl
18,
22, 24, 25, Exs. 9, 12, 13, 16).
Kast says he placed these four properties in trust
for Baker as a way of paying back $470,000 in personal
loans. (Kast Decl. IHf 9-11; Baker Decl. tlf 4-6). To
that end, Kast submits a document titled “Promissory
Note,” bearing what appear to be Kast’s and Baker’s
signatures made at various times, and purporting to
confirm this arrangement. The document is initially
dated June 6, 2006 and contains handwritten updates
dated September 2, 2006 and September 12, 2006. (Kast
Decl.
9-11, Ex. 5).
As trustee, Kast says that he engaged in activities,
in the ordinary course of trust business, that were
done for trust purposes. For example:
•

He carried out three refinancing transactions
for: an East West Bank Loan, closed May 6,
2011, for the East Court property (Kast Decl
27-34, Dkt. 213-3 Biche Decl Uf 4-7); a loan

App.27a

obtained from Behrooz and Laurie Shahab,
closed April 10, 2015, for the East Court prop­
erty (Kast Decl 1fU 35-37; Biche Decl UK 8-9);
and a loan obtained from Anthony and Valerie
Vacarella, re the Beach Park property (Kast
Decl
38-40, Biche Decl. UK 10-11);
•

The De Soto property was sold on October 19,
2012, Kast says, to reduce debt and generate
funds for trust purposes (Kast Decl. 1f 41).

Kast says he resigned as trustee of the Black
Oak Trust on December 31, 2015 (several months after
judgment was entered here), and Baker became the
successor trustee. (Kast Decl. 1f 15, Ex. 6 section
3.02(a); Ex. 7; Baker Decl. If 3). And, Baker says that
in her capacity as trustee, she sold the Valley Center
property on November 2, 2016, to reduce debt and
generate funds for trust purposes. (Baker Decl. 1f1f 710).
In sum, Kast maintains that as of December 30,
2007 (several years before Erickson filed this litigation),
the subject properties were placed in an irrevocable
trust for Baker to satisfy her personal loans to him
and that all trustee transactions respected the
irrevocable trust.
Erickson argues that documents he obtained show
a different story—namely, that there were several
“Black Oak Trusts” created on December 11, 2007; that
the subject properties were placed in a revocable
“Black Oak Trust” that Kast owns and controls; and
that Kast continued to exercise ownership and control
over the properties even after he resigned as trustee
of the alleged irrevocable “Black Oak Trust” he says
he established to repay Baker’s loans.

App.28a

Here, Erickson presents documents indicating that
on December 11, 2007, Kast actually executed three
separate trust declarations, each with different bene­
ficiaries and terms and using subtly different titles,
but all containing the phrase “Black Oak Trust”:
•

One document, entitled “Second Amended
Living Trust/Black Oak Trust to the Kraig R.
Kast Living Trust,”5 changes the name of the
trust to “the Black Oak Trust, dated March 11,
1995.” It also identifies individuals who will
become successor trustees and beneficiaries in
the event of Kast’s death. Otherwise, this
“Second Amended” document states that “the
terms of [the Kraig R. Kast Living Trust] dec­
laration shall remain in full force and effect.”
(McCulloch Reply Decl. t 3, Ex. 2). This docu­
ment will be referred to as the “Second
Amended Living Trust/Black Oak Trust” doc­
ument.

•

A second December 11, 2007 document purports
to create an irrevocable trust by the name
“Kraig R. Kast, Trustee of the Black Oak Trust
dated December 11, 2007.” Although only a few
pages of this document have been presented to
the court, the pages that have been submitted
indicate that Kast is the settlor and trustee.
(McCulloch Reply Decl. 5, Ex. 4). This docu­
ment will be referred to as the “December 11,
2007 Black Oak Trust.”

5 According to the terms of this document, the provisions of the
“First Amendment” to the Kraig R. Kast Living Trust were
made on March 26, 2005 and “are hereby revoked and shall be
of no further force and effect.” (McCulloch Reply Decl. T) 3, Ex. 2).

App.29a
• A third December 11, 2007 document bears the
title “The Black Oak Trust” and appears to
create an irrevocable trust by the alternate
names “Kraig R. Kast, Trustee of the Black Oak
Trust dated December 11, 2007” or “Kraig R.
Kast, Trustee of the Black Oak Trust dated
March 11, 1995.” Baker is identified as the
lifetime beneficiary of the trust. (McCulloch
Reply Decl. f 4, Ex. 3). This would appear to
be the same trust document Kast and Baker
claim established the irrevocable trust to repay
Baker’s loan.6 This document will be referred
to as the “Baker/Black Oak Trust.”
In sum, these documents indicate that on
December 11, 2007, Kast executed three different
“Black Oak Trust” documents—and the purportedly
irrevocable Baker/Black Oak Trust apparently was to
be known by the names that appear to be similar, if
not identical, to the other two December 11, 2007
Black Oak Trusts of which Kast is the identified settlor
or grantor/trustee with control over the trust property.
Notably, the Second Amended Living Trust/Black Oak
Trust document did not change the revocable nature
of the Kraig R. Kast Living Trust.
Erickson says that other documents show that the
four properties Kast reportedly transferred to the
irrevocable Baker/Black Oak Trust actually were
transferred to himself (i.e., the Second Amended
Living Trust/Black Oak Trust of which he maintains
control). For example, with respect to the property
6 As discussed more fully below, however, Erickson points out
that there are discrepancies in the document submitted by Kast
and Baker.

App.30a
deeds that Kast and Baker say he recorded to confirm
transfer of the properties to the Baker/Black Oak
Trust:
• A February 20, 2008 grant deed transfers the De
Soto property from “Kraig R. Kast, A Single
Man” to “Kraig Rudinger Kast, a trustee of the
Black Oak Trust, Dated March 11, 1995.”
(McCulloch Reply Decl. 7, Ex. 6; Kast Decl.
H 22, Ex. 12).
• Another February 20, 2008 grant deed shows
that the Valley Center property (i.e., the one
Kast acquired about 2 weeks after creating the
various December 11, 2007 “Black Oak” trusts)
was transferred “into or out of [the grantor’s]
revocable trust” by “Kraig R. Kast, A Single
Man” to “Kraig Rudinger Kast, Trustee of the
Black Oak Trust, Dated March 11, 1995.”
(McCulloch Reply Deck U 9, Ex. 8) (emphasis
added).
• A February 3, 2012 quitclaim deed shows that
the East Court property was transferred from
“KRAIG RUDINGER KAST” to “KRAIG R.
KAST, as Trustee under the DECLARATION
OF THE BLACK OAK TRUST, Dated 3/11/95.”
This deed states that the property is being
transferred “into a Revocable Trust.” (McCul­
loch Reply Deck U 8, Ex. 7; Kast Deck U 31,
Ex. 16) (emphasis added).
• Another February 3, 2012 quitclaim deed
transfers the Beach Park property from “KRAIG
RUDINGER KAST, as Trustee under the
DECLARATION OF THE KRAIG KAST
LIVING TRUST, dated 3/11/95” to “KRAIG R.

App.31a
KAST, as Trustee under the DECLARATION
OF THE BLACK OAK TRUST, Dated 3/11/95.”
This deed, too, says that the property is being
transferred “into a Revocable Trust.” (McCul­
loch Reply Decl. t 6, Ex. 5; Kast Decl. Tf 25, Ex.
13) (emphasis added).
In view of the similar names of the various December
11, 2007 “Black Oak” trusts—it is somewhat ambiguous
which one actually was receiving the property. But,
the fact that at least three of the deeds expressly say
that the subject properties were being placed into a
revocable trust suggests that the properties were
being transferred, not to the Baker/Black Oak Trust,
but to the revocable Second Amended Living Trust/
Black Oak Trust of which Kast is the grantor/trustee
with control over all trust property. Kast says that
the reference to “revocable” trusts in those deeds was
just a mistake, saying he paid no particular attention
to that word in the deeds. (Kast Decl. t 20). However,
the court finds that Kast’s assertions are not credible
since (l) he executed several December 11, 2007
“Black Oak Trust” documents, purporting to create
both revocable and irrevocable trusts; and (2) the
alleged mistake occurred no less than three different
times in deeds recorded over a period of several years.
Erickson argues that still other documents provide
further reasons to doubt Kast’s and Baker’s arguments
that Kast intended to put the subject properties into
the purported irrevocable Baker/Black Oak Trust. For
example, with respect to the purchase of the Valley
Center property:
• A promissory note shows that Kast completed
the purchase of the Valley Center property on
December 14, 2007, several days after he created

App.32a
the multiple “Black Oak” trusts. (McCulloch
Reply Decl. If 10, Ex. 9).
•

Nevertheless, the Sale Closing Escrow In­
structions show that Kast “direct [ed] that title to
the Property be vested as follows: “Kraig R.
Kast, an unmarried man.” {Id. ^ 22, Ex. 21 at
1).

•

Kast also purchased title insurance from First
American Title Insurance Company (First
American), and the policy, dated December 28,
2007, stated that Kast personally was the buyer
and excluded coverage if title was vested “other
than” in “Kraig R. Kast, an unmarried man.” {Id.
1 12, Ex. 11 at 2-3).

•

The mortgage note, issued by J.P. Morgan/
Chase (“Chase”), was also to Kast personally.
{Id. 10, Ex. 9.)

At oral argument, Kast stated that the property
purchase had to be done this way because the bank
would not finance the purchase in the name of a trust.
Even so, this court has not been presented with evi­
dence that Kast ever changed the title insurance
policy or the mortgage note to reflect that he no
longer held title to the property. When viewed together
with the subsequent February 20, 2008 deed trans­
ferring the Valley Center property “into or out of [the
grantor’s] revocable trust” by “Kraig R. Kast, A
Single Man” to “Kraig Rudinger Kast, Trustee of the
Black Oak Trust, Dated March 11, 1995,” the evi­
dence strongly suggests that Kast had no intention at
the time of vesting title to this newly acquired prop­
erty in an irrevocable trust.

App.33a
But wait, says Erickson, there’s more:
•

Erickson presents a December 20, 2007 note
that Kast faxed to the First American escrow
officer, Carolyn Koontz (“Koontz”), which states:
‘Please find attached the 2nd Amendment to my
Living Trust. When putting the Foster City and
Valley Center homes back in the trust, please
use the name Black Oak Trust.” (McCulloch
Reply Decl. 1 11, Ex. 10). The referenced “2nd
Amendment to my Living Trust,” says Erickson,
could only mean the Second Amended Living
Trust/Black Oak Trust document that simply
renamed Kast’s revocable living trust “Black
Oak Trust, dated March 11, 1995.” And,
Erickson argues that the instruction to put the
properties “back in the trust” suggests that Kast
meant that the properties were to be placed, not
in a newly-created irrevocable trust, but rather
to his revocable trust, to which he transferred
the De Soto property in March 2005 and later
transferred back to himself on December 4, 2007
for refinancing. {Id. Iff 23-24, Exs. 22 & 23).

•

Erickson also presents a document indicating
that Koontz prepared a grant deed transferring
the De Soto property from “Kraig R. Kast, A
Single Man” to “Kraig Rudinger Kast, a trustee
of The Black Oak Trust, Dated March 11, 1995”
on February 11, 2008, according to Kast’s in­
structions and using the name of the revocable
trust declaration he had sent her. {Id. f 7, Ex. 6).

Erickson posits that Koontz worked for First American
(Kast’s title insurance company), and so would have
(l) noticed if Kast intended to make a transfer that
would have voided his insurance; and (2) been aware

App.34a

of the need to file a Preliminary Change of Ownership
Report (“PCOR”) as required under Cal. Rev. & Tax
Code § 480 for transfers to an irrevocable trust. But,
says Erickson, there is no evidence that a PCOR was
ever recorded.
As for the alleged “Addendum A” that Kast says
effectively placed the four subject properties in the
purportedly irrevocable Baker/Black Oak Trust,
Erickson argues that the document is rife with evi­
dentiary problems:
•

The document purports to be signed by Kast on
December 30, 2007, but Kast offers no evidence,
other than his own declaration, that the docu­
ment was executed on that date.

•

Erickson says that this “Addendum A” was not
included in any copies of the trust declaration
produced in response to his subpoenas for
property transactions by Black Oak Trust prior
to 2015. (McCulloch Reply Decl. 1f 25).

•

The Baker/Black Oak Trust declaration itself
states that the properties to be included in the
trust are listed in “Schedule A,” not “Addendum
A.” (Kast Decl. U 12, Ex. 6 at 16, § 1.04).

•

Although the record indicates that Kast had
other amendments to his trusts notarized, this
“Addendum A” listing the properties that he
purportedly is relinquishing to an irrevocable
trust is not notarized. (Compare McCulloch
Reply Deck ]f 3, Ex. 2 and Kast Deck, 1 12, Ex.
6). Kast argues that while notarization is
allowed, it is not required. Nevertheless,
Erickson says the lack of notarization is notable.

App.35a

Further, Erickson points out that there are
discrepancies in the Baker/Black Oak Trust declaration
presented by Kast and Baker and the copy of that
document Erickson says he received from First
American in response to his subpoena. To begin, the
document Kast and Baker present to the court does
not include any of the referenced schedules, including
“Schedule A,” which the declaration expressly states
was “attached to this agreement.” (Kast Decl. ^ 12,
Ex. 6). Instead, Kast submitted the “Addendum A,”
the reliability of which Erickson says is questionable
and which is missing from the copy Erickson says it
obtained from First American. Additionally, in the
Baker/Black Oak Trust documents submitted by both
Kast and Erickson, the document begins on page 5,
indicating that at least 4 pages preceding the table of
contents is missing. (McCulloch Reply Decl. U 3, Ex.
2; Kast Decl., 1 12, Ex. 6).
Additionally, the Baker/Black Oak Trust decla­
ration presented by Kast is entirely different than
the alternative, purportedly irrevocable “December
11, 2007 Black Oak Trust” that identifies Kast as the
settlor and trustee that Erickson says he received in
response to another subpoena. (McCulloch Reply Decl.

t 5, Ex, 4).
Erickson also presents evidence indicating that
Kast claimed to hold the properties in his own name,
even after having purportedly transferred them to
the Baker/Black Oak Trust. For example, Erickson
submits a “Wealth Advisory and Business Consulting
Fee for Services Agreement,” with SG Private Wealth
Advisors (“SG”). (McCulloch Reply Decl., f 17, Ex. 16).
The agreement says that it is effective as of Decem­
ber 29, 2010, i.e., several years after Kast reportedly

App.36a
transferred the subject properties to an irrevocable
trust. The agreement states that Kast agreed to pay
SG 1% of the purchase or refinance price for any
properties. The two identified properties are the
Beach Park and De Soto properties, as to which Kast
applied for loans. {Id. (Schedule 2)). Each loan appli­
cation states that “title will be held” in the name of
“Kraig R. Kast” and that the “manner in which Title
will be held” was “unmarried man.” {Id). Each appli­
cation also identifies “Kraig R. Kast” as the borrower.
Neither Kast nor Baker have presented any evidence
that these investments were for the benefit of a trust.
And, Erickson says that still other documents he
obtained strongly suggest that Kast has not only con­
tinued to exercise control over the properties, but has
also acted in a manner to avoid creditors. For
example, in an email dated June 20, 2016—i.e., six
months after Kast resigned as trustee of the Baker/
Black Oak Trust—from Kast to Laura Biche (iden­
tified as a mortgage advisor who assisted Kast with
prior loans re the East Court and Beach Park
properties) Kast says he is considering selling the
“Townhouse and Beach Park Condo”:
I’m thinking that selling is the only way to
protect the equity. If I lose the appeal then
their next step is to try to break up the
trust. If the court doesn’t accept vour/our
refi explanation then the court could rule
fraudulent transfer and block a sale and pay
them.
(McCulloch Reply Decl. If 18, Ex. 17 (emphasis added)).
And, some two months later—i.e., about 8 months after
Kast resigned as trustee of the Baker/Black Oak Trust
—another email from Kast to Biche:

App.37a

Please remember, I don’t have a personal
bank account so it can’t be attached by the
crazy woman. Everything is in the name of
the Corporation or Trust and the trust owns
the corporation. If they want bank statements
from me personally I can’t give them to a
lender because they don’t exist by design.
{Id. U 21, Ex. 20) (emphasis added).7
Neither Kast nor Baker have responded to these
exhibits submitted by Erickson. Indeed, at oral argu­
ment, when probed by the court about them and the
assertions Erickson makes—and especially why
there apparently are two entirely different “Black
Oak Trust” documents purporting to establish irrevo­
cable trusts (one naming Baker as beneficiary and
successor trustee; the other identifying Kast as the
settlor and trustee)—neither Baker nor Kast had an
answer. Baker said that she had historically only
been given the Baker/Black Oak Trust document. She
claimed to have no knowledge about the other two
December 11, 2007 documents and said that she had
never before seen either one. As discussed above, the
court granted Baker’s request for leave to submit
supplemental briefing about Erickson’s reply documents
and arguments; but, she apparently chose not to
address them.
As for Kast, although he confirmed that he had
received and read all of Erickson’s motion papers, he
told the court that he could not comment about them
7 Erickson says that the “crazy woman” referenced in this email
is Diana Reinecker, who has submitted papers with this court
in connection with unrelated post-judgment matters, identifying
herself as another one of East’s judgment creditors.

App.38a

because he did not bring the papers with him to the
hearing. When the court described some of the dif­
ferences between the two purported irrevocable
“Black Oak” trust documents, Kast said he could not
answer because he did not have the documents in front
of him. And, when further pressed by the court to
respond to some of the other assertions made by
Erickson (e.g., that he continued to claim ownership
of the properties, even after purportedly transferring
them to the Baker/Black Oak Trust), Kast again said
he could not comment and referred the court to his
written opposition papers, saying that he had no more
to add.
Based on the foregoing, and in view of the unre­
futed evidence submitted by Erickson in his reply
brief, the court finds that there has not been a transfer
of the subject properties to an irrevocable trust, but
rather, to a revocable trust (i.e. the Second Amended
Living Trust/Black Oak Trust) of which the record
shows that Kast remains the grantor and trustee with
all rights to income, profits and control of the trust
property during his lifetime. And, on this record, it
appears that Kast has used the purported conveyances
to the Baker/Black Oak Trust as a ruse to avoid pay­
ment of the judgment as to Erickson. Accordingly, in
addition to Kast’s birth name/alias and fictitious
business names, Erickson’s motion to amend the
judgment as to Kast is granted to add Kast as Trustee
of the Black Oak Trust (a/k/a Kraig Kast, Trustee of
The Black Oak Trust, dated March 11, 1995).
In view of the foregoing, the court finds it
unnecessary to address Erickson’s motion to amend
the judgment to add Baker/Black Oak Trust as a
judgment debtor. Because Baker is not and has never

App.39a
been a party to these proceedings, the court concludes
that obtaining her consent to proceed before the
undersigned is not required.
SO ORDERED.
/s/ Howard R. Llovd
United States Magistrate Judge
Dated: October 5, 2017

App.40a
ORDER OF THE NINTH CIRCUIT DENYING
PETITION FOR REHEARING EN BANC
(JUNE 7, 2019)
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
ERICKSON PRODUCTIONS, INC.;
JIM ERICKSON,
Plain tiffs-Appellees,
v.
KRAIG RUDINGER KAST,
Defendan t-Appellan t.
No. 17-17157
D.C. No. 5:13-cv-05472-HRL
Northern District of California, San Jose
Before: THOMAS, Chief Judge,
HAWKINS and MCKEOWN, Circuit Judges.
Judges Thomas and McKeown have voted to deny
Appellant’s petition for rehearing en banc, and Judge
Hawkins so recommends. The full court has been
advised of the petition for rehearing en banc and no
judge of the court has requested a vote on whether to
rehear the matter en banc. Fed. R. App. P. 35.
Appellant’s petition for rehearing en banc is
DENIED.

App.41a
CALIFORNIA PROBATE CODE
STATUTES AND DEFINITIONS
2005 California Probate Code
Sections and Definitions
Division 9 Trust Law
15200.
Subject to other provisions of this chapter, a trust
may be created by any of the following methods:
(e) An enforceable promise to create a trust.
15201.
A trust is created only if the settlor properly
manifests an intention to create a trust.
15202.
A trust is created only if there is trust property.
15203.
A trust may be created for any purpose that is
not illegal or against public policy.
15205.
(a) A trust, other than a charitable trust, is
created only if there is a beneficiary.
15206.
A trust in relation to real property is not valid
unless evidenced by one of the following methods:

App.42a

(a) By a written instrument signed by the trus­
tee, or by the trustee’s agent if authorized in
writing to do so.
(b) By a written instrument conveying the trust
property signed by the settlor, or by the settlor’s
agent if authorized in writing to do so.
15207.
(b) The oral declaration of the settlor, standing
alone, is not sufficient evidence of the creation of a
trust of personal property.
15208.
Consideration is not required to create a trust,
but a promise to create a trust in the future is enforce­
able only if the requirements for an enforceable con­
tract are satisfied.
810.
The Legislature finds and declares the following:
(a) For purposes of this part, there shall exist a
rebuttable presumption affecting the burden of
proof that all persons have the capacity to make
decisions and to be responsible for their acts or
decisions.
16000.
On acceptance of the trust, the trustee has a
duty to administer the trust according to the trust
instrument and, except to the extent the trust instru­
ment provides otherwise, according to this division.

App.43a

16002.
(a) The trustee has a duty to administer the
trust solely in the interest of the beneficiaries.
16004.
(a) The trustee has a duty not to use or deal
with trust property for the trustee’s own profit
or for any other purpose unconnected with the
trust, nor to take part in any transaction in which
the trustee has an interest adverse to the benefi­
ciary.
(b) This section may not be construed as affec­
ting the trustee’s right to:
(l) Maintain a reserve for reasonably anticipated
expenses, including, but not limited to,
taxes, debts, trustee and accounting fees,
and costs and expenses of administration.
16006.
The trustee has a duty to take reasonable steps
under the circumstances to take and keep control of
and to preserve the trust property.
16007.
The trustee has a duty to make the trust prop­
erty productive under the circumstances and in fur­
therance of the purposes of the trust.
16009.
The trustee has a duty to do the following:
(a) To keep the trust property separate from
other property not subject to the trust.

App.44a

(b) To see that the trust property is designated
as property of the trust.
16010.
The trustee has a duty to take reasonable steps
to enforce claims that are part of the trust property.
16011.
The trustee has a duty to take reasonable steps
to defend actions that may result in a loss to the
trust.
16012.
(a) The trustee has a duty not to delegate to
others the performance of acts that the trustee
can reasonably be required personally to perform
and may not transfer the office of trustee to
another person nor delegate the entire adminis­
tration of the trust to a co-trustee or other person.
(b) In a case where a trustee has properly dele­
gated a matter to an agent, cotrustee, or other
person, the trustee has a duty to exercise general
supervision over the person performing the dele­
gated matter.
(c) This section does not apply to investment
and management functions under Section 16052.
16014.
(a) The trustee has a duty to apply the full extent
of the trustee’s skills.
(b) If the settlor, in selecting the trustee, has
relied on the trustee’s representation of having

App.45a

special skills, the trustee is held to the standard
of the skills represented.
16015.
The provision of services for compensation by a
regulated financial institution or its affiliates in the
ordinary course of business either to a trust of which
it also acts as trustee or to a person dealing with the
trust is not a violation of the duty provided in Section
16002 or 16004. For the purposes of this section,
“affiliate” means a corporation that directly or indi­
rectly through one or more intermediaries controls, is
controlled by, or is under common control with another
domestic or foreign corporation.
16040.
(a) The trustee shall administer the trust with
reasonable care, skill, and caution under the cir­
cumstances then prevailing that a prudent person
acting in a like capacity would use in the conduct
of an enterprise of like character and with like
aims to accomplish the purposes of the trust as
determined from the trust instrument.
16352.
(a) If a trustee who conducts a business or
other activity determines that it is in the best
interest of all the beneficiaries to account sepa­
rately for the business or other activity instead
of accounting for it as part of the trust’s general
accounting records, the trustee may maintain
separate accounting records for its transactions,
whether or not its assets are segregated from
other trust assets.

App.46a

(b) A trustee who accounts separately for a busi­
ness or other activity may determine the extent
to which its net cash receipts must be retained
for working capital, the acquisition or replacement
of fixed assets, and its other reasonably foresee­
able needs, and the extent to which the remaining
net cash receipts are accounted for as principal
or income in the trust’s general accounting
records. If a trustee sells assets of the business
or other activity, other than in the ordinary course
of the business or other activity, the trustee
shall account for the net amount received as prin­
cipal in the trust’s general accounting records to
the extent the trustee determines that the amount
received is no longer required in the conduct of
the business or other activity.
(c) Businesses and other activities for which a
trustee may maintain separate accounting records
include the following:
(4) Managing rental properties.
18200.
If the settlor retains the power to revoke the
trust in whole or in part, the trust property is subject
to the claims of creditors of the settlor to the extent
of the power of revocation during the lifetime of the
settlor.
19001.
(a) Upon the death of a settlor, the property of
the deceased settlor that was subject to the
power of revocation at the time of the settlor’s
death is subject to the claims of creditors of the

App.47a

deceased settlor’s estate and to the expenses of
administration of the estate to the extent that the
deceased settlor’s estate is inadequate to satisfy
those claims and expenses.
21101.
Unless the provision or context otherwise requires,
this part applies to a will, trust, deed, and any other
instrument.
21102.
(a) The intention of the transferor as expressed
in the instrument controls the legal effect of the
dispositions made in the instrument.
21111.
(a) Except as provided in subdivision (b) and
subject to Section 21110, if a transfer fails for any
reason, the property is transferred as follows:
(l) If the transferring instrument provides for
an alternative disposition in the event the
transfer fails, the property is transferred
according to the terms of the instrument.
21120.
The words of an instrument are to receive an
interpretation that will give every expression some
effect, rather than one that will render any of the
expressions inoperative. Preference is to be given to
an interpretation of an instrument that will prevent
intestacy or failure of a transfer, rather than one that
will result in an intestacy or failure of a transfer.

App.48a

21121.
All parts of an instrument are to be construed in
relation to each other and so as, if possible, to form a
consistent whole. If the meaning of any part of an
instrument is ambiguous or doubtful, it may be
explained by any reference to or recital of that part
in another part of the instrument.
21122.
The words of an instrument are to be given their
ordinary and grammatical meaning unless the
intention to use them in another sense is clear and
their intended meaning can be ascertained. Technical
words are not necessary to give effect to a disposition
in an instrument. Technical words are to be considered
as having been used in their technical sense unless
(a) the context clearly indicates a contrary intention
or (b) it satisfactorily appears that the instrument was
drawn solely by the transferor and that the trans­
feror was unacquainted with the technical sense.
21205.
A non-vested property interest is invalid unless
one of the following conditions is satisfied:
(a) When the interest is created, it is certain to
vest or terminate no later than 21 years after
the death of an individual then alive.
(b) The interest either vests or terminates
within 90 years after its creation.

App.49a

21206.
A general power of appointment not presently
exercisable because of a condition precedent is invalid
unless one of the following conditions is satisfied:
(a) When the power is created, the condition prec­
edent is certain to be satisfied or become impos­
sible to satisfy no later than 21 years after the
death of an individual then alive.
(b) The condition precedent either is satisfied
or becomes impossible to satisfy within 90 years
after its creation.
21207.
A non-general power of appointment or a general
testamentary power of appointment is invalid unless
one of the following conditions is satisfied:
(a) When the power is created, it is certain to
be irrevocably exercised or otherwise to termi­
nate no later than 21 years after the death of an
individual then alive.
(b) The power is irrevocably exercised or other­
wise terminates within 90 years after its creation.
Part 2. Definitions (Relevant definitions in bold)
Probate Code Section 20-88
20. Unless the provision or context otherwise re­
quires, the definitions in this part govern the
construction of this code.
21. “Account,” when used to mean a contract of
deposit of funds between a depositor and a fin­
ancial institution, includes a checking account,

App.50a

savings account, certificate of deposit, share
account, mutual capital certificate, and other like
arrangements.
22. “Account in an insured credit union” means a
share account in a credit union, either federally
chartered or state licensed, that is insured under
Title II of the Federal Credit Union Act (12 U.S.C.
§ 1781, et seq.).
23.
(a) “Account in an insured savings and loan
association” means a savings account or mutual
capital certificate of either of the following:
(1) A federal association.
(2) A savings association doing business in this
state which is an “insured institution” as
defined in Title IV of the National Housing
Act (12 U.S.C. Sec. 1724, et seq.).
(b) As used in this section:
(1) “Federal association” has the meaning given
that term in subdivision (b) of Section 5102
of the Financial Code.
(2) “Mutual capital certificate” has the meaning
given that term in Section 5111 of the
Financial Code.
(3) “Savings account” has the meaning given
that term in Section 5116 of the Financial
Code.
(4) “Savings association” has the meaning given
that term in subdivision (a) of Section 5102
of the Financial Code.

App.51a

24. “Beneficiary” means a person to whom a dona­
tive transfer of property is made or that person’s
successor in interest, and:
(a) As it relates to the intestate estate of a
decedent, means an heir.
(b) As it relates to the testate estate of a
decedent, means a devisee.
(c) As it relates to a trust, means a person who
has any present or future interest, vested or
contingent.
(d) As it relates to a charitable trust, includes
any person entitled to enforce the trust.
29. “Conservatee” includes a limited conservatee.
30. “Conservator” includes a limited conservator.
32. “Devise,” when used as a noun, means a disposi­
tion of real or personal property by will, and,
when used as a verb, means to dispose of real or
personal property by will.
34.
(a) “Devisee” means any person designated in a
will to receive a devise.
(b) In the case of a devise to an existing trust or
trustee, or to a trustee on trust described by will,
the trust or trustee is the devisee and the benefi­
ciaries are not devisees.

App.52a

39. ‘‘Fiduciary’’ means personal representative, trustee,
guardian, conservator, attorney-in-fact under a
power of attorney, custodian under the California
Uniform Transfer To Minors Act (Part 9 (com­
mencing with Section 3900) of Division 4), or
other legal representative subject to this code.
40. “Financial institution” means a state or national
bank, state or federal savings and loan associa­
tion or credit union, or like organization.
42. “General personal representative” is defined in
subdivision (b) of Section 58.
45. ‘Instrument” means a will, trust, deed, or other
writing that designates a beneficiary or makes a
donative transfer of property.
46. ‘Insured account in a financial institution” means
an account in a bank, an account in an insured
credit union, and an account in an insured savings
and loan association, to the extent that the account
is insured.
48.
(a) Subject to subdivision (b), “interested person”
includes any of the following:
(1) An heir, devisee, child, spouse, creditor, bene­
ficiary, and any other person having a prop­
erty right in or claim against a trust estate
or the estate of a decedent which may be
affected by the proceeding.
(2) Any person having priority for appointment
as personal representative.
(3) A fiduciary representing an interested person.

App.53a

(b) The meaning of “interested person” as it
relates to particular persons may vary from time
to time and shall be determined according to the
particular purposes of, and matter involved in,
any proceeding.
56. “Person” means an individual, corporation, gov­
ernment or governmental subdivision or agency,
business trust, estate, trust, partnership, limited
liability company, association, or other entity.
60. “Probate homestead” means a homestead provi­
ded for in Chapter 3 (commencing with Section
6520) of Part 3 of Division 6.
60.1.
(a) “Professional fiduciary” means a person who
is a professional fiduciary as defined under
subdivision (f) of Section 6501 of the Busi­
ness and Professions Code.
62. “Property” means anything that may be the sub­
ject of ownership and includes both real and
personal property and any interest therein.
68. “Real property includes a leasehold interest in
real property.
70. “86011111/’ includes any note, stock, treasury stock,
bond, debenture, evidence of indebtedness, certif­
icate of interest or participation in an oil, gas, or
mining title or lease or in payments out of pro­
duction under such a title or lease, collateral
trust certificate, transferable share, voting trust
certificate or, in general, any interest or instru­
ment commonly known as a security, or any cer­
tificate of interest or participation, any tempo­
rary or interim certificate, receipt, or certificate

App.54a

of deposit for, or any warrant or right to subscribe
to or purchase, any of the foregoing.
74. “State” includes any state of the United States,
the District of Columbia, the Commonwealth of
Puerto Rico, and any territory or possession sub­
ject to the legislative authority of the United
States.
81. “Transferor” means the testator, settlor, grantor,
owner, or other person who executes an instru­
ment.
81.5. “Transferee” means the beneficiary, donee, or
other recipient of an interest transferred by an
instrument.
82.
(a) Trust” includes the following:
(1) An express trust, private or charitable, with
additions thereto, wherever and however
created.
(2) A trust created or determined by a judgment
or decree under which the trust is to be
administered in the manner of an express
trust.
(b) “Trust” excludes the following:
(13) Trusts for the primary purpose of paying
debts, dividends, interest, salaries, wages,
profits, pensions, or employee benefits of any
kind.
83. “Trust company” means an entity that has
qualified to engage in and conduct a trust busi­
ness in this state.

App.55a
84. “Trustee” includes an original, additional, or
successor trustee, whether or not appointed or
confirmed by a court.
88. “Will” includes codicil and any testamentary
instrument which merely appoints an executor
or revokes or revises another will.

App.56a

INTERNAL REVENUE SERVICE CODE 671-678

671
“the grantor or another person shall be treated
as the owner of any portion of a trust.”
672(a)
“the term “adverse partv“ means any person
having a substantial beneficial interest in the
trust which would be adversely affected by the
exercise or non-exercise of the power which he
possesses respecting the trust.”
673
“The grantor shall be treated as the owner of
any portion of a trust in which he has a
reversionary interest”
674 (5) (a)
“A power to distribute corpus either to or for a
beneficiary or beneficiaries or to or for a class of
beneficiaries (whether or not income benefici­
aries) provided that the power is limited by a
reasonably definite standard which is set forth
in the trust instrument”
675
“The grantor shall be treated as the owner of
any portion of a trust”

App.57a

676 (a)
“The grantor shall be treated as the owner of
any portion of a trust, whether or not he is
treated as such owner under any other provision
of this part, where at any time the power to
revest in the grantor title to such portion is
exercisable by the grantor or a non-adverse
party, or both.”
677 (b)
Income of a trust shall not be considered taxable
to the grantor under subsection (a) or any other
provision of this chapter merely because such
income in the discretion of another person, the
trustee, or the grantor acting as trustee or co­
trustee, may be applied or distributed for the
support or maintenance of a beneficiary”
678 (c)
“Subsection (a) shall not apply to a power which
enables such person, in the capacity of trustee or
co-trustee, merely to apply the income of the
trust to the support or maintenance of a person
whom the holder of the power is obligated to
support or maintain except to the extent that
such income is so applied.”

App.58a
APPELLANT’S INFORMAL OPENING BRIEF
(APRIL 23, 2018)
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
SAN FRANCISCO
KRAIG R. EAST,
Appellant Pro Se,
v.
ERICKSON PRODUCTIONS, INC. &
JIM ERICKSON,
Appellee(s).
Ninth Cir. Case No. 17-17157
Original Ninth Cir. Case No. 16-16801
District Court Case No. 5:13-cv-05472-HRL
1. Jurisdiction: 28 U.S.C. § 1291
a.

Timeliness of Appeal FRAP 4(a)(1)(a):
(i)

Date of entry of judgment or order of
originating court: August 19, 2015

(ii) Date of service of motion to amend:
November 23, 2016
(iii) Date of entry of order deciding motion:
October 6, 2017

App.59a

(iv) Date notice of appeal filed: October 18,
2017
APPENDIX
Appellant Kast is Pro Se. As per FRAP 30-1.2 I
will file individual pages containing excerpts and
exhibits with my Reply Brief
FRAP 30-1.4 REQUIREMENTS
(i)

Notice of Appeal (Docket 123) ER Vol. 1

(ii) District Court Docket Sheet-ER Vol 1
(iii) District Court order appealed (Dkt 243) ER
Vol. 1
(iv) Other orders or rulings sought to be reviewed-Magistrates Order Regarding Appel­
lant’s Motion to Quash (Docket 244) ER Vol. 1
2. What are the facts of your case?
A. Introduction
Kraig Kast (Kast) is appealing the Magistrate’s
order (Dkt 243) to amend the judgment in the copyright
infringement case (appellate case no. 15-16801). Should
this court find in Kast’s favor on the copyright case,
this motion to amend (MTA) (Dkt 189), USDC-CAND
case No. 3:17-cv-02427-RS and California Superior
Court-San Mateo County case no. 17-cv-04633 are all
moot. The Plaintiffs attorney, Kevin McCulloch’s (Mc­
Culloch) MTA is nothing more than a malicious
attempt to steal the retirement savings of Mariellen
Baker (Baker), the 65 year old sole lifetime beneficiary
of the Black Oak Trust.

App.60a

Kast is a 73 year old licensed Fiduciary, Insurance
and Real Estate Broker with no negative notations
on any of his licenses. Kast’s focus, after leaving a
career as a senior executive in Fortune 1000 companies,
was to help seniors avoid being taken advantage of.
Lawsuits have driven away all of his clients, depleted
his savings and left him with only social security
income.
There is no Federal probate code. Trusts are
created, executed and usually litigated in state courts
unless they involve bankruptcy, taxes or labor laws
like ERISA. Neither the trust, the settlor/grantor,
trustee or beneficiary have declared bankruptcy, they
have no tax problems and this trust doesn’t involve
employee benefits.
This case is important for the court to consider
because if the MTA is not dismissed it will spawn
decades of litigation targeting trustees of family
trusts, corporate trustees (like banks) and licensed
fiduciaries. This order allows unscrupulous attorneys,
who get a judgment against an individual, to claim
pass-through and/or successor liability to seize the
assets of a beneficiary of an irrevocable trust, simply
because that individual acts as their trustee and the
beneficiary has nothing to do with the judgment case.
This pass though liability is prohibited in every
state’s probate code.
This case is very simple. Kast created a trust.
Kast amended and restated the trust three times. The
trust became valid when it was funded by residential
income properties. The beneficiaries changed overtime.
The percentages of the assets granted to beneficiaries
changed overtime. The trust remains in effect. The
properties remain in the trust to this day. The Trust’s

App.61a

sole beneficiary has been the beneficiary of the Trust
assets since 2007. Kast had no idea when he amended
and restated the trust to become irrevocable, that
over six years in the future he would be sued for
copyright infringement.
McCulloch, knows the only way he can prevail in
this case is by using “smoke and mirrors” to create
doubt and confusion; to make simple facts seem complex
to the court; to bury the court in irrelevant and
misstated case law and volumes of paper while
withholding evidence that would discredit his argu­
ment.
McCulloch took advantage of the magistrate’s lack
of knowledge about trust law, trust taxation, title
process and real estate finance. He forged USDC
subpoenas, made perjured declarations, obtained Kast’s
personal bank statements without a subpoena and
violated the ABA’s code of ethics, numerous times.
Background
Kast’s attorney created, and Kast executed the
revocable Kraig Kast Living Trust (KKLT) on March
11, 1995 (Exh. 1 Kast Decl. 213-1 ER Vol. 2). For a
trust to be valid under California’s Probate Code
(CPC) there must be Promise (CPC 15200(e), Intent
(CPC15201), Property (CPC15202), Purpose (CPC15203),
Beneficiary (CPC15205), Capacity (CPC810(a) and
Governing Instrument (CPC 21102(a). No consideration
is required (CPC15208). The KKLT was validated the
same day by funding it with three residential income
properties owned by Kast that were listed on the
trust’s Schedule/Addendum A (CPC2111l(l). see Cali­
fornia Probate Code excerpts at Glossary ER Vol. 14.

App.62a

April 2004. The first amendment and restatement
of the trust was made. June 2006-September 2007. Kast
borrowed $470,000 of his fiance, Mariellen Baker’s
retirement savings, at an interest rate of 5% for 5
years, to invest cash into Atherton Trust Co., his
investment advisory business.
November 2007. Due to the rapidly developing
financial crisis, Kast agreed to pay his debt to Baker
with his properties, as required in his loan work out
agreement. Kast’s attorney recommended a two step
approach. First he created and Kast executed the second
amendment to the trust on December 11, 2007. Kast
changed the name of the trust from the KKLT to the
Black Oak Trust (BOT) and temporarily restated in
writing previous verbal statements Kast had made
about the trustee, beneficiaries and asset allocation,
to eliminate any challenges to the trust after it was
amended and restated to become irrevocable
(CPCl5207(b). The second amendment was required
before the third amendment and restatement was
executed.
In the second step, Kast’s attorney created the
third amendment, that restated the trust to become
irrevocable and included a spendthrift provision and
special powers of appointment which Kast executed
on December 11, 2007, it met the same requirements
for a valid trust under California Probate law as the
KKLT. (Exh.6 Kast Decl. 213-lVol. 2)
Kast funded and validated the trust on December
30, 2007 when he signed and dated Schedule/Adden­
dum A to the trust, which listed the same three prop­
erties that had been in the KKLT as now being in the
Black Oak Trust (De Soto, Beachpark and East Court)
and added the Valley Center Property (Valley Center).

App.63a

Simultaneous changes to the trust were not unusual,
they had been done on 5/17/ 2001. (Beachpark Deed
History ER Vol. 11 pg 63, 86, 89)
The third amendment removed several benefici­
aries and changed the trustee. Baker was already a
beneficiary of the KKLT so the third amendment to
the trust just changed Baker’s asset allocation to
compensate her for the monies she lent Kast.
The sole beneficiary (Baker) and percentage of
asset allocation (100%) remains the same to this day.
All of Kast’s actions as settlor/grantor and trustee
were done in proper compliance with the third amend­
ment to the irrevocable trust instrument, which is the
governing instrument (CPC21102).
B. Summary of Facts
The declarations with their exhibits referenced
below are located as follows, Mariellen Baker (Dkt
207) ER Vol. 3, Mariellen Baker (Dkt 213) ER Vol. 2
and Baker (Dkt 213-2) ER Vol. 3; Kraig Kast (Dkt.
213-1) ER Vol. 2, and Laura Biche (Dkt 213-3) ER Vol.
3 filed herewith, explain in detail and in context the
Kraig Kast Living Trust (KKLT) amended and restated
as the irrevocable Black Oak Trust, and the trust
transactions involving the four Properties cited in the
motion to amend (the Beach Park Property, De Soto
Property, East Court Property, and Valley Center
Property, as identified in Kast Decl 213-1 ER Vol. 2
If 5-7, 17, collectively referred to as the “Properties”).
These declarations and exhibits thereto establish the
following dispositive facts:
•

The Kraig Kast Living Trust (KKLT) was a
revocable trust established March 11, 1995, with

App.64a

Kast as the settlor, trustee and his mother as
lifetime beneficiary (Kast Decl 213-1 ER Vol.
2 1 2,5, Exh 1)
•

The Beach Park Property, De Soto Property and
East Court Property were placed in the Kraig
Kast Living Trust by deed on April 8, 2005 (Kast
Decl 213-1 ER Vol. 2 % 4-8, Exh 5, 6, 7).

•

Kast amended and restated the Kraig Kast
Living Trust on December 11, 2007, converting
it to an irrevocable trust, adopting a 100-page
Trust instrument to govern the trust, and
changing the name to the Black Oak Trust Dkt
213-1 (Kast Decl 213-1 ER Vol. 2 J 12-14, Exh
6:44 Art. 1; Baker Decl 213-2 Vol. 3 f 2).

•

The Black Oak Trust is irrevocable and Kast has
never been a beneficiary (Kast Decl 213-1 ER
Vol. 2 U 13, Exh 6 Art. 2; Baker Decl 213-2 ER
Vol. 312).

•

The December 11, 2007 Trust instrument
specified Kast as the settlor and initial trustee
of the Black Oak Trust, and Mariellen Baker as
the sole lifetime beneficiary and the designated
successor trustee of the Black Oak Trust (Kast
Decl 213-1 ER Vol. 2 1 13, Exh 6 Art. 2; Baker
Decl 213-2 Vol. 3 1 2).

•

The Beach Park Property, De Soto Property and
East Court Property formerly held in the Kraig
Kast Living Trust, and the Valley Center
Property acquired by Kast on December 20,
2007, were all placed in irrevocable trust for
the beneficiary Mariellen Baker, under the Trust
instrument for the Black Oak Trust (Kast 213-

App.65a
1 ER Vol. 2 Decl 12, 16; Exh 6 Section 1.04,
Addendum A).
• The four Properties became subject to the
irrevocable trust effective on December 30, 2007,
by Kast’s execution on that date of Addendum A
to the Trust Instrument, listing the four
Properties as subject to the Black Oak Trust
(Kast Decl 213-1 ER Vol. 2 12,16; Exh 6 Section
1.04, Addendum A, plus legal discussion infra
at p. 11.
•

Deeds were subsequently recorded to have
record title reflect the December 11, 2007 and
December 30, 2007 actions, confirming that title
to the four Properties was held by Kraig Kast
as trustee of the Black Oak Trust. This occurred
on February 20, 2008 for the Valley Center
Property (Kast Decl 213-1 ER Vol. 2 If 18, Exh
9), on March 12, 2008 for the De Soto Property
(Kast Decl 213-1 ER Vol. 2 If 22, Exh 12), and
on February 3, 2012 for the East Court Property
and Beach Park Property (Kast Decl 213-1ER
Vol. 2 f 24-25, Exh 13, 16).

• If relevant, there was ample consideration for
Mr. Kast placing the four Properties in an
irrevocable trust for the benefit of Mariellen
Baker, because this was done to compromise and
satisfy $470,000 in loans made by Baker to Kast
in 2006-07 (Kast Decl 213-1 ER Vol. 2 If 9-11;
Exh 5; Baker Decl 213-2 ER Vol. 3 | 4-6).
•

The De Soto Property was refinanced by Kast
before he placed it into the irrevocable trust
(Kast Decl 213-1 ER Vol. 2 U 21-22).

App.66a

•

While the four Properties were held in the
irrevocable Black Oak Trust, Kast, as trustee,
carried out three refinancing transactions that
were done for proper Black Oak Trust purposes,
in the ordinary course of trust business, in a
proper manner that observed and respected the
irrevocable trust’s ownership. These were the
East West Bank Loan closed May 6, 2011 (Kast
Decl 213-1 ER Vol. 2 | 27-34, Biche Decl 213-3
ER Vol. 3 f 4-7), the Shahab Loan closed April
10, 2015 (Exh 17 Kast Decl 213-1 ER Vol. 2
1 35-37, Biche Decl 213-3 ER Vol. 31] 8-9, pg
35), and the Vaccarella Loan (Kast Decl 213-1
ER Vol.2 1 38-40, Biche Decl 213-3 ER Vol. 3
1 10-11, pg 41).

•

While the De Soto Property was held in the
Black Oak Trust, Kast, as trustee, sold the De
Soto Property on October 19, 2012, to reduce
debt and generate funds for proper Black Oak
Trust purposes (Kast Decl 213-1 ER Vol. 2 If 41).

•

Kast resigned as trustee of the Black Oak Trust
on December 31, 2015, and Mariellen Baker
thereby automatically assumed the role as
trustee, because she she [sic] was designated
as the successor trustee in the December 11,
2007 Trust Instrument (Kast Decl 213-1 ER
Vol. 2 If 15; Exh 6 section 3.02(a); Exh 7;
Baker Decl 213 Vol 3 1f 3).

•

While the Valley Center Property was held in
the Black Oak Trust, Baker as trustee sold the
Valley Center Property on November 2, 2016, to
reduce debt and generate funds for proper Black

App.67a
Oak Trust purposes (Baker Decl 213 ER Vol. 3
11 7-10).
The bottom line of this factual showing is that on
December 30, 2007, over 5 years before this litigation
started, the four Properties were assigned to an
irrevocable trust for Mariellen Baker in satisfaction
of $470,000 in personal loans Baker made to Kast in
2006-07. All trustee transactions after December 30,
2007 respected the irrevocable trust.
3.

What did you ask the originating court to do?

To dismiss the Motion to Amend the 2015 Copy­
right Judgment based on Subject Matter Jurisdic­
tion, Insufficient Evidence, Statute of Limitations
and California Trust law.
4.

State the Claim or claims you raised at the origi­
nating court.
A.

The District Court lacked subject matter
jurisdiction.

B.

The District Court should dismiss the Motion
to Amend the Copyright Judgment based on
Statutes of Limitations.

C.

District Court should find no fraudulent
transfer

D.

District Court should find the Black Oak Trust
is irrevocable based on California Trust
Law and confirmed by third parties

App.68a

5.

6.

What issues are you raising on appeal? What do
you think the originating court did wrong?
A.

The District Court lacked Subject Matter
Jurisdiction. Please review based on De
Novo-Insufficient Evidence-Abuse of Discre­
tion.

B.

The District Court Abused its Discretion by
not dismissing The Motion To Amend the
Copyright Judgment Under Statutes of Limi­
tations. Please review based on De NovoInsufficient Evidence-Abuse of Discretion.

C.

The District Court Abused Its Discretion by
taking Baker’s property without Due ProcessInsufficient Evidence-Abuse of DiscretionDe Novo.

D.

The District Court to found that the irrevo­
cable Black Oak Trust is invalid-Abuse of
Discretion-Insufficient Evidence

E.

District Court abused its discretion by
finding MTA was not a sustentative change
to copyright judgment

F.

District Court’s order is contrary to Califor­
nia Trust Law. De Novo-Abuse of Discretion

G.

District Court Abused Its Discretion by deny­
ing Kast’s Motion to Quash Plaintiffs forged
and fraudulent subpoenas.

Did you present all of the issues listed in #5 to
the originating court?
Yes.

App.69a

7.

What law supports these issues on appeal?

I.

The Motion to Amend Seeks a Substantive and
Significant Amendment of the Judgment

The motion to amend seeks to add the Black Oak
Trust (the Trust) and Mariellen Baker as trustee of
The Black Oak Trust (the Trustee) as additional
defendants, fully liable for the judgment. This motion,
if granted, would subject all of the Trust’s assets to
liability for the judgment entered against Kraig Kast
personally.
This is not a clerical error correction, like adding
a new spelling of Kast’s name. On its face, this is a
substantive amendment that has a drastic effect on
the rights and property of the Trust, affecting the
financial interest of the sole beneficiary of the Trust.
Mariellen Baker. It would impose liability for the
judgment on third parties who did not participate in
the underlying action and would void Kast’s payment
of his debt to Baker. It would directly affect the
appeal because the terms of the judgment on appeal
would be amended years after decision. Regardless of
the result, the losing party on the motion to amend
could file an appeal of the order or denial of order to
amend judgment.
I believe it is sufficient factual background, for
purposes of deciding the procedural question raised,
to make a prima facie showing that the Trust has
existed since December 2007 as an irrevocable trust
for the benefit of Mariellen Baker as the sole
beneficiary. Therefore, adding that Trust and its
Trustee as liable defendants when they were never
named as a party to the copyright lawsuit is a sub­
stantive amendment with significant effects on the

App.70a

rights of new parties. I submit attached the Declara­
tion of Mariellen Baker in Response to Interim Order
regarding Motion to Alter or Amend Judgment (the
“Baker Declaration”), to make a prima facie showing
that:
•

the Trust was formed on December 11, 2007,
almost 6 years before this litigation was filed

•

the Trust is an irrevocable trust, with Mariellen
Baker as the sole lifetime beneficiary since 2007

•

the Trustee may only apply the trust assets,
income and principal, for the support and benefit
of Mariellen Baker

•

the four real properties addressed in the
underlying motion to amend were all placed in
the Trust in December 2007

The purpose of executing the irrevocable Trust
was as a way for Kast to settle $470,000 in loans
made from Mariellen Baker to Kast during the 18
months prior to the December 2007 Trust restatement.
Clearly this is not a motion that can be characterized
as “correction of a clerical error” or any other obvious
and ministerial correction. This is a substantive
motion seeking to extend liability to new parties
based on new evidence, new post-judgment discovery
and new legal arguments and theories, not raised in
the underlying copyright action, but directly affecting
the scope of the existing copyright judgment on appeal.
The motion also seeks a substantive change in the
judgment because the Trust and the Trustee cannot
be added as defendants liable for the judgment as a
mere clerical correction, without making substantive
factual and legal findings on some legally sufficient

App.71a
and factually proven basis to establish their liability.
Nelson v. Adams, 529 U.S. 460, 471-72 (2000) (due
process requires opportunity to appear and defend on
the merits, before judgment against corporation is
amended to add individual corporate officer as liable
defendant).
The motion also seeks a very substantive change
in the judgment, because it seeks an amendment con­
trary to the well-established principle of California
trust law that creditors of the settlor have no claim
against assets placed in an irrevocable trust for some
other beneficiary. Laycock v. Hammer, 141 Cal.App.4th
25 (2006) (judgment creditor of settlor has no right to
collect against assets of irrevocable trust established
by settlor for benefit of his granddaughter). California
trust law is strongly protective of the rights of the
beneficiary once an irrevocable trust is validly created.
Plaintiffs’ attempt to collect against an irrevocable
trust using “alter ego” type arguments are inconsistent
with California trust law. As noted in Laycock, “There
are no cases that permit the settlor of a trust to make
an irrevocable trust revocable by way of conduct after
the trust has been established.” Id. at 30. As the
court explained:
[Appellant] contends that as a creditor it
should be able to show [the settlor] treated
the trust as his own property and thereby
revoked the provisions of the trust. . . . How­
ever, by expressly giving settlor’s creditors
the right to reach only the assets of revocable
trusts, the Legislature in Probate Code
sections 18200 and 19001 has clearly indica­
ted an intention that creditors are to be
bound by the terms of an irrevocable trust to

App.72a
the same extent settlors, beneficiaries and
other claimants are bound by such an instru­
ment. Id. at 31.
In any event, factual or legal disputes on the
merits of the motion do not change the character of
what is at stake in the motion. What is at stake is an
amendment that would, as a practical matter, have a
drastic and significant financial effect on new third
parties. The motion therefore seeks a substantive
change to the scope and extent of the judgment, in a
manner that the trial court may not undertake while
the judgment is on appeal to the Ninth Circuit.
II. The Amendment Order and Judgment Did Not
and Could Not Adjudicate Title to the Properties
For many reasons, it is clear that the Amended
Judgment did not and could not adjudicate title to
the Properties or resolve the competing claims of
Baker and Erickson to the Properties. For many
reasons, it is clear that the Amended Judgment did
not and could not adjudicate title to the Properties or
resolve the competing claims of Baker and Erickson
to the Properties.
First, the Amended Judgment is silent as to the
Properties and silent as to Baker (see Copyright Action
Dkt 246). By its express terms, the Amended Judgment
does not purport to quiet title to the Properties in
favor of some revocable or irrevocable version of the
Black Oak Trust, nor to adjudicate the priority of
Baker’s and Erickson’s respective claims against the
Properties.
Second, such relief could not have been granted
on the pleadings at issue in the Copyright Action.

App.73a

The complaint in the Copyright Action (Copyright
Action Dkt l) alleges two counts of copyright infringe­
ment and does not include any reference to the Prop­
erties or any quiet title allegations. Where federal
courts have some basis for federal subject matter
jurisdiction in a dispute including quiet title issues,
the plaintiff is required to satisfy California’s specific
pleading requirements for quiet title actions in order
to obtain such relief. See, e.g., Rosenfeld v. JP
Morgan Chase Bank N.A, 732 F.Supp.2d 952, 974
(N.D. Cal. 2010).
Third, the motion to amend the judgment did not
seek such relief. The motion to amend the judgment
in the Copyright Action (Copyright Action Dkt 189,
page 2) sought only to add the names of specified
defendants to the judgment, and did not seek to amend
the judgment to add quiet title type findings or to
adjudicate competing claims of Baker and Erickson
to the Properties.
Fourth, Baker was never made a party to the
Copyright Action, so her claims and rights to the
Properties could not be adjudicated in that action.
Baker’s lack of party status also denied her any
opportunity to conduct discovery, including the ability
to subpoena documents from third parties.
Fifth, Baker declined to consent to a Magistrate
deciding the Copyright Action (Dkt 226), such that
Magistrate Lloyd had no authority to decide her claims.
Sixth, there was neither a proper summary judg­
ment motion nor a full trial on the merits conducted in
the Copyright Action to adjudicate Baker’s and
Erickson’s competing claims to the Properties. There
is no statutory authority allowing these claims to be

App.74a

tried on written declarations, using an abbreviated
motion procedure.
Seventh, the pending appeal with the Ninth Circuit
deprived the district court of jurisdiction to amend
the judgment in this substantial manner. This issue
is further briefed below.
Eighth, even if no appeal were pending, the district
court lacked federal subject matter jurisdiction to
expand the copyright judgment in a way that purports
to adjudicate title to the Properties and the state law
claims of non-diverse persons who are not parties to
the action. This issue is further briefed below.
Ninth, the Amendment Order is contrary to
California trust law on the factual record presented.
This issue is further briefed below.
III. The District Court Had No Jurisdiction to Alter
or Expand Upon the Judgment While It Is on
Appeal
A. The District Court Lacked Jurisdiction to Make
Substantive Amendments to the Judgment
While an Appeal to the Ninth Circuit Is
Pending
“The filing of a notice of appeal generally
divests the district court of jurisdiction over
the matters appealed. Taylor v. Wood, 458
F.2d 15, 16 (9th Cir. 1972); Sumida v. Yumen,
409 F.2d 654, 656 (9th Cir. 1969), cert, denied,
405 U.S. 964 (1972); 9 Moore’s Federal Prac­
tice, P 203.11 (2d ed. 1968).” Davis v. United
States, 667 F.2d 822, 824 (9th Cir. 1982).
“[A] trial court cannot enter an order that

App.75a
supplements the order on appeal because
such supplementation would change the
status quo. McClatchy Newspapers v. Central
Valley Typographical Union, 686 F.2d 731,
734-35 (9th Cir. 1982).” In re Mirzai, 236
B.R. 8, 10 (B.A.P. 9th Cir. 1999). Absent a
stay or supersedeas, the trial court retains
jurisdiction to implement or enforce the judg­
ment or order but may not alter or expand
upon the judgment. See In re Combined
Metals Reduction Co., 557 F.2d 179, 190
(9th Cir. 1977); In re Hagel, 184 B.R. 793,
798 (1995); In re Marino, 234 B.R. 767, 770
(B.A.P. 9th Cir. 1999).
The Ninth Circuit has applied a strict and juris­
dictional view of these rules, holding that District
Courts may not issue an order that would have the
effect of changing the status quo and/or substantively
extending or expanding the scope of an order or judg­
ment that was already on appeal.
In McClatchy, supra, 686 F.2d at 734-35, a district
court judgment determined that a union’s strike did
not extinguish job guarantee rights, but did not include
any reinstatement of employment remedy. The Ninth
Circuit held that this judgment could not be amended
by the district court to add the reinstatement remedy
while the original judgment was on appeal, because
that would be changing rather than preserving the
status quo. Id. at 735.
The Ninth Circuit in McClatchy also reasoned that
the requested amendment was a substantive change
because original judgment “was not necessarily a deter­
mination that the remedy of reinstatement is appro­
priate. . . . This matter must abide further inquiry

App.76a

. . . in which each party has the opportunity for a full
and fair presentation of its case.” Id. at 735.
This reasoning applies directly to my case, because
the appropriateness of alter ego and successor liability
remedies were not evaluated in the underlying copy­
right judgment, and further evidentiary proceedings
are needed to conclude whether such remedy is or is
not appropriate. Cf. Nelson v. Adams, supra, 529 U.S.
at 471-72 (due process requires opportunity to appear
and defend on the merits, before judgment against
corporation is amended to add individual corporate
officer as liable defendant). As to the procedural issue
at hand, under the Ninth Circuit’s reasoning in
McClatchy, an amendment so substantial that it re­
quires a new evidentiary hearing is a clearly substan­
tive change and cannot be done during the appeal.
In Davis, supra, 667 F.2d at 824, plaintiffs Fed­
eral Tort Claims Act claims were dismissed by Dis­
trict Court for failure to state a claim, and plaintiff
appealed that dismissal. While the appeal was pending,
plaintiff sought leave to amend its complaint in District
Court to assert various non-FTCA claims against same
defendants. The Ninth Circuit held that the District
Court had no jurisdiction to hear the motion to amend
while the appeal was pending.
Davis illustrates that it is jurisdictionally improper
to substantively amend the judgment on appeal, even
if the claims or issues raised by the new order
requested of the District Court are not at issue in the
appeal. In the Davis example, the non-FTCA claims
plaintiff wanted to add were not part of the issues on
appeal, but it was still improper to amend the judg­
ment of dismissal while it was on appeal.

I

App.77a
Davis also illustrates the strict “jurisdictional”
nature of these rules, as applied by the Ninth Circuit.
The Ninth Circuit held it was reversible error for the
District Court even to deny the improper motion to
amend, given the lack of jurisdiction to consider the
motion. Instead of upholding the denial, the Ninth
Circuit vacated the District Court order entirely as
beyond the jurisdiction of the District Court. Id. at 824.
The Ninth Circuit’s strong jurisdictional view of
these rules is also reflected in Matter of Combined
Metals Reduction Co., supra, 557 F.2d at 201 (9th
Cir. 1977), holding that a bankruptcy court lacked
jurisdiction to vacate its prior order denying the right
to file objections, while that denial order was on
appeal. The court stated, “We are of the opinion that
no lower court should be able to vacate or modify an
order under appeal.” This jurisdictional rule was held
to take precedence over “the well-established rule that
a bankruptcy court has wide latitude to reconsider and
vacate its prior decisions.” Id. at 200.
I also note that the lack of any stay pending
appeal does not allow the circumvention of these rules
simply by calling the actions “enforcement.” In re
Marino, supra, 234 B.R. 767 (B.A.P. 9th Cir. 1999),
debtor moved the Bankruptcy Court to vacate its
original judgment, in an effort to “enforce” an un­
stayed BAP appellate order overturning the judgment.
The Ninth Circuit held that the Bankruptcy Court had
no power to “enforce” the un-stayed BAP judgment in
this manner, while further Ninth Circuit appeals of
the BAP order were pending. See also In re Mirzai,
supra, 236 B.R. 8 (B.A.P. 9th Cir. 1999) (same fact
pattern and holding).

App.78a
There are also many examples of decisions outside
the Ninth Circuit holding that a District Court lacks
jurisdiction to proceed with an order that would alter
or extend the scope of an order that was on appeal.
See, e.g., In re Neuman, 67 B.R. 99 (S.D.N.Y. 1986)
(amendment of previous order granting control of
debtor’s business in bankruptcy, to remove one of the
two parties in control, exceeded jurisdiction because
it changed the status quo); In re Wonder Corp. of
America, 81 B.R. 221 (D. Conn. 1988) (while order
awarding attorneys’ fees was on appeal, district court
had no jurisdiction to issue new order awarding
sanctions based on same attorney actions); Matter of
Excavation Construction, Inc., 8 B.R. 752 (D. MD 1981)
(amendment of Ch.ll plan order to change payment
dates, to facilitate obtaining supersedeas bond to
stay action pending appeal, exceeded jurisdiction as a
substantive modification of plan order on appeal);
Brasier v. United States, 229 F.2d 176 (10th Cir. 1955),
cert, denied, 351 U.S. 925 (1956) (district court
lacked jurisdiction to allow amendments to pleadings
while appeal was pending).
B. Exceptions Allowing Certain Trial Court
Actions While Appeal Is Pending Are Not
Applicable to the Present Motion to Amend
While case law does recognize certain limited
exceptions allowing a District Court to issue new
orders while an appeal is pending, those exceptions
do not authorize substantive amendments and expan­
sions of the scope of the existing judgment, in the
manner sought by the present motion to amend.
In briefings in the trial court, Plaintiffs’ cited
one unpublished 4th Circuit opinion where the District

App.79a

Court was held to have jurisdiction to add certain
successor corporations as defendants to an existing
judgment for damages under FRCP Rule 25(c). Greater
Potater Harborplace, Inc. v. Jenkins, 935 F.2d 267
(Table of Unpublished Decisions) (4th Cir. 1991). The
court held that the District Court was authorized
under Rule 25(c) to substitute a successor corporation,
even after judgment, where the substitution was
necessary for enforcement of the judgment. This
unpublished opinion from a different circuit is not
consistent with the strict and jurisdictional approach
taken by the Ninth Circuit, as discussed above. The
decision fails to cite or consider any of contrary
authority from the Ninth Circuit. It is distinguishable
because we are dealing here with a motion to amend
judgment under FRCP 69(a) (see Interim Order at It
is also distinguishable because we are dealing here
with a creditor of the settlor attempting to claim
assets from an irrevocable trust established for some
other beneficiary on alter ego type theories, a type of
relief specifically barred under California trust law,
as opposed to the substitution of a successor corporation
specifically authorized under FRCP 25(c). None of
the other exception cases cited by plaintiffs in the
trial court briefings are remotely applicable or relevant.
Several of the cases cited by plaintiffs do not reflect
exceptions at all, or address the procedural issue
here, because there was no appeal pending when the
trial court proceeded with its action, as in this case.
Innovation Ventures, LLC. v. N2G Distributing, Inc.,
No. SACV 12-717 ABD (EX), 2014 WL 10384631
(motion heard in trial court to amend judgment to
add new parties, but no appeal pending); Madd Dogg
Athletics, Inc. v. NYC Holding, 565 F. Supp. 2d 1127

App.80a
(C.D. Cal. 2008) (motion heard in trial court to amend
judgment to add new parties, but no appeal pending);
Carr v. Barnabey’s Hotel Corp., 23 Cal.App.4th 14
(motion decided in trial court to amend judgment to
add new parties, before any appeal was filed);
Plaintiffs cited several “injunction order super­
vision” cases, where the rationale for allowing the trial
court to amend an order during an appeal was that
the trial court is responsible for ongoing supervision
of the defendant subject to an injunctive relief order,
and new violations have occurred that need to be
addressed. Hoffman v. Beer Drivers & Salesman’s
Local Union, No. 888, 536 F.2d 1268 (9th Cir 1976)
(trial court amendment of contempt order against
labor organization to reinstate previously suspended
fines, while contempt order was on appeal, was proper
to address subsequent violations); Meinhold v. U.S.
Dep’t of Defense, 34 F.3d 1469, 1480 n.14 (9th Cir.
1994) (injunction issued against Navy to prohibit dis­
crimination against homosexual sailor; relief broa­
dened while injunction is on appeal in response to
Sailor’s motion for contempt re new violations);
N.L.R.B. v. Cincinnati Bronze, Inc., 829 F.2d 585, 589
(6th Cir. 1987) (where original order compelling comp­
liance with subpoena to produce documents is on
appeal but not stayed, and party seeks contempt order
for continuing violation, trial court can issue new
order specifying which documents must be produced
where new order “required production of nothing out­
side the scope of the original subpoena.”). See also
FRCP 62(c) (authorizing modification of injunctions
during pendency of appeal). This exception does not
apply because the motion to amend is not seeking

App.81a

further orders to enforce an existing injunction against
new violations.
Plaintiffs cited one “unrelated interlocutory appeal”
case, where the rationale for the trial court being able
to proceed was that the interlocutory appeal of one
unrelated order did not deprive the trial court of
jurisdiction to keep deciding other unrelated matters
still pending in the trial court. United States v.
Watlington, No. 5:05-CR-4-l-F3, 2010 WL 2772356
(pending appeal of order re restitution did not divest
trial court of jurisdiction over remaining matters still
pending in trial court, including motions to disqualify
judge and motion to vacate criminal conviction). This
exception does not apply because the appeal in this
case is from the final judgment not an interlocutory
appeal of one order in the case, and the proceedings
in the District Court here are completed and closed.
Plaintiffs cited one case where the trial court was
allowed to issue orders “enforcing” the order on appeal
“without expanding or altering it”. In re Hagel, 184
B.R. 793,798 (B.A.P. 9th Cir 1995) (while order
disapproving Ch.13 bankruptcy reorganization plan
was on appeal, trial court could enforce such order by
dismissing Ch.13 case, so that automatic stay would
not remain in effect throughout the appeal). This
example is not remotely analogous to the relief sought
by the present motion. The Ch.13 case dismissal allowed
in Hagel followed as a matter of procedural course
from the prior Ch.13 plan disapproval order that
was on appeal. The District Court in Hagel was not
expanding the judgment to add new parties, but merely
implementing the procedural consequences of the
existing scope of the prior order.

App.82a
Plaintiffs cited one case where an unopposed
substitution of the plaintiff entity was allowed. In Air
Line Pilots Ass’n Inti v. Texas Inti Airlines, 567
F.Supp.78 (S.D. Tex. 1983), a union representing flight
attendants (AFA) as plaintiff won an order compelling
arbitration of their grievances. While that order was
on appeal, the flight attendants elected a different
union to represent them (UFA). The district court
granted an unopposed motion to substitute UFA for
AFA as the plaintiff entity, under FRCP Rule 25. The
district court held that this unopposed substitution of
a successor plaintiff entity was proper while the
underlying order compelling arbitration was on appeal,
as part of enforcing the existing judgment. This example
is not analogous to the present motion because the
substitution of parties was under FRCP 25, voluntary,
unopposed, on the plaintiff side, and did not affect
the scope or extent of the judgment against defendant
that was on appeal.
IV. An Independent Basis for Federal Subject Matter
Jurisdiction Is Required Before the District Court
Can Amend a Judgment to Add New Parties on
Alter Ego Theories
Even if no appeal of the copyright judgment were
pending, the district court here also lacked federal
subject matter jurisdiction to expand the copyright
judgment to adjudicate ownership of the Properties,
as against the interests of Baker and the Irrevocable
Black Oak Trust, who were non-diverse person with
claims under California real property and trust law,
and who were not parties to the underlying copyright
action. The interests of Baker and the Irrevocable
Black Oak Trust in the Properties had nothing to
do with the federal questions of copyright law that

App.83a
provided the only basis for federal subject matter
jurisdiction for the copyright judgment.
The underlying motion to amend asserted state
law alter ego claims against new parties under
California Code of Civil Procedure 187, alleging that
“very liberal” remedies are available under California
law to assert alter ego claims through an amendment
of judgment procedure. Plfs. Motion, Dkt 189 at 6:257:6. These are not federal questions, and there is no
diversity jurisdiction asserted here.
The Supreme Court in Peacock v. Thomas, 516
U.S. 349, 357-58 (1996) held that there is no supple­
mental or ancillary subject matter jurisdiction over
claims seeking to make new parties liable for an
existing federal judgment on alter ego type theories:
“Our recognition of these supplementary pro­
ceedings has not, however, extended beyond
attempts to execute, or to guarantee even­
tual executability of, a federal judgment. We
have never authorized the exercise of ancil­
lary jurisdiction in a subsequent lawsuit to
impose an obligation to pay an existing fed­
eral judgment on a person not already liable
for that judgment. Indeed, we rejected an
attempt to do so in H. C. Cook Co. v. Beecher;
217 U.S. 497, 30 S. Ct. 601, 54 L.Ed. 855
(1910). In Beecher, the plaintiff obtained a
judgment in federal court against a corpora­
tion that had infringed its patent. When the
plaintiff could not collect on the judgment, it
sued the individual directors of the defend­
ant corporation, alleging that, during the
pendency of the original suit, they had auth­
orized continuing sales of the infringing

App.84a
product and knowingly permitted the cor­
poration to become insolvent. We agreed
with the Circuit Court’s characterization of
the suit as ‘an attempt to make the defend­
ants answerable for the judgment already
obtained’ and affirmed the court’s decision
that the suit was not ‘ancillary to the judg­
ment in the former suit.’ Id., at 498-499, 30
S. Ct., at 602. Beecher governs this case and
persuades us that Thomas’ attempt to make
Peacock answerable for the ERISA judg­
ment is not ancillary to that judgment.”
(emphasis added)
The court in Peacock reasoned that there was no
supplemental jurisdiction because the claims wbre
based on entirely new theories of liability not addressed
in the original case:
“These principles suggest that ancillary juris­
diction could not properly be exercised in this
case. This action is founded not only upon
different facts than the ERISA suit, but also
upon entirely new theories of liability. In
this suit, Thomas alleged civil conspiracy
and fraudulent transfer of Tru—Tech’s assets,
but, as we have noted, no substantive ERISA
violation. The alleged wrongdoing in this
case occurred after the ERISA judgment
was entered, and Thomas’ claims—civil
conspiracy, fraudulent conveyance, and “veil­
piercing”—all involved new theories of
liability not asserted in the ERISA suit.
Other than the existence of the ERISA judg­
ment itself, this suit has little connection to
the ERISA case. This is a new action based

App.85a
on theories of relief that did not exist, and
could not have existed, at the time the court
entered judgment in the ERISA case.” 516
U.S. at 358-59 (emphasis added). Accord
Ellis v. All Steel Const., Inc., 389 F.3d 1031,
1034 (10th Cir. 2004) (When post-judgment
proceedings seek to hold nonparties liable
for judgment on theory that requires proof
on facts and theories significantly different
from those underlying judgment, independent
basis for federal jurisdiction must exist;
applies to both alter ego and veil piercing
theories); U.S.I. Properties Corp. v. M.D.
Const. Co., 230 F.3d 489, 492 (1st Cir. 2000)
(no federal subject matter jurisdiction over
suit to collect existing federal judgment
against non-diverse alter ego party). In 21st
Century Fin. Servs., LLC v. Manchester
Fin. Bank, No. 15CV1848 BTM (BGS), 2016
WL 2931128 (S.D. Cal. May 19, 2016), the
district court applied these rules in the same
procedural context as this case—a motion to
amend judgment to add non-diverse alter
ego defendants under the California amend­
ment of judgment procedure. After raising
the lack of jurisdiction sua sponte, the dis­
trict court denied the motion to amend the
judgment because “The Court lacks subject
matter jurisdiction to enforce a judgment
against non-diverse parties pursuant to an
alter-ego theory of liability.” Id. at 2.
The distinction that triggers the applicability of
Peacock here is that Plaintiffs are seeking to make a
new party liable for the entire judgment, based on

App.86a
facts and legal theories not adjudicated in the under­
lying judgment. The importance of this distinction is
explained in detail in USI Properties Corp v MD
Const. Co., 230 F.3d 489 (1st Cir. 2000), as follows:
“Where a post judgment proceeding presents
an attempt simply to collect a judgment duly
rendered by a federal court, even if chasing
after the assets of the judgment debtor now
in the hands of a third party, the residual
jurisdiction stemming from the court’s
authority to render that judgment is suffi­
cient to provide for federal jurisdiction over
the post judgment claim. See, e.g., Thomas,
Head [& Griesen Emp. Trust v. Buster], 95
F.3d [1449 (9th Cir. 1996)] at 1454 (allowing
plaintiff to disgorge from third parties the
fraudulently conveyed assets of the judg­
ment debtor because plaintiff is ‘not attemp­
ting to establish [the third parties’] liability
for the original judgment’). However, where
that post judgment proceeding presents a
new substantive theory to establish liability
directly on the part of a new party, some
independent ground is necessary to assume
federal jurisdiction over the claim, since
such a claim is no longer a mere continuation
of the original action. See, e.g, id. at 1454
n.7, citing Peacock, 516 U.S. at 356 n.6, 116
S. Ct. 862; Futura II [Futura Development
ofPuerto Rico, Inc. v. Estado Libre Asociado
de Puerto Rico, 144 F.3d 7 (1st Cir. 1998)]
144 F.3d at 11 n. 2 (‘[Enforcement jurisdiction]
cannot extend to most cases that seek to
assign liability for the judgment to a new

App.87a

party.’); Sandlin [v. Corporate Interiors, Inc.,
972 F.2d 1212, 1216-17 (10th Cir. 1992)], 972
F.2d at 1217 (‘[W]hen post judgment pro­
ceedings seek to hold nonparties liable for a
judgment on a theory that requires proof
on facts and theories significantly different
from those underlying the judgment, an
independent basis for federal jurisdiction
must exist.).” Id. at 498.
A. The Basis for Jurisdiction Asserted by Plaintiffs
Is Inapplicable
Plaintiff cited Thomas, Head & Greisen Emp. Trust
v. Buster, 95 F.3d 1449 (9th Cir 1996) (“Thomas, Head”)
as the basis for the district court’s power to grant
this motion. Plaintiffs. Resp. to Interim Order, Dkt
199 at 5:5-10. In Thomas, Head, the Ninth Circuit
found that supplemental jurisdiction existed to hear
certain fraudulent conveyance claims in federal court,
but noted that this was possible only because alter
ego type claims were NOT asserted, distinguishing
Peacock on the basis that:
“Thomas, Head seeks only to disgorge from
them, as alleged fraudulent transferees, the
property Buster wrongfully transferred to
them. Because Thomas, Head is not attempt­
ing to establish the Johnson parties’ liability
for the original judgment, we find Peacock
inapposite.” 93 F.3d at 1454.
Thus, the Ninth Circuit in Thomas, Head recog­
nized that, under the supreme court’s decision in
Peacock, there was no supplemental jurisdiction to
add new parties liable for the judgment under alter
ego theories.

App.88a
B. Use of State Law Remedies Under Rule 69(a)
Still Requires an Independent Basis for Subject
Matter Jurisdiction
While federal courts have the authority to utilize
state law enforcement of judgment procedures under
FRCP Rule 69(a), exercising that authority still re­
quires an independent basis for subject matter juris­
diction. As the court in USI Properties explained:
“Nor is it sufficient to rely on the incorpora­
tion of state procedures in Rule 69(a) to
establish federal enforcement jurisdiction.
State courts, as courts of general jurisdic­
tion, are free to employ any enforcement
mechanisms warranted by state law, even
where those mechanisms allow liability to
be established directly against a third party
to the original action. However, the limited
nature of federal jurisdiction in general
confines the scope of enforcement jurisdic­
tion as well. The incorporation of state
enforcement procedures through Rule 69 is
not alone sufficient to create federal juris­
diction over such enforcement proceedings.
The fact that Rule 69(a) may (by way of
state law) afford procedural mechanisms for
enforcing an existing federal judgment
against a third party not otherwise liable
does not obviate the need to establish the
jurisdiction of the federal court over the sup­
plemental proceeding. The Federal Rules of
Civil Procedure can neither expand nor
limit the jurisdiction of the federal courts,
Fed. R. Civ. P. 82, and the issue of jurisdic­
tion remains distinct from the question of

App.89a

procedure. See Sandlin, 972 F.2d at 1215
(‘Rule 69 creates a procedural mechanism
for exercising post-judgment enforcement
when ancillary jurisdiction exists, . . . but
cannot extend the scope of that jurisdic­
tion.’)” 230 F.3d at 498 fn.8.
A clear example applying this to alter ego
amendments under Rule 69(a) and California law is
21st Century Fin. Servs., LLC v. Manchester Fin.
Bank, No. 15CV1848 BTM (BGS), 2016 WL 2931128
(S.D. Cal. May 19, 2016) at p. 2 (“The Court lacks
subject matter jurisdiction to enforce a judgment
against non-diverse parties pursuant to an alter-ego
theory of liability.”)
C. Even If Supplemental Jurisdiction Were
Available, the Court Abused Its Discretion in
Not Declining to Exercise Such Jurisdiction
Under These Circumstances
Even if subject matter jurisdiction were available
here which it is not, Magistrate Lloyd should have
exercised his discretion under 28 U.S.C. § 1367(c) to
decline to exercise such jurisdiction under the circum­
stances of this case. It was an abuse of discretion for
Lloyd not to decline under these circumstances.
Under 28 U.S.C. § 1367 (c), the district court has
discretion to decline to exercise supplemental juris­
diction, as follows:
“(c) The district courts may decline to exer­
cise supplemental jurisdiction over a claim
under subsection (a) if—(l) the claim raises
a novel or complex issue of State law, (2) the
Claim substantially predominates over the

App.90a

claim or claims over which the district court
has original jurisdiction, (3) the district
court has dismissed all claims over which it
has original jurisdiction, or (4) in exceptional
circumstances, there are other compelling
reasons for declining jurisdiction.”
Ground (c)(l) strongly applies in this case because
the dispute involves novel and complex issues of
California trust law and trust interpretation, as
reflected in our briefing on the merits. Ground (c)(2)
strongly applies because the underlying Copyright
Action is concluded at the trial court level and the
only issues that will be litigated in the proposed new
action are the state law trust and fraudulent convey­
ance issues. Ground (c)(4) strongly applies given the
other unusual procedural problems presented here,
including: (i) whether a separate action is permitted;
(ii) if a separate action is not permitted, whether the
new claims could be raised in the Copyright Action
while it is pending on appeal; and (iii) whether the
entire Copyright Action must be assigned to a dis­
trict court judge in light of Baker’s declination to
consent to a Magistrate (Copyright Dkt 226). The
potential for protracted procedural disputes and appeals
based on procedural issues is manifest given the
unusual posture of this case.
This is a factually and legally complicated case
under California trust and fraudulent conveyance law,
that should have been left to the state courts. There
is zero overlap between these state issues and the
federal copyright infringement issues. Even if there
were overlap, the trial is over in the copyright case so
no efficiencies were had by trying the state claims in
federal court.

App.91a

California Trust Law
V.

The Amendment Order and Judgment Is Con­
trary to California Trust Law

As demonstrated in this brief, there is insufficient
evidence in the record to support Magistrate Lloyd’s
factual finding that the Properties were never conveyed
to the Irrevocable Black Oak Trust. Without factual
support for such a finding, the Judgment is contrary
to California law in purporting to subject the Properties
to the Claims of Kast’s individual creditors.
The California Probate Code only allows creditors
of the settlor to recover against revocable trust
assets: “If the settlor retains the power to revoke the
trust in whole or in part, the trust property is subject
to the claims of creditors of the settlor to the extent
of the power of revocation during the lifetime of the
settlor.” Cal. Prob. Code § 18200.
Under California trust law, irrevocable trusts
cannot be reached to satisfy the personal debts of
the settlor or trustee. This is confirmed in the main
California trust law treatises as fundamental concept
of California trust law. “ [I] f the decedent-grantor
transferred assets during his or her lifetime to an
irrevocable trust in which the grantor retained no
ownership interest, the trust’s assets are not subject
to the claims of the decedent’s creditors. [Laycock v.
Hammer (2006) 141 Cal.App.4th 25, 27, 31, 44 C.R.3d
921, 922, 925 (irrevocable life insurance trust)—settlor’s
conduct after establishment of trust does not affect
trust’s irrevocability]” Cal. Prac. Guide, Probate, Inter
Vivos Trusts Ch. 2-B, § 2:109. Accord, Cal. Civ. Prac.
Probate and Trust Proceedings § 24:171; 60 Cal.Jur.3d

App.92a

Trusts § 84; 13 Witkin, Summary 10th Trusts § 260
(2005); 60 Cal.Jur.3d Trusts § 313.
These rules have been recognized and applied in
many California trust law cases. DiMaria v. Bank of
California, 237 Cal.App.2d 254, 258-259 (1965) (creditor
of settlor cannot reach trust assets contrary to terms
of irrevocable trust); Laycock v. Hammer, 141
Cal.App.4th 25, 30-31 (2006) (creditor of settlor/trust
cannot reach life insurance asset in irrevocable trust);
Finnie v. Smith, 83 Cal.App. 707 (1927) (creditor of
trustor could not lien land in trust, as trustor had no
right to revoke the trust, and had transferred his
interest to trust before the lien attached); Heaps v.
Heaps, 124 Cal.App.4th 286, 291-292 (2004) (attempted
transfer of assets from irrevocable trust to different
trusts constituted conversion); Walton v. Bank of
California, 218 Cal.App.2d 527 (1963) (trustor may
not rescind irrevocable trust); Aguilar v. Aguilar, 168
Cal.App.4th 35, 40 (2008) (surviving settlor was not
at liberty to change the terms of trust that became
irrevocable upon death of co-settlor, and could not
remove her home from the irrevocable trust); In re
Barnes, 275 B.R. 889, 895-896 (Bankr. E.D. Cal. 2002)
(settlor was not owner of assets of irrevocable trust
and hence trust assets were not protected by exemp­
tions available to settlor).
The leading California case cited in the treatises
is Laycock v. Hammer, 141 Cal.App.4th 25, 30-31
(2006). Laycock involved factual allegations similar
to the present case, where personal creditors of the
original settlor and trustee sought to recover against
irrevocable trust assets, based on alter ego type
claims that the settlor/trustee had disregarded or

App.93a

revoked the trust by engaging in several financing
and loan transactions for his personal benefit. Id. at 28.
The Laycock court held that the actions of the
settlor/trustee after the trust became irrevocable
could not somehow make the trust revocable or allow
recovery by creditors as if the trust were revocable.
“There are no cases that permit the settlor of a trust
to make an irrevocable trust revocable by way of
conduct after the trust has been established.” Id. at
30. As the court explained, the statutory scheme in
California does not permit such claims by creditors:
“[Appellant] contends that as a creditor it
should be able to show [the settlor] treated
the trust as his own property and thereby
revoked the provisions of the trust. . . . How­
ever, by expressly giving settlor’s creditors
the right to reach only the assets of revoca­
ble trusts, the Legislature in Probate Code
sections 18200 and 19001 has clearly indi­
cated an intention that creditors are to be
bound by the terms of an irrevocable trust to
the same extent settlors, beneficiaries and
other claimants are bound by such an instru­
ment.” Id. at 31.
II.

Under California Trust Law, Creditors Collect­
ing Upon the Personal Debts of the Settlor or
Trustee May Not Recover Against Assets Held in
an Irrevocable Trust for the Benefit of Another
Person

The California Probate Code only allows creditors
of the settlor to recover against revocable trust
assets: “If the settlor retains the power to revoke the
trust in whole or in part, the trust property is subject

App.94a

to the claims of creditors of the settlor to the extent
of the power of revocation during the lifetime of the
settlor.” CPC 18200.
Under California trust law, irrevocable trusts
cannot be reached to satisfy the personal debts of the
settlor or trustee. This is confirmed in the main
California trust law treatises as fundamental concept
of California trust law. “[I]f the decedent-grantor
transferred assets during his or her lifetime to an
irrevocable trust in which the grantor retained no
ownership interest, the trust’s assets are not subject
to the claims of the decedent’s creditors. [Laycock v.
Hammer (2006) 141 Cal.App.4th 25, 27, 31, 44 CR3d
921, 922, 925 (irrevocable life insurance trust)—
settlor’s conduct after establishment of trust does not
affect trust’s irrevocability]” Cal. Prac. Guide, Probate,
Inter Vivos Trusts Ch. 2-B, § 2:109. Accord, Cal. Civ.
Prac. Probate and Trust Proceedings §24:171; 60
Cal.Jur.3d Trusts § 84; 13 Witkin, Summary 10th
Trusts § 260 (2005); 60 Cal.Jur.3d Trusts § 313.
These rules have been recognized and applied in
many California trust law cases. DiMaria v. Bank of
California, 237 Cal.App.2d 254, 258-259 (1965) (creditor
of settlor cannot reach trust assets contrary to terms
of irrevocable trust); Laycock v. Hammer, 141
Cal.App.4th 25, 30-31 (2006) (creditor of settlor/trust
cannot reach life insurance asset in irrevocable trust);
Finnie v. Smith, 83 Cal.App. 707 (1927) (creditor of
trustor could not lien land in trust, as trustor had no
right to revoke the trust, and had transferred his
interest to trust before the lien attached); Heaps v.
Heaps, 124 Cal.App.4th 286, 291-292 (2004) (attempted
transfer of assets from irrevocable trust to different
trusts constituted conversion); Walton v. Bank of

App.95a

California, 218 Cal.App.2d 527 (1963) (trustor may
not rescind irrevocable trust); Aguilar v. Aguilar, 168
Cal.App.4th 35, 40 (2008) (surviving settlor was not
at liberty to change the terms of trust that became
irrevocable upon death of co-settlor, and could not
remove her home from the irrevocable trust); In re
Barnes 275 B.R. 889, 895-896 (Bankr. E.D. Cal. 2002)
(settlor was not owner of assets of irrevocable trust
and hence trust assets were not protected by exemp­
tions available to settlor).
The leading California case cited in the treatises
is Laycock v. Hammer; 141 Cal.App.4th 25, 30-31
(2006). Laycock involved factual allegations similar
to the present case, where personal creditors of the
original settlor and trustee sought to recover against
irrevocable trust assets, based on alter ego type
claims that the settlor/trustee had disregarded or
revoked the trust by engaging in several financing
and loan transactions for his personal benefit. Id. at 28.
The Laycock court held that the actions of the
settlor/trustee after the trust became irrevocable
could not somehow make the trust revocable or allow
recovery by creditors as if the trust were revocable.
“There are no cases that permit the settlor of a trust
to make an irrevocable trust revocable by way of
conduct after the trust has been established.” Id. at
30. As the court explained, the statutory scheme in
California does not permit such claims by creditors:
[Appellant] contends that as a creditor it
should be able to show [the settlor] treated
the trust as his own property and thereby
revoked the provisions of the trust. . . . How­
ever, by expressly giving settlor’s creditors
the right to reach only the assets of revoca-

App.96a

ble trusts, the Legislature in Probate Code
sections 18200 and 19001 has clearly indi­
cated an intention that creditors are to be
bound by the terms of an irrevocable trust to
the same extent settlors, beneficiaries and
other claimants are bound by such an instru­
ment. Id. at 31.
III. The Moving Papers Do Not Establish Any Basis
to Allow Amendment of the Judgment to Allow
Recovery Against Black Oak Trust Assets
Plaintiffs motion does not articulate any valid
basis as to why the rules set forth above would not
apply to protect the assets of the irrevocable Black
Oak Trust from creditors seeking to collect on the
personal debts of Kraig Kast.
A. No Consideration Argument
In several different legal contexts, Plaintiff
bases his arguments primarily on the assertion that
there was “no consideration” for Kast to put assets
into the Black Oak Trust. Plaintiffs’ Motion to Alter
or Amend Judgment (“MTA”) 10:19; 11:22 (argues trust
is revocable if no consideration); 11:9-10; 12:26-13:10
(argues alter ego is proven by no consideration); 12:28
(argues miscarriage of justice if no consideration); 15:1621 (argues successor liability because no consideration).
All of this is factually inapplicable, because the
Properties were placed in the Black Oak Trust for
ample consideration in the form of satisfying Baker’s
$470,000 loans (Kast Decl 213-1 Vol. 2 \ 9-11; Exh 5;
Baker Decl 213-2 ER Vol 3 4-6).
This is also legally inapplicable, because under
California law (CPC 15208), “A conveyance in trust

App.97a

needs no consideration.” Mahoney v. Crocker, 1943,
58 Cal.App.2d 196, 136 P.2d 810. See also Haskins’
Estate v. United States, 240 F. Supp. 492, 496 (N.D.
Cal. 1965), affd, 357 F.2d 492 (9th Cir. 1966). This
rule should be obvious as a practical matter, because
settlors frequently put property into trusts to provide
for family members or other beneficiaries they care
about, almost always without consideration being paid
by the beneficiary.
Finally, it is important that these Properties
were placed into the irrevocable Black Oak Trust for
Mariellen Baker’s benefit on December 30, 2007, over
5 years before this litigation was commenced. Even if
that were a gift with no consideration to Mariellen
Baker (though it clearly was not when she paid
$470,000), creditors of Mr. Kast cannot come along
many years later and ask Baker to return her interest.
B. Trust is Revocable Argument
Plaintiffs next argument for collection against
Black Oak Trust assets is that the Black Oak Trust
is revocable, and revocable trusts are indistinguishable
alter egos of the settlor. MTA 9:11-10:24; 12:1-20;
16:9-17:4. This legal argument is entirely inapplicable,
because the evidence submitted herewith shows the
Black Oak Trust is clearly irrevocable and has been
since its inception on December 11, 2007.
Plaintiff argues that revocable trust rules apply
because of the transfer tax statement in the grant
deed attached as Exhibit 9 to McCulloch’s Declaration
(also Exhibit 9 to Kast Decl 213-1 ER Vol 2), claiming
an exemption from transfer tax for transfers to/from
a revocable trust. MTA 10:20. As Kast explained in
K 20 of his declaration, this may have been a mistake

App.98a

on the deed. However, it is unlikely there was a mistake
because a California title company knows California’s
laws better than McCulloch, a copyright attorney from
New York.
The fact is transfer tax is due on the sale of
property, not when it is refinanced, see California
Board of Equalization section 11911. (ER Vol.13). If
there is any error in collection of the transfer tax is
the title company’s not East’s, because the title
companies determine whether tax is due under the law.
If tax is due, it is deducted by the title company at
the time of closing on the property.
Because the trust is irrevocable the title company
determined there was no tax due if it was taken out
of the trust for refinancing, with the intent to put it
back into the trust. No Sale No Tax. If the county’s
audit determined taxes should have been paid, the
County would have issued a demand. No transfer tax
demand was issued to Kast, as trustee, or to Kast as
an individual or to the Black Oak Trust by San Mateo
County. A demand for taxes is public record, there is
no such demand in the public record.
In any event, under the clear holding of Laycock,
no such statement by Mr. Kast after the irrevocable
trust has been created can make the trust revocable.
Plaintiff argues that revocable trust rules apply
if Kraig Kast was the trustee and settlor on the date
the judgment was entered. MTA 10:14-23. This makes
no sense. Irrevocable trusts have settlors and trustees.
An irrevocable trust is not made revocable, and not
made liable for the personal debts of the settlor or
trustee, simply because the debtor was serving as

App.99a

trustee on the same date the personal debt was
incurred.
C. Alter Ego Factual Arguments
Plaintiffs factual allegations in support of its
alter ego claims are incorrect and/or irrelevant.
Plaintiff asserts that the two deeds to Black Oak
Trust on February 3, 2012 for the East Court Property
and the Beach Park Property (McCulloch Decl 213-1
ER Vol 2 Exhs 5, 12) were fraudulent. MTA 11:1-3.
There is no explanation why they were supposedly
fraudulent. This is comprehensively refuted by our fac­
tual showing above, including the detailed explana­
tion of the circumstances surrounding these two deeds
(Kast Decl 213-1 ER Vol. 2 ]f 23-25) and the explana­
tion of the related East West Bank Loan (Kast Decl
213-1 ER Vol. 2 f 27-34).
Plaintiff argues, and is repeated by the magistrate
(OA Trans), that there was something “sham” or
“fraudulent” about the Shahab Loan and Vaccarella
Loan, and the assignment of rents clause in the stan­
dard form deed of trust used to additionally secure
these loans. MTA 11:4-6, 11:19-21. McCulloch gave
no explanation why these loans were supposedly fraud­
ulent, or why the standard assignment of rents clause
in a printed form deed of trust is somehow fraudu­
lent. This is comprehensively rebutted by our factual
showing above, including the detailed explanation of
these loans (Kast Decl 213-1ER Vol. 2 t 35-40).
Plaintiff argues that the Black Oak Trust should
be considered Kast’s alter ego if he resided in trust
owned residential property. MTA 11:7. Plaintiff cites
no authority that this is improper or forbidden. If one

App.lOOa

of the trust properties is provided for Mariellen
Baker’s use as a residence, and she decides to invite
Mr. Kast to live there too, there is nothing improper
or inconsistent with trust purposes about that.
Regardless, under Laycock and the other authorities
discussed above, conduct by the settlor/trustee after
the trust becomes irrevocable, including conduct
“treating trust property as his own”, cannot change
the character of the trust as irrevocable or subject
the trust assets to personal debts of the settlor/trustee.
Plaintiff argues that the Black Oak Trust should be
considered Kast’s alter ego because he let Mariellen
Baker take over as trustee “without consideration”.
MTA 11:11-14, 11:24-26; 14:8. This makes no sense,
because Mariellen Baker was the successor trustee
designated in the December 11, 2007 Trust instrument,
who had an absolute right to take over as trustee
when Kast resigned. Doing so did not increase the
extent of Baker’s beneficial interest in Black Oak
Trust, as she was already the sole lifetime beneficiary
before and after Kast’s resignation. Plaintiff cites no
authority or explanation for the bizarre proposition
that it would have been required or even appropriate
for Kast to insist on consideration from Baker before
resigning as trustee.
Plaintiff argues that the Black Oak Trust should
be Kast’s alter ego, because Kast’s resignation somehow
thwarted enforcement of hens. MTA 11:11-18. Plaintiffs
only support for this claim is a citation to McCulloch’s
Decl Exh 7 (the Deed to Webb for Valley Center Sale),
McCulloch Decl Exh 17 (an inadmissible title report
on Valley Center Property), and Dkt 184 at 14 (Kast’s
resignation trustee). The propriety of the Valley
Center Sale is explained in detail in Baker’s Decl 213

App.lOla

at If 7-9 (ER Vol. 3), and the response to Plaintiffs
illegal Lien at If 10. Plaintiff implies there is something
sinister in the fact that the sales proceeds “were paid
to Baker as ‘successor trustee’” (MTA 11:18), when in
fact she was the only proper party to receive the
sales proceeds as the successor trustee. The only
impropriety around hens was the unscrupulous attempt
by Plaintiffs counsel to encumber the Valley Center
Property, owned by the irrevocable Black Oak Trust,
with a lien for the personal debts of Kast, before
plaintiff even brought this motion to add Black
Oak Trust as a liable party. The willingness of First
American Title Company to proceed with the sale and
insure the buyer’s title demonstrates the invalidity of
this Purported and illegal Lien. (ER Vol 13 First Am
Emails)
D. Successor Liability Argument
Plaintiff next attempts to confuse and conflate
Baker’s job description as “successor trustee” with an
entirely unrelated set of legal rules on “successor
liability”.
Specifically, plaintiff argues that “Black Oak
Trust and Mariellen Baker in her role as ‘successor
trustee’ to the Black Oak Trust qualify as successor
entities to Kast and his debt.” MTA 13:23-25 (emphasis
added)
Under California law, a successor trustee is bound
by all trust obligations incurred by a former trustee,
such as contracts entered into on behalf of the trust.
Moeller v. Superior Court, 16 Cal.4th 1124, 1131,
(1997). However, the successor trustee is not liable
for personal liabilities of the former trustee, such as

App.l02a

liability for breach of fiduciary duty by the former
trustee. Cal. Prob. Code § 16403.
The general corporate successor rules cited in
plaintiffs brief (MTA 14:1015:15) do not provide any
authority for the proposition that a successor trustee
somehow inherits the personal debts of her predecessor
trustee. Not many people would serve as a successor
trustee if that were the law.
Factually, plaintiffs successor liability argument
is based on the false premise that “Mariellen Baker
assumed his [sic] position as controller and beneficiary
of the Black Oak Trust assets on December 31, 2015,
months after judgment was entered.” MTA 14:1-2. On
the contrary, Mariellen Baker had been the sole lifetime
beneficiary from the Black Oak Trust’s inception on
December 11, 2007, starting over 4 years before the
litigation was even commenced (Kast Decl 213-1 ER
Vol 2 Tf 13, Exh 6 Art.2).
Factually, plaintiffs successor liability argument
is based on the false premise that “Nor is there any
evidence that Kast is not the actual beneficiary of
the Black Oak Trust.” On the contrary, the Trust
Instrument is clear that Kast is not a beneficiary and
never has been. (Kast Decl 213-1 Vol. 2 If 13, Exh 6
Art,2).
E. Argument if Black Oak Trust is Irrevocable
When Plaintiff finally addresses the facts of this
case after dozens of pages of irrelevant allegations
and citations and misstatements of law—that the
Black Oak Trust is irrevocable-—he makes only two
brief and inapplicable arguments.

App.l03a
Plaintiff argues that, if the Black Oak Trust is
irrevocable, plaintiff can still recover against its assets
“when the settlor is also the beneficiary.” MTA 17:518. As noted above, Kast has never been a beneficiary
of the trust and this argument does not apply.
Plaintiff argues that, if the Black Oak Trust is
irrevocable, plaintiff can still recover against “Kast’s
interests in the trust corpus,” citing Cal. Code Civ. Pro.
§ 708.010. MTA 17:19-27. However, Section 708.010(b)
provides that “The judgment debtors interest as a
beneficiary of a trust is subject to enforcement of a
money judgment only upon petition under this
section ...” Since Kast has never been a beneficiary
of the Black Oak Trust, this entire argument is
inapplicable.
The motion completely fails to explain any basis
for adding the Black Oak Trustor any Trustee of
the Black Oak Trust to the judgment, if the court
determines factually that the Black Oak Trust is
irrevocable.
VI. Other Issues Relevant to the Motion
A. The Properties Were Legally Conveyed into
the Black Oak Trust on December 30, 2007
by Operation of the Trust Instrument and
Addendum A
The Kast Declaration establishes that title to all
four Properties was vested in the irrevocable Black
Oak Trust on December 30, 2007, when Schedule/
Addendum a to the Trust Instrument was executed
(Kast Decl 213-1 12,16; Exh 6 Section 1.04,
Addendum A). Mr. Kast declares that it was his intent
and understanding at the time that Section 1.04 and

App.l04a

Schedule/Addendum A of the Trust instrument were
sufficient to effectively place the four Properties
listed on Addendum A into the irrevocable Black Oak
Trust.
Mr. Kast’s understanding was legally correct.
Under California law, a separate grant deed is not
necessary to place properties in trust:
“It is well established that if two specific
requirements are met, real property may be
made part of a trust’s assets without a
separate deed transferring property to the
trust, [citation] The first requirement is that
the owner of real property is the settlor crea­
ting the trust with himself or herself as the
trustee, [citation] Second . . . the statue of
frauds requires that the declaration of trust
must be in writing signed by the trustee.”
Ukkestad v. RBS Asset Finance, Inc., 235 Cal.App.4th
156 (2015). See also Came v. Worthington, 246 Cal.
App.4th 548 (2016) (settlor’s signature on irrevocable
trust instrument was sufficient to convey title to
property held in earlier revocable trust).
These requirements are satisfied here because Kast
was the owner of the Properties individually (as to
Valley Center Property) or in the earlier revocable
Kraig Kast Living Trust (as to the other three) KKLT,
he was the settlor creating the Black Oak Trust with
himself as the initial trustee, and the Trust instrument
for the Black Oak Trust and Addendum A transferring
the Properties into the Black Oak Trust were in writing
signed and dated by Kast.

App.l05a

B. Specific Parties Sought to Be Added
While the motion should be denied entirely, Res­
pondents have other objections to some of the specific
additional party names requested in the motion (MTA
2:10-23).
Given the name of the Black Oak Trust specified
in Section 1.01 of the Trust Instrument, and Mr. Kast’s
resignation as the trustee, any order seeking to make
the Black Oak Trust assets liable for the judgment
would have to refer to “Mariellen Baker, Successor
Trustee of the Black Oak Trust dated December 11,
2007” or “Mariellen Baker, Successor Trustee of the
Black Oak Trust dated March 11, 1995. Both descrip­
tions refer to the same trust and same trustee.
Adding the “Black Oak Trust” or similar descrip­
tions would be incorrect, because trusts are not legal
entities and the proper party to name in litigation by
or against “a trust” is the trustee. Galdjie v. Darwish,
113 Cal.App.4th 1331, 1343.
Adding Mr. Kast in his capacity as Trustee of
the Black Oak Trust in any manner would be incorrect,
because he no longer serves in such capacity or holds
Black Oak Trust assets in trust for the beneficiary.
Adding the “Kraig Kast Living Trust” or similar
descriptions would be incorrect for the same reason,
it is not an entity.
Adding the Kraig Kast Living Trust would also
be incorrect because that revocable trust ceased to
exist as such when its trust instrument was amended
and restated on December 11, 2007 to become the Black
Oak Trust.

App.l06a
The motion did not request to add Mr. Kast in
his capacity as Trustee of the Kraig Kast Living Trust,
and that would be improper anyway because that
revocable trust ceased to exist as such when its trust
instrument was amended and restated on December 11,
2007 to become the Black Oak Trust
C. Objections to Evidence
Respondents objected to admission or consideration
of Exhibits 10, 11, 15 and 17 to the declaration of
McCulloch [Dkt.191], on the grounds of hearsay and
lack of foundation, and lack of authentication' These
are all unrecorded “property reports” purporting to
represent certain facts about property ownership or
past transactions, being offered by plaintiff for the
truth of the matters stated in the reports. They are
therefore hearsay, and not authenticated sufficiently
to qualify for any exception. They should be stricken.
VII. Statutes of Limitations
Plaintiffs counsel, Kevin McCulloch (McCulloch),
filed his Motion to Amend (MTA) (Dkt 189) the copy­
right Judgment 463 days after the copyright judg­
ment was entered on August 19, 2015 and the case
closed. He added Mariellen Baker and the Black Oak
Trust as defendants days later. Kast responded (Dkt
190 and 204) that the MTA was filed significantly
beyond the statute of limitations under rule 59(e).
McCulloch had a responsibility to check the statute
of limitations before filing his MTA, but he intentionally
did not. Even after being put on notice by Kast (Dkt
186) in his opposition to the MTA, McCulloch didn’t
withdraw the MTA.

App.l07a

Once the copyright appeal was filed September
10, 2015 the magistrate shouldn’t have entertained
the motion to amend the copyright judgment for the
reasons set forth above.
The magistrate also abused his discretion under
rule Fed. R. Civ. P. 6(b)(2) (providing “[district] court
must not extend the time to act under Rules 50(b)
and (d), 52(b), 59(b), (d), and (e), and 60(b).”
The magistrate abused his discretion by not
dismissing the (MTA). Kast stated the MTA was not
filed within 28 days of August 19, 2015, the copyright
judgment’s entry, as required by Fed. R. Civ. P. 59(e)
Kast also stated the same thing including rule 60 in
Dkt 204 ER Vol. 3 1:18-2:17. In rejecting Kast’s argu­
ment the magistrate cited: “The Ninth Circuit, how­
ever, has rejected that same argument, instead re­
quiring that such motion be brought within a “reason­
able time” In re Levander, 180 F.3d 1114, 11121 n.10
(9th Cir. 1999). As will be discussed more fully below,
Erickson argues that the full scope of Kast’s alleged
subterfuge with respect to the subject trusts and
assets has only recently come to light”.
The magistrate abused his discretion by leaving
Out the most applicable part of rule 60(c), The full
text of rule 60 says: (c) Timing and Effect of the Motion,
(l) Timing. A motion under Rule 60(b) must be made
within a reasonable time—and for reasons (l), (2), and
(3) no more than a year after the entry of the judg­
ment or order or the date of the proceeding.
Under rule 60 (b) Grounds for Relief from a Final
Judgment, Order, or Proceeding. On motion and
just terms, the court may relieve a party or its legal

App.l08a

representative from a final judgment, order, or pro­
ceeding for the following reasons:
(1) mistake, inadvertence, surprise, or excusable
neglect;
(2) newly discovered evidence that, with reason­
able diligence, could not have been discovered
in time to move for a new trial under Rule
59(b);
(3) fraud (whether previously called intrinsic or
extrinsic), misrepresentation, or misconduct
by an opposing party;
(4) the judgment is void;
(5) the judgment has been satisfied, released,
or discharged; it is based on an earlier judg­
ment that has been reversed or vacated; or
applying it prospectively is no longer equi­
table; or
(6) any other reason that justifies relief
The 1946 amendment to rule 60(b) provides guid­
ance as to what is “reasonable time”. Under subdi­
vision (b)
1 2 “The reconstruction of Rule 60(b) has for
one of its purposes a clarification of this sit­
uation. Two types of procedure to obtain
relief from judgments are specified in the
rules as it is proposed to amend them. One
procedure is by motion in the court and in
the action in which the judgment was
rendered. The other procedure is by a new
or independent action to obtain relief from a
judgment, which action may or may not be

App.l09a

begun in the court which rendered the judg­
ment.”
f 3 “If the right to make a motion is lost by
the expiration of the time limits fixed in
these rules, the only other procedural
remedy is by a new or independent action to
set aside a judgment upon those principles
which have heretofore been applied in such
an action.”
H 3 “On the other hand, one of the purposes
of the bill of review in equity was to afford
relief on the ground of newly discovered evi­
dence long after the entry of the judgment.
Therefore, to permit relief by a motion
similar to that heretofore obtained on bill of
review, Rule 60(b) as amended permits an
application for relief to be made by motion,
on the ground of newly discovered evidence,
within one year after judgment.”
McCulloch/Erickson claimed “newly discovered
evidence”, but he didn’t state a claim under rule
60(b)(2) as the basis for his MTA, which in of its self
[sic] is a basis for dismissal. Even if McCulloch had
stated a claim under 60(b)(2) that too is subject to the
one year statute of limitations. The “new evidence”
that McCulloch supposedly discovered in November
2016 was the Black Oak Trust is irrevocable, but his
claim of “new evidence” is pure fiction.
In October and December 2015 Kast stated to both
the magistrate and McCulloch the Black Oak Trust is
“irrevocable”. McCulloch saying it is “newly discovered
evidence” is another intentionally false statement to
the court. (ER Vol. 13 Dkt 133, DKT163)

App.llOa
What actually happened is the trust’s Valley
Center property sold November 2, 2016. McCulloch’s
disputed and illegal lien was removed prior to the
sale by First American Title after reviewing the Black
Oak Trust instrument (Kast Decl 213-1 ER Vol. 2 Exh
6). After the sale, McCulloch contacted First American
Title to find out when he was going to be paid. First
American told McCulloch that his lien on the Valley
Center property was illegal and was removed because
the original copyright judgment was against Kraig
Kast, as an individual only (ER Vol 13). That Kast
was not the trustee when the property was sold and
that the Black Oak Trust is irrevocable therefore,
McCulloch had no claim against the Valley Center
property.
McCulloch was livid, on November 17-18, 2016 he
subpoenaed First American, Wells Fargo and Cal-West
Home Loans. Kast filed his Motion for Protective Order
on November 18, 2016 (ER Vol. 13 Dkt 184) and Motion
to Quash McCulloch’s forged subpoenas (ER Vol 13 Dkt
186) on November 22, 2016. McCulloch then filed his
Motion to Amend on November 23, 2016 and added
Mariellen Baker, the Black Trust and Kast’s FBNs as
defendants.
In January 2017 McCulloch issued the same
forged subpoenas to Laura Biche and the County of
San Mateo. McCulloch knew he couldn’t get them to
respond unless he forged the subpoenas by adding
Kraig Kast “ individually and/or as trustee of the
Black Oak Trust dtd [sicl 3-11-95” to the description
of the copyright judgment (Exhibit Vol. 4.2). When
caught in his forgery and fraud, McCulloch first lied
to the court, then he blamed “clerical error” on his
paralegal Lesly Ayala and then blamed his Pro Hac

App.llla

Vice partner Robert Wright in California as the culprit
(Dkt 190). But, the subpoenas were signed by
McCulloch and came from his New York office, not
California. Every time he was caught in a lie he
changed his story. The magistrate ignored McCul­
loch’s intentional fraud, forgery and ethics violations
again.
The only way McCulloch could get any money
before the copyright appeal is decided was to file his
Motion to Amend the Copyright Judgment in a friendly
court, before the same magistrate who had denied every
one of Kast’s pre-trial and post trial motions and had
overruled every objection Kast’s attorney made during
the trial, except two minor attorney client privileged
objections.
McCulloch knew the magistrate should dismiss his
motion to amend based on rules 6(b)(2), 59(e) and
60(b) amended 1946 and (c). So he filed his new lawsuit
on April 27, 2017 in USDC-CAND case number 3:17-cv02427-RS in compliance with rule 60(b) amended 1946.
His filing is tangible proof McCulloch read 60(b) and
knew the MTA exceeded the Statute of Limitations and
should be dismissed. McCulloch’s new lawsuit is suspect
due to the statute of limitations.
If McCulloch had adhered to the statutes of limi­
tations, he would never have filed this motion to
amend, which is wasting the court’s time and resources.
Once filed, the magistrate abused his discretion by
not dismissing the motion to amend because it was
filed significantly beyond 59(e)’s 28 days. 60(b) and
(c)’s one year statute of limitations and rule 6(b) (2)’s
limit to extension of time resulting all of which result
in a lack of jurisdiction. Once McCulloch filed his
new action in another court as per 60(b), he should

App.ll2a
have withdrawn his motion to amend the copyright
judgment but he didn’t, a violation of rule 11.
Hundreds of cases at every level of the justice
system support dismissal of this motion to amend based
on the statutes of limitations, which also eliminate
jurisdiction. For example, In Howard v RJF financial
CV-11-1213-PHX-GMS “Motions for reconsideration are
disfavored and are not the place for parties to make
new arguments not raised in their original briefs and
arguments”. Hanko v. Nestor, 2016-Ohio-2976. “The
Trial Court erred in granting Plaintiff-Appellee relief
from judgment under Civ. R. 60(B)(5) as PlaintiffAppellee’s Motion was not made within a reasonable
amount of time.” In Steel Co. v. Citizens for a Better
Environment, 523 U.S. 83, 94 (1998) (“Without juris­
diction, court cannot proceed at all in any cause;
jurisdiction is power to declare law, and when it ceases
to exist, the only function remaining to court is that
of announcing the fact and dismissing the cause”).
Motion to Quash
Kast asks the court to review the magistrate’s
order (Dkt 244) denying his Motion to Quash the
Plaintiffs six forged and fraudulent subpoenas (Dkt
184,186) that were issued interstate to Wells Fargo
Bank, First American Title Insurance, Cal-West Home
Loans, San Mateo County Assessor, San Mateo County
Treasurer and Laura Biche, based on Abuse of Judicial
Discretion. Please see Dkt 204 for Kast’s discussion.
If this court decides to reverse the magistrate’s order
and grant Kast’s Motion to Quash, Kast asks the court
to order that all documents obtained from McCulloch’s
fraudulent subpoenas be stricken from the record before
the court makes its final decision about the Motion

App.ll3a

to Amend. The court may also decide whether to
penalize Kevin P. McCulloch under 8 U.S. Code
§ 1324c—Penalties for Document Fraud, Rule 11 and
the American Bar Assn, and New York ethics code.
SUMMARY
There is insufficient factual evidence for the Dis­
trict Court to claim subject matter jurisdiction. The
District Court abused its discretion by ignoring the
statutes of limitations. The District Court abused its
discretion by taking Baker’s property without due
process. The District Court abused its discretion by
denying Kast’s motion to quash. Kast deeply appreciates
the Ninth Circuit reviewing the magistrate’s order to
amend the copyright judgment.
7.

Do you have any other cases pending in this
court? If so, give the name and docket number of
each case.

Yes, appeal of copyright judgment case no. 1616801
8.

Have you filed any previous cases which have
been decided by this court? If so, give the name
and docket number of each case.
No

VIII. Conclusion
Kraig R. Kast on behalf of himself and all defen­
dants, asks the Ninth Circuit to reverse and dismiss
Plaintiffs motion to amend the copyright judgment,
with prejudice.

App.ll4a
/s/ Kraig R. Kast
Kraig R. Kast
PO Box 4612
Foster City, CA 94404
Dated: April 23, 2018

App.ll5a
APPELLANT INFORMAL REPLY BRIEF
(JUNE 6, 2018)
UNITED STATES COURT OF APPEAL
FOR THE NINTH CIRCUIT
SAN FRANCISCO
KRAIG R. EAST,
Appellant Pro Se,
v.
ERICKSON PRODUCTIONS, INC. &
JIM ERICKSON,
Appellees.
Appeal Case No. 17-17157
Related Appeal Case No. 15-16801
District Court Case No. 5:13-cv-05472-HRL

Kraig R. Kast
PO Box 4612
Foster City, CA 94404
(415) 806-9292
kraigru@hotmail.com

App.ll6a

INTRODUCTION
The informal opening brief contained Kast’s legal
arguments, this informal reply brief contains his
factual arguments.
This is an easy case for the court to decide.
Kast’s declaration (Vol 2 Dkt 2131) succinctly explains
the Black Oak Trust’s (BOT) transaction history. Biche’s
declaration (Vol. 2 Dkt 213-3) succinctly explains the
BOT’s financing.
1. McCulloch’s most glaring omission in his answer
brief is he doesn’t cite one section of the California
Probate Code (CPC) that supports his arguments;
whereas. Kast cites dozens of CPC sections and cases
in his opening and reply briefs that support his argu­
ments.
2. The magistrate doesn’t cite one California
Probate Code or FRCP that supports his decision. He
also lacks a fundamental understanding of trusts and
trust law. The magistrate simply restated McCulloch’s
arguments nearly word for word.
3. McCulloch’s answer brief has provided no evi­
dence the irrevocable Black Oak Trust (Vol 2 Dkt 213l) is not valid under California law and no evidence
to contradict First American Title stating the BOT is
irrevocable as of December 2007 (Vol 13 emails).
4. There’s no evidence the loans made to the BOT
are illegal, because they are not.
5. The magistrate’s order claims McCulloch’s
evidence is “unrefuted” (Dkt 243 18:10-14). Not true.
Kast, Baker and Biche’s declarations (Vol 2 and 3 Dkt
213, 213-1, 213-2, 213-3) strongly “refuted” McCulloch’s
arguments.

App.ll7a

The magistrate erred in his order amending the
copyright judgment. His order was based on only one
thing “Court finds that there has not been a transfer
of the subject properties to an irrevocable trust”,
nothing more. (Vol 1. Dkt 243 18:11-12) The magistrate
didn’t say the irrevocable BOT is invalid, didn’t say
the Kraig Kast Living Trust (KKLT) was invalid; didn’t
say Kast, acting as trustee of any trust, is the alter
ego of Kast acting as an individual in the copyright
case and didn’t say Kast is a beneficiary of any trust.
The magistrate erred in finding that the legal
disclosure “Kraig R. Kast as trustee of the Black Oak
Trust dated 3-11-95” is a fictitious business name
(Vol 1 Dkt 243 18:16-19) and (Vol 15-5). The magistrate
erred when he denied Kast’s motion to quash.
ARGUMENT
I

The District Court Lacked Subject Matter Juris­
diction Rule 12(b)(1)
A. Magistrate Didn’t Have Enforcement Juris­
diction During Appeal

Kast’s legal argument in the Opening Brief shows
the magistrate shouldn’t have heard the motion to
amend (MTA), while the appeal is pending.
B. Amendment Order Substantially Expanded or
Altered the Judgment
Kast’s Opening brief, shows, without question,
the magistrate’s order expanded and altered the
judgment. Ms. Baker was never part of the copyright
action. The magistrate dismissed Ms. Baker from the

App.ll8a

MTA; he had no jurisdiction over her. The magistrate
can’t legally take her property without due process.
C. Peacock and Thomas, Head are not trusts
under California law
The magistrate erred when he claimed subject
matter jurisdiction based on Peacock v. Thomas
and Thomas, Head et al. v Buster. Both are ERISA
(employee benefit) cases. CPC definition 82(b)(l3)
(Vol 15-2 Glossary) says ERISA trusts are not trusts
under California Law. Those cases can’t be used by
the magistrate to assert subject matter jurisdiction.
There is no Federal Probate Code, so there’s no
legal basis for the magistrate to assert subject matter
jurisdiction over a California private trust. The mag­
istrate asserted subject matter jurisdiction over a
California private trust, he must apply the California
Probate Code and law, but he ignored it.
D.
By reference, this Reply Brief includes California
case law Laycock v Hammer, Wilmington Capital v Big
Whale Trust and other cases in East’s Opening Brief
that support the private irrevocable Black Oak Trust
is valid.

App.ll9a

II.

The Magistrate’s Order Amending the Judgment
Is Contrary to California Law
A. No Justification for Amending Judgment to
Include Kast as Trustee of the Black Oak Trust
1. California Probate Code

There is no Federal Probate Code. There are
Probate Codes in every state. The IRS recognizes that
trust and probate law is vested in the states, not the
federal government (Vol. 15 Exh l). Therefore, the
California Probate Code (CPC) should be the basis
for the court to make its decision. The magistrate
ignores the BOT’s governing instrument and doesn’t
cite the CPC in his order (Vol. 1 Exh. 2, Dkt 243).
CPC 82 (a)(l) a “trust” is defined as a “private”
trust (like the BOT) (Vol 15 Exh. 2 Glossary). CPC
21102(a) says the trust instrument controls the legal
effect of what happens after the trust is created.
The requirements for a valid California trust are: there
needs to be a conveyance of property (CPC 15202,
15206); intent (CPC 15201); promise (CPC 15200(e);
purpose (CPC 15203); a beneficiary (CPC 15205) and
capacity (CPC 810). CPC 15208 says no consideration
is required to create a trust (contrary to McCulloch’s
lie). CPC 15400 “Unless a trust is expressly made
irrevocable by the trust instrument, the trust is
revocable by the settlor”. The BOT instrument’s first
page and section 1.03 (Vol. 2 Exh 1 Dkt 213-1, pg 44)
states it is irrevocable (Vol 15 Exh 3). Therefore, the
BOT is irrevocable under CPC 15400.
The first page of the BOT instrument clearly states
“This Irrevocable Trust Agreement is created on
December 11, 2007 by amendment to the Kraig R.

App.l20a

Kast Living Trust dated March 11, 1995”. The word
amendment is not ambiguous. The magistrate can’t
ignore the word amendment, its meaning and intent,
but he did.
By amending the KKLT to become irrevocable on
December 11, 2007, the entire KKLT instrument was
made irrevocable. By restating, the wording in the
KKLT was replaced by the wording in the BOT
instrument dated December 11, 2007, all of which is
governed by California law. When the BOT became
valid Kast gave up equitable and legal ownership of
the properties.
The magistrate erred when he said there are
two trusts (Vol. 1-2 Dkt 243 18:3-5) BOT section 5.01
says there is “a single trust”. (Vol 2 Dkt 213-1 pg 65)
(Vol 15 Exh 7). Only one BOT instrument is in evidence
in this appeal (Vol. 2 Dkt 213-1 Exh 6 pg 33-141).
BOT Article Two (Vol 2 Dkt 213-1 Pg 50) is unam­
biguous. “The “lifetime beneficiary of my trust is
Mariellen Baker” (Vol 15 Exh. 4). Now here in the
BOT or KKLT does it say Kast is the beneficiary. The
magistrate didn’t know what a “lifetime” beneficiary
is (Vol 1 Transcript Pg 22:2) basic trust law.
Every third party who lent money to the trust,
insured the title on the trust’s properties, rented
from the trust and provided services under contract
to the trust, recognizes the BOT is irrevocable and
recognizes it was created on March 11, 1995 (Vol 15
Exh 5 First Am email, Shahab, Vacarella loans). Kast’s
intent (CPC 15201) was always for the KKLT to become
irrevocable on December 11, 2007.
No title company, lender, mortgage broker, real
estate broker or CPA would put their license or money

App.l21a

at risk if the BOT instrument, financing process or
tax filing was not legal. Prior to the order, San Mateo
County refused McCulloch’s lien on the Beachpark and
East Court properties because the judgment was
against Kast as an individual, not in his capacity as
trustee of the BOT. Mariellen Baker has always been
BOT’s beneficiary and successor trustee, not Kast
See (BOT section 3.02 (Vol. 2 Dkt 213-1 Pg 50).
BOT’s instrument clearly states in section 1.04
(Vol 2 Dkt 213-1 pg 45) (Vol. 15 Exh 8) that the
properties listed in Schedule/Addendum A are attached
to the BOT. Schedule/Addendum A (Vol 2. ER 213-1 Pg
137) (Vol 15 Exh 9) lists four properties: 1061
Beachpark Blvd. #112, Foster City, CA; 13 East Court
Lane, Foster City, CA; 969 Desoto Lane, Foster City,
CA and 12155 Vista Terraza Court, Valley Center, CA.
The court will also note Schedule/Addendum A is signed
and dated by Kast, the grantor/settlor, on December
30, 2007 complying with CPC 15206 (note there is
nothing in CPC 15206 that says the settlor/grantor’s
signature must be notarized). BOT became valid on
December 30, 2007 when the properties were conveyed
into the BOT on Schedule/Addendum A in compliance
with CPC 15206, 15202 and BOT section 1.04.
The BOT instrument (Vol 2, 213-1, pg 108) section
10.11 allows a property to be “taken out” and be put
“back in” the trust for financing purposes. Ms. Biche,
the mortgage broker’s declaration (Vol 2. Dkt 213-3),
clearly explains that taking a property “out of the
trust” and putting it “back into” the trust is a common
real estate financing practice dating back long before
2007 and mandated by the lender.
There is no notarization of a trust instrument
requirement under California law.

App.l22a

The American Bar Assn.’s Chapter 5 of the trusts
section Pg. 4 “typically no public record is required”
and ABA Chapter 5 trusts Pg. 5 “most states do not
require witnesses to execute trusts or amendments to
it” (Vol 15 Exh ll). California has no requirement that
a trust must be recorded with the County or State to
be valid.
A.

The BOT’s Spendthrift provision and Special
Powers of Appointment prevent McCulloch from
taking Baker’s property under California law

The magistrate erred when he ignored the BOT’s
Special Powers of Appointment section 1.05 (Vol 2
Dkt 213-1 P 46-47) and CPC 681 and Spendthrift
provision section 11.02 (Vol 2 Dkt 213-1 P 122) and
CPC 15300-15301.
Powers of Appointment CPC 681:
“Property covered by a special power of
appointment is not subject to the claims of creditors
of the donee or of the donee’s estate or to the expenses
of the administration of the donee’s estate.”
California is one of the most creditor-friendly
states. However, even in California, a private irrevo­
cable trust with Special Power of Appointment was
upheld in Wilmington Capital LLC vs. The Big Whale
Trust in May 2012.
Spendthrift Provision 15300-15301
McCulloch said at oral argument (Vol 1 transcript
13:4) that he’s not holding Ms. Baker personally liable.
The magistrate dismissed Ms. Baker from the MTA.
The magistrate has no jurisdiction over Ms. Baker.
Ms. Baker was never named in the copyright case. She
had nothing to do with the copyright case and was

App.l23a
never a judgment debtor and she has not filed bank­
ruptcy. Ms. Baker is not liable for Kast’s debts, she is
one of Kast’s creditors BOT Section 11.02 (Vol 2 Dkt
213-1 P122).
Kast fully paid his debt, up to that time, to Ms.
Baker in 2007 when he executed and funded the BOT
with property. The BOT can be used by Ms. Baker for
her health, education, maintenance and support.
2. Title
The magistrate erred when he said the deeds
indicated the properties were not transferred to the
BOT. The San Mateo County Recorder’s website states
“When a document is presented to our office for
recording, it is only examined for “recording require­
ments” and not for its correctness or legal suffi­
ciency”. (Vol 15 Exh. 13-screenshot) The court should
ignore the deeds (Answer brief Exh 11, 20, 21, 22, 23)
because they are unauthenticated and have no “legal
sufficiency”.
Actual v. Constructive Notice
in the Recording Process
Actual notice consists of express information of a
fact. Constructive notice means notice given by the
public records. By means of constructive notice, people
are presumed to know the contents of recorded
instruments. Publicly recording instruments of transfer
/conveyance or to encumber/lien the title to real prop­
erty imparts constructive notice. Cal. Civil Code 2934
enacted in 1872 states in part, “Any assignment of a
mortgage and any assignment of the beneficial interest
under a deed of trust may be recorded, and from the

App.l24a

time the same is filed for record operates as construc­
tive notice of the contents thereof to all persons . . .
Recording a document is simply a constructive
public notice, not much different than placing a notice
in a newspaper. First American Title Insurance said
the BOT is irrevocable (Vol 13-emails) that confirms
the BOT is irrevocable.

A.

Deeds

The magistrate erred when he said the properties
were not put into the BOT. The deed history in decla­
rations (Vol 2 Dkt 213, 213-1, 213-2, 213-3) and
deeds (Vol 2 Dkt 213-1 Exh 8-19) show the properties
were put into the BOT in 2007 and 2008. However, the
San Mateo County recorder says the recording of a
document doesn’t imply any “correctness or legal suf­
ficiency”.
B.

Errors on Deeds

The magistrate erred when he said the errors on
the deeds showed the properties were not put into the
BOT. Errors on deeds are not uncommon and under­
standable.
When lenders and title companies process hun­
dreds of transactions a day, each involving several
hundred pages, it is understandable that typos occur.
Most of the loan and title documents are fill forms.
Add to the process an uncommon document like an
irrevocable trust that sounds to processing clerk like
a common revocable trust and it is easy to see why
mistakes over the two letters “Ir” occur.
Most borrowers, buyers and sellers rely on the
title company and their mortgage broker to read and
understand the forms they are signing at the closing

App.l25a

table, few people read every page. When an error is
caught after signing the documents, there is an
established corrective deed process in California (Vol
15 Exh 14).
If Kast, Baker or the title company caught the
errors, he would have made a corrective deed. But,
neither Kast, Baker or the title company caught the
errors before the refinancing in 2014 and 2015. This
lawsuit created an obstacle to using corrective deeds.
Had Kast or First American caught the errors and made
a corrective deed McCulloch would have claimed that
the corrective deed was done to avoid his collection
efforts; if the deed was not corrected, McCulloch
could claim that the properties were not in the
irrevocable trust, neither of which is true.
The title to the Beachpark and East Court prop­
erties was corrected when the Shahab and Vacarella
loans were recorded. When the MTA issue is decided
the BOT’s successor trustee, Ms. Baker, may be
advised to correct the title history by her attorney.
C.

Title Company Instructions

McCulloch misrepresents Kast’s fax sent to First
American (Vol 15 Exh 15) dated December 20, 2007
which is ten days before the BOT became valid. The
first part is Kast’s response to Ms. Koontz’s request
for a copy of the KKLT second amendment. Second
part is Kast’s instruction to Ms. Koontz that when
the Valley Center and Desoto property transaction
closes (and the BOT becomes valid in compliance
with CPC 15202, 15206) the properties are to be put
into the BOT (not the KKLT). Valley Center property
was conveyed from Kast to the BOT in February
2008 (Vol 12), Desoto in February 2008 (Vol. 5 pg 23).

App.l26a
(Vol 15 Exh 5) Ms. Koontz was under tremendous
pressure from the seller’s agent to close the transac­
tion by December 20, 2007, so it’s easy to see that
mistakes could happen.
The San Mateo County recorder’s website says,
the deed errors had no “legal sufficiency”. The deeds
didn’t prevent the financing, purchase or sale of a
trust property or a title company insuring the title
and none of the errors changed the beneficiary. Ms.
Baker, who has been the “lifetime beneficiary” since
2007.
D.

Title Process

First American Title Insurance Co. handled the
escrow and title insurance in 2007 for both the Desoto
and Valley Center properties and in 2016 for Valley
Center, which gives them a historically detailed and
accurate record of the property history. Please see
the emails from First American confirming the BOT
is irrevocable as of 2007 restated to 1995 (vol. 13 and
vol 15 Exh 5).
Ms. Lawrence (Vol. 5-11), a highly respected mort­
gage broker with over 30 years of experience, brokered
financing for the KKLT and BOT properties from
1998 to 2007. Several times over the years there
were corrections in the recorded documents (vol. 51/30/01 title vesting corrected 11/09/04) and misspell­
ings (Vol 5 1/07/08). In 2007, the Desoto property was
“taken out” of the Kraig Kast Living Trust (KKLT)
(Vol 5 Pg. 59) and put “back into” the BOT (Vol 5 pg.
27). Had Kast’s intent been to put the Desoto proper­
ty into the revocable KKLT the title would have said
the KKLT aka of Black Oak Trust, it didn’t, it only
said the BOT.

App.l27a
McCulloch is lying to the court when he says the
KKLT second amendment is valid and the third
amendment creating the irrevocable trust is not valid.
Remember, for a trust to be valid there must be a
transfer of property under CPC 15202, 15206. The court
will note there is no Schedule/Addendum A attached
to the KKLT second amendment (Answer brief Exh 2)
proof the second amendment was not valid and was
never intended to be valid under California Probate
law.
There is a signed and dated Schedule/Addendum
A to the irrevocable BOT instrument (Vol 15 Exh 9)
therefore, under CPC 15202, 15206 the irrevocable
trust amendment is valid. The irrevocable trust
instrument restates the effective date to be March
11, 1995. All of the loan and title documents correctly
refer to the BOT as dated 3-11-95.
E.

Title Company Confirms Black Oak Trust Is
Irrevocable

Please see First Am emails (Vol. 15 Exh 5) con­
firming BOT is irrevocable
3. Lenders
Kast as trustee of the BOT was empowered by CPC
16241 to take out loans on trust properties. As Kast’s
Declaration (BOT section 10.11 (Vol 2. Dkt 213-1
P107-108) and Biche’s Declaration (Voi 2 Dkt 213-3)
state the common practice when financing/refinancing
residential mortgages held in trust is to “take it out”,
which means to temporarily remove title from the
trust in name only, then after financing to put it
“back into” the trust. This is usually done by the title
company at the time of closing on the loans.

App.l28a

The magistrate stated in his order there was no
evidence the loans were modified from Kast as an
individual borrower to reflect the irrevocable BOT as
the borrower (Dkt 243 14: 10-12). The magistrate
doesn’t understand real estate finance and either
didn’t read or ignored Ms. Biche’s (the mortgage broker)
declaration (Vol 2 Dkt 213-3) explaining why the BOT’s
loans are made in the name of Kast as an individual
and not the BOT and then the title returned to the
trust. (Vol 2 Dkt 213-1 pg 9).
Institutional lenders like East West Bank rarely,
if ever, make loans directly to trusts, but they will
make loans backed by the trust assets to trustees,
grantors/settlors or beneficiaries as individuals. It would
not be possible to modify the name on the loan from
Kast to the BOT, as the lender would not allow it.
Two private lenders, the Shahab and Vacarella
Trusts, made loans directly to the BOT (Vol 15 Exh
17). The mortgage brokers, Ms. Biche representing
the BOT and Cal-West Home Loans representing the
Shahab and Vacarella Trusts, both reviewed the
irrevocable BOT instrument, as did the lenders. They
knew the properties were held in an irrevocable trust
and made the loans directly to the trust.
4. Taxes
McCulloch claims that Kast, declaring the BOT’s
loss on his personal tax return (Sealed Document),
shows he is the alter ego of the BOT and has benefited
personally from the BOT, not true. The IRS (Vol 15
Exh 18) says it is a legal deduction.
McCulloch claimed Kast, as trustee of BOT,
committed tax fraud under Cal Revenue Sect. 480,

App.l29a

another lie. Statute 480 says nothing about taxation
of revocable or irrevocable trusts. When trusts are
refinanced, there is no change of ownership.
Prior to the magistrate’s order, McCulloch claimed
Kast committed tax fraud because the BOT didn’t pay
taxes on the refinancing of trust properties, not true.
When confronted with Cal Bd. of Equalization Section
11911 (Vol 15 Exh 20) that says no taxes are payable
on refinancing. McCulloch claimed that because Kast
as trustee of the BOT paid property taxes it means
the BOT was his alter ego, not true per CPC 16243.
A.

IKS Taxation of Grantor Trusts

During oral arguments, the magistrate asked Mr.
Lund who represents Ms. Baker and the BOT (Kast’s
co-defendants), to explain grantor trust taxation to
him (Vol 1 Exh 5 22:2), this is basic trust tax law.
The IRS excerpt describes trusts and tax treatment
in (Vol 15 Exh 18). An “irrevocable trust” can be treated
as a grantor trust if any of the grantor trust definitions
contained in Internal Revenue Code §§ 671, 673, 674,
675, 676, or 677 are met which allows a trust’s gain
or loss to be filed on the settlor/grantor’s personal tax
return. Kast’s 2013 tax return prepared by a CPA
(Sealed), shows the BOT is a grantor trust. The BOT
section 1.07 (Vol 2. 213-1 P 47) references IRS code
671-678 as the basis for its taxation.
5. Third Party Agreement to Be Bound
(Cal. Civil Code 1624(b)(1)(B) and 1624 (I)(D))
Third parties recognize the BOT is valid, the
properties were conveyed into it and they agree to be
bound by it. The BOT, lenders and title companies
agree to be bound by their contracts including loans.

App.l30a

BOT section 1.02 references “reliance” by Third parties
(Vol. 2 Dkt 213-1 Pg. 44). BOT section 1.03 says BOT
is irrevocable (Vol 2 Dkt 213-1 Pg. 45).
CCC 1624 (b)(1)(B) “The parties thereto by
means of a prior or subsequent written con­
tract, have agreed to be bound by the terms
of the qualified financial contract from the
time they reached agreement (by telephone,
by exchange of electronic messages, or
otherwise) on those terms.”
CCC 1624 (I)(D) “There is a note, memorandum, or other writing sufficient to indicate
that a contract has been made, signed by
the party against whom enforcement is
sought or by its authorized agent or broker”.
6. San Mateo County Recognizes Black
Oak Trust Is Irrevocable
San Mateo County refused to record McCulloch’s
lien against the Black Oak Trust’s properties prior to
the magistrate’s order because the copyright judgment
was against Kast as an individual, not against Kast
as trustee of the Black Oak Trust.
7. No Basis to Add “Kast as Trustee” as
Alter Ego of Kast as an Individual”
McCulloch claims that because Kast, as trustee,
managed the BOT’s real estate and paid the BOT’s bills,
that proves the BOT is Kast’s alter ego. Not true.
Under CPC 16352(c)(4) and BOT section 10.18 (Vol 2
Dkt 213-1 Pg 112) Kast, as trustee, was empowered
to manage rental properties. Under CPC 16352 (a) and
BOT section 9.13 (Vol 2 Dkt 213-1 Pg 85-86) and his

App.l31a

Fiduciary license Kast as trustee was empowered to
provide accounting services to the BOT.
Kast incorporates by reference CPC 16000-16249
Trustees Powers in this reply brief and as they relate
to the powers granted to the trustee in the BOT
instrument. Under CPC 16225(a)(1) and BOT section
10.04 Kast as trustee was empowered to open bank
accounts for the BOT. CPC 16228 and BOT section
10.11, Kast as trustee has the power to encumber,
mortgage or pledge trust property. Kast’s Professional
Fiduciary license 558 empowers him to provide
accounting services for BOT. CPC 16014 Kast as trustee
is required to apply the “full extent of his skills” includ­
ing his skills as a licensed Fiduciary, Real Estate Broker
(license 01426063) and Insurance Broker (License
0G91440) in the best interests of the BOT and its
beneficiary Ms. Baker.
Kast’s real estate broker license empowers him
to represent buyers and sellers in real estate transac­
tions. CPC 16102, 16231, 16247 the trustee can hire
a real estate agent like Kast or a mortgage broker
like Ms. Biche or Ms. Lawrence, to provide advice
and services to the trustee regarding selling/leasing
property. See a description of the services Kast is
permitted, and in some cases, legally required to pro­
vide under his Professional Fiduciaries License (Vol.
15 Exh 19).
Atherton’s development website, which is the basis
of the copyright action, had nothing to do with the
BOT. Kast, as trustee of the BOT, never provided any
of the services in the copyright action. Kast, as
trustee of the BOT, was never associated in any way
with contracting for construction of the development
website. The BOT had no income, no expenses and no

App.l32a

profit from the development website. The BOT doesn’t
seek clients, as it is not a business. Kast, as trustee
of the BOT, had no control over the developers of the
website. Kast received no personal or professional
benefit from the website on behalf of the BOT. The
BOT was never named as a defendant in the copyright
action. Ms. Baker and the BOT were never a defendant
in the copyright action. The BOT and Ms. Baker, the
successor trustee and sole lifetime beneficiary of the
BOT had no due process in the copyright action. Ms.
Baker as sole beneficiary of the BOT, as an individual
or as successor trustee were not named as debtors by
the magistrate in his MTA order because he had no
jurisdiction over her.
To associate Kast’s liability as an individual or
the employee of an unrelated business, with his respon­
sibilities as a trustee of the BOT or any other trust, is
a grave injustice setting a dangerous precedent that
creates litigation extortion exposure for the benefici­
aries of millions of private trusts. People would be
unwilling to act as a family or professional trustee
and it would keep grantors from naming anyone as a
trustee for fear the beneficiary’s assets could be seized
based on pass-through-liability. Private, professional
and corporate fiduciaries may not be able to get insur­
ance. Finding Kast, as an individual, in an unrelated
action has pass through liability to him functioning
as a trustee is contrary to the intent of California
Business and Professions Code 6500, the Profession­
al Fiduciaries Act.

App.l33a

8. “Kast as Trustee of the Bot Dated 3-1195” Is Not a Fictitious Business Name
The magistrate erred again when he said the
disclosure “Kraig R. Kast as Trustee of the Black Oak
Trust dated 3-11-95” on the Shahab and Vacarella loan
instruments and deeds was Kast’s fictitious business
name that was meant to “confound creditors”. This is
profoundly false.
CPC 16009 “The trustee has a duty to do
the following:
(a) To keep the trust property separate from
other property not subject to the trust.
(b) To see that the trust property is desig­
nated as property of the trust.”
Cal BPC 17900(a)(1) says “The filing of a
fictitious business name certificate is
designed to make available to the public the
identities of persons doing business under
the fictitious name.”
17900(b)(1) says “As used in this chapter
fictitious business name means: In the case
of an individual, a name that does not include
the surname of the individual or a name that
suggests the existence of additional owners,
as described in subdivision (c)”.
CPC 16222. For the purpose of this subdivi­
sion, the lease of four or fewer residential
units is not considered to be the operation of
a business or other enterprise. BOT had 4
properties before this lawsuit.

App.l34a

BOT section 1.01 Identifying My Trust de­
scribes how the trust is to be referred to
(Vol 2. Dkt 213-1 Pg 44).
Obviously “Kraig R. Kast as Trustee of the Black
Oak Trust Dated 3-11-95” complies with CPC 16009(b)
and BOT section 1.01. It is not a FBN under Cal. BPC
17900 because it includes Kast’s family name. BOT’s
Section 1.01 Tf 2 states how the trust is described.
CPC 16222 BOT is not as business so it doesn’t require
a FBN. Describing Kast as trustee of the BOT does
not and is not intended to “confound” Kast’s or the
BOT’s creditors.
As Kast said during the copyright trial ER 166:1718, the Department of Insurance doesn’t allow him to
use the word “Trust” in a FBN (Vol 15 Exh. 20). The
Bureau of Real Estate and the Professional Fiduciaries
Bureau have similar rules about what words are not
permitted to be used by licensees. No FBN, no alter
ego of Kast.
9. Kast Never Used the Bot for His
Personal Benefit
McCulloch alleges Kast, as trustee of the BOT,
opened bank accounts this proves Kast personally
benefited from the trust and that the BOT’s Kast’s
alter ego, not true per CPC 16004 and CPC 16225. BOT
section 10.04 (Vol 2 Dkt 213-1 pg 95) allows the trustee
to open bank accounts. BOT section 10.11 (Vol. 2 dkt
213-1 pg 107) empowers the trustee to encumber trust
property (i.e. with loans). BOT section 10.19 (Vol 2
Dkt 213-1 pg 112-113) allows Kast and Baker to rent
property from the BOT. BOT section 10.2l(Vol 2. Dkt
213-1 pg. 114-115) allowed Kast as trustee to invest

App.l35a

in securities. Neither Kast or Baker ever abused or
used the trust for their personal benefit.
CPC 16004
(a) The trustee has a duty not to use or deal
with trust property for the trustee’s own
profit or for any other purpose unconnected
with the trust, nor to take part in any trans­
action in which the trustee has an interest
adverse to the beneficiary.
(b) This section may not be construed as
affecting the trustee’s right to:
(l) Maintain a reserve for reasonably antici­
pated expenses, including, but not limited
to, taxes, debts, trustee and accounting fees,
and costs and expenses of administration.
CPC 16225(1) permits the trustee to have
an “insured account in a financial institution”
(e) checking account.
lO.Biche Consultation About BOT Prop­
erty, Sale or Lease Permitted
In June 2016, Ms. Baker, BOT’s successor trustee,
asked Kast as a real estate broker, to explore ways
for him to sell, lease or refinance the BOT’s Valley
Center property. CPC 16012(b) and BOT Section 9.08
(Vol 2 Dkt 213-1 Pg 83) empower her to do this.
Answer Brief Page 22 1 2 line 3-6, Order (Vol. 1.
Dkt 243 17: 6-8). The magistrate erred. Kast would
not and could not sign to sell any BOT property after
he resigned as trustee 12/31/15. All title companies
review trust documents before agreeing to insure the
title to see who is empowered to sign for the trust,

App.l36a
just as First American did (Vol 15 Exh 5). BOT is
irrevocable. Kast couldn’t finance the BOT property
because he didn’t have a personal bank account.
Unable to finance the Valley Center property herself
Ms. Baker, as successor trustee, decided to sell using
a local real estate broker and signed the sale documents.
McCulloch tampered with the Biche email evidence,
for the full text of the emails see (Vol. 15 Exh 21).
(Vol 1 Dkt 243 17:19-20) The magistrate was
confused by McCulloch about the difference between
a beneficiary, a settlor and trustee, which is basic
trust law {see CPC definitions in Glossary).
11. No Comingle Between Personal and
Bot Funds
Kast and Ms. Baker put their social security into
a bank account under Wellington Alexander & Co., a
corporation affiliated with California Trust Co., a
California registered company (Vol. 15 Exh. 22) (Vol
15 Exh. 2-Glossary CPC 82). California Trust Co.
provides trust management services as permitted under
CPC 16225(2)(b) “company affiliated with trustee” and
Wellington provides bill payment services. Wellington
and California Trust Co. are not owned by the private
Black Oak Trust (Vol 15 Exh 2 Glossary CPC 83).
Kast and Ms. Baker agreed in 2007 that they
would equally share their living expenses. Should
Kast or Baker be unable to contribute his/her equal
share that month and the other has the means to make
up the difference, then the person who is able to do
so will lend to the other the amount of their shortfall.
(Vol 15 Exh. 23)

App.l37a

The Wellington account is to separate Baker and
Kast’s personal living expenses like rent, utilities,
food, health care, etc. from the BOT’s operating account
to avoid any comingling between their personal
expenses and the BOT. Kast is not the beneficiary of
California Trust Co. or any other business or private
trust. None of Kast’s activities as trustee meets
California’s test for alter ego. Due to this lawsuit,
which has driven away Kast’s former and potential
clients and exhausted Kast’s nominal inheritance,
Baker has supported Kast for the last 10 years.
IH. Motion to Amend the Copyright Judgment Should
Be Dismissed Based on Statute of Limitations
The magistrate erred again by not dismissing the
MTA. In Kast’s Opening Brief, he stated why Rule
6(b)(2), 59(e) and 60(b) and its 1946 amendment re­
quired the magistrate to dismiss the MTA.
McCulloch’s answer doesn’t mention his compliance
with Rule 60(b) amended 1946 by filing two lawsuits,
USDC case no. 3:17-cv-02427-RS before Judge Seeborg
and his San Mateo County lawsuit no. 17-cv-04633.
McCulloch knew when he filed the MTA that it should
be dismissed which is why he filed the independent
lawsuits that justify why the MTA should be dismissed.
The magistrate’s intentional partial statement of
rules 59 and 60 and omitting rule 60’s one year time
limit in his order shows his bias against Kast.
None of McCulloch’s “motion practice” prior to
filing the MTA had anything to do with the BOT or
discovery about whether the BOT was revocable or
irrevocable. The truth is all of McCulloch’s “motion
practice” was opposing Kast’s IFP application, Kast’s
motion to stay the judgment without supersedes bond,

App.l38a

his opposition to Kast’s discovery and motion to compel
how McCulloch came to possess Kast’s stolen bank
statements, without a subpoena to the banks.
McCulloch’s claim that the BOT was revocable in
any of his filings was corrected by Kast in ER Dkt
133 15:3 and ER Dkt 163: 6 (vol 15 exh 26) 463 days
before McCulloch’s ostensibly “new evidence”. His
“new evidence” was First American Title telling him
in November 2016 that he had no claim on Ms. Baker
or the BOT’s property because the BOT became
irrevocable in 2007.
IV. Oral Argument Transcript and Magistrate’s
Order Excerpts of Record
The transcript supports Kast’s assertion that the
magistrate lacked sufficient knowledge of California
trust law and was therefore taken advantage of and
intentionally “confused” by McCulloch.
McCulloch stated he never intended Baker to be
personally liable for Kast’s debt. By the magistrate
saying the properties “never transferred from the
KKLT to the BOT’, the magistrate has taken away Ms.
Baker’s retirement savings without due process and
exposed them to McCulloch, an unjustified overreach
by the magistrate.
12:5-8 Court: Baker as Kast alter ego doesn’t fly
13:4-13 Court—No Federal Jurisdiction over Baker
(or her property).
13:9 McCulloch—We’re not saying Baker is
personally liable
13:20-24 McCulloch—alter ego to include Kast’s
fictitious businesses

i

App.l39a

14:18-21 McCulloch—“Baker not being personally
held liable for anything, not being added as a
party”.
15:8 Court—“I don’t like that phrase, alter ego”
22:2-23:19 Court—“what’s a lifetime beneficiary”
(basic trust law)
22:18-23:18 Court—regarding “grantor trust” tax
treatment (basic trust law)
22: 21-25:13 Lund—Subject Matter Jurisdiction
discussion
29:1-6 Lund—Statute of Limitations has expired
on fraudulent conveyance
29:7 Lund—Baker is a bona-fide creditor of Kast
30:14-18 Court—”Mr. McCulloch, do you seriously
think that there’s more than one trust here?”
34:4-9 McCulloch—created a revocable trust that
becomes irrevocable when his wife or he dies.
McCulloch says his revocable trust that con­
verts to an irrevocable trust is legal whereas,
Kast’s revocable trust that converted to
irrevocable without Kast dying is not legal,
doesn’t make sense.
34:23-24 Court to McCulloch. “When you speak
fast, the difference between “revocable” and
“irrevocable” gets lost sometimes”.
44:5-10. McCulloch lies to the court about grantor
trust tax treatment, see taxes above.
49:4-22. Kast denies McCulloch allegation that
Kast as an individual and Kast as trustee of
the BOT are the same, they are not

App.l40a

50:17-23 McCulloch forged subpoenas
51:9-20 Kast refutes McCulloch’s lies that the
subpoenas were sent in error.
54:1-10 No requirement that trusts be notarized
in California (basic trust law)
67:1-11 McCulloch lies to confuse magistrate about
sending six forged subpoenas by referencing
subpoena sent later to Baker
69:13-70:1 McCulloch lied to the court about forged
subpoenas that bear his signature
V.

Motion to Quash

FRCP 69(a)(2) doesn’t say a creditor can commit
fraud and forge court documents to obtain discovery.
It is coercion and intimidation to threaten a respondent
with a motion to compel, before the court makes its
decision on a motion to quash. (Vol 15 Exh. 24) Mc­
Culloch’s coercion enabled him to obtain documents
that could be barred if Kast’s Motion to Quash was
granted.
Kast asks the court to strike all documents
produced in response to the forged subpoenas. If the
court strikes the subpoenas and respondents documents
then there is insufficient evidence to grant the Plaintiffs
motion to amend the judgment.
VI. Pattern of Deceit
Kast believes that he and McCulloch are required
to be honest with the court. Kast has been truthful
however, there is no doubt that McCulloch has been
repeatedly dishonest with the courts. McCulloch vio­
lated the American Bar Association code of ethics

App.l41a

sections 3.3 Candor (honesty) toward the tribunal,
4.1 Truthfulness to Others (forged subpoenas), 5.1
Supervisory responsibilities (forged subpoena cover
up) and several others. McCulloch has repeatedly
violated the ethics code, his declarations mean nothing.
There’s no doubt McCulloch forged six USDC
subpoenas. (Vol 15 Exh. 24) bearing his signature,
sent from his New York office, by his partner.
For a list and exhibits of McCulloch and his asso­
ciates potentially unethical and criminal violations
please see (Vol 15 Exh. 24).
From the beginning of this lawsuit McCulloch,
Kleinman, Ayala, McCulloch’s disbarred and incar­
cerated partner Danial Nelson, Jim Erickson and his
employee Jessie Hughes, have shown they will com­
mit perjury, forge court documents, obtain stolen
property, commit fraud on the court, wire fraud and
ethics violations to win this case so they can steal an
innocent person’s (Baker) retirement savings. Kast
asks the court to take the appropriate action including
sanctions for their disdain for the rule of law, it
shouldn’t be overlooked or given a slap on the wrist.
SUMMARY
The magistrate’s order contains many significant
errors. The evidence and the law are overwhelmingly
in Kast’s favor.
There is no doubt the California Probate Code
and statutes prove the Black Oak Trust instrument
is a properly drafted, executed and legal irrevocable
trust under California law. Kast, as the trustee of the
irrevocable Black Oak Trust, acted within the law.

App.l42a

There is only ONE trust in evidence (Vol 2 Dkt
213-1 Pg 34-141). There’s no doubt under BOT section
5.01 that there is SINGLE irrevocable trust, not two
trusts. There is no doubt that the magistrate lacked
subject matter jurisdiction for the reasons cited in
Kast’s Opening Brief and the fact that there is no
Federal Probate Code. The deed errors should be
ignored because San Mateo County Recorder and the
State of California, say they lack “legal sufficiency”.
The BOT’s special powers of appointment and
spendthrift clauses prevent McCulloch from taking
Ms. Baker’s property and income.
The magistrate erred when he omitted important
sections of Rules 59(e) and 60(b) amended 1946 that
have a one year time limit, which justifies dismissing
the motion to amend the copyright judgment based on
the statute of limitations and McCulloch never stating
a Rule 60 claim.
There’s no doubt the properties transferred to
the irrevocable Black Oak Trust in compliance with
the California Probate Code 15202 and 15206 and BOT
section 1.04 on December 30, 2007. There was no
fraudulent transfer because the properties were
transferred to satisfy Kast’s to Ms. Baker 5 years
before McCulloch’s lawsuit was filed or Kast knew
McCulloch was asserting any claim against him.
“Kraig R. Kast as trustee of the Black Oak Trust
dated 3-11-95” is not a fictitious business name under
California law. The disclosure doesn’t tie Kast as an
individual to Kast as trustee of the irrevocable Black
Oak Trust as an alter ego under California law. The
irrevocable Black Oak Trust is recognized by numerous
third parties including title companies, lenders and

App.l43a

service providers as legal, all of whom agreed to be
bound by it. It is also recognized by San Mateo County,
i.e. State of California as a valid trust.
There is proof that McCulloch lied to the court
dozens of times, withheld evidence, intentionally
misstated and omitted portions of the law, obtained
and used Kast’s stolen property, made perjured dec­
larations, violated Rule 11 and potentially committed
wire fraud by sending Kast’s stolen property over the
Internet to the District Court’s ECF system. In addi­
tion, he filed documents with Kast, Baker and a BOT
tenant’s confidential financial information un­
redacted, in violation of the ECF rules, to harass
Kast and Baker in violation of Article 1 Section 1
(Privacy) of the California Constitution.
In October 2015, Kast filed for In Forma Pauperis.
The magistrate denied Kast’s IFP application based
on McCulloch’s tampering with Kast’s bank statements.
Kast’s fundamental right to representation was taken
away and he has had to represent himself believing
that the court will see the truth and dismiss the
motion to amend and the copyright judgment.
The magistrate dismissed Ms. Baker from the
plaintiffs motion to amend the copyright judgment.
The District Court has no jurisdiction over Ms. Baker.
There is no justification or legal basis for the magistrate
to take her property and retirement savings and give
it to Kast, McCulloch and Erickson through this motion
to amend the copyright judgment.
CONCLUSION
Kraig R. Kast respectfully asks the court to
GRANT his appeal to dismiss, with prejudice, Erickson

fe

App.l44a

Productions Inc. and Jim Erickson’s motion to amend
the copyright judgment (Dkt 189) for all of the reasons
stated herein.

/s/ Kraig R. Kast
Appellant Pro Se
PO Box. 4612
Foster City, CA 94404
(415) 806-9292
Dated: June 6, 2018

App.l45a
APPELLANT INFORMAL PETITION
FOR REHEARING EN BANC
(MAY 15, 2019)
IN THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
ERICKSON PRODUCTIONS INC.
and JIM ERICKSON,
Plaintiffs-Appellees,
v.
KRAIG KAST,
Defen dan t-Appellan t.
17-17157
On Appeal from the United States
District Court for Northern California

Kraig R. Kast
Pro Se Appellant
PO Box 4612
Foster City, CA 94404
(415) 806-9292
kraigru@hotmail.com

App.l46a

STATEMENT PURSUANT TO FRAP 35(B)(1)
Defendant-Appellant Kraig R. Kast (Kast) respect­
fully petitions the En Banc Court for rehearing De
Novo of his appeal of the District Court’s order (Dkt
243) known as the Plaintiff Erickson’s Motion to
Amend the Copyright Judgment (Dkt 189) pursuant
to FRAP 35(b)(1).
Kast, the defendant and appellant, denies each
and every allegation contained in the Plaintiffs com­
plaint and denies each and every one of the panel’s
affirmations of the district court’s order (dkt 243)
contained in the panel’s memorandum Dkt 348. Kast
includes his opening and reply briefs and exhibits in
his appeal of the motion to amend and his answer brief
and exhibits from the motion to assign in this informal
En Banc Petition.
The panel’s decision has wide-ranging effect, not
only in California, but in 49 other states as it directly
impacts private Testamentary and Inter Vivous [sic]
Trusts. I respectfully request the En Banc Court to
re-examine the facts and give careful consideration to
my arguments and requests.
INTRODUCTION
Following a jury trial, during which Kast had
inadequate legal representation, the district court
entered judgment in case no. 5:13-cv-05472, against
Kraig Kast (“Kast”) as an individual only, in favor of
Jim Erickson and Erickson Productions Inc. (collect­
ively, “Erickson”) on Erickson’s copyright claims.
Kast appealed Pro Se the judgment, case no. 1516801. One year 98 days after the copyright judg­
ment was entered, Erickson filed a motion to amend

App.l47a

the copyright judgment (Dkt 189) to include several
unrelated parties including Kraig Kast as Trustee of
the revocable Black Oak Trust and Mariellen Baker
(Baker) as Successor Trustee and Sole Lifetime
Beneficiary of the irrevocable Black Oak Trust.
Baker Declined the District Court’s Jurisdiction
(Dkt 222).
In October 2017, the district court magistrate
entered a judgment (Dkt 243) amending the copyright
judgment to include Kraig Kast as Trustee of the
revocable Black Oak Trust. As part of that judgment
the district court declared, 10 years after Kast funded
the irrevocable trust to repay Baker’s loan to him,
that Kast’s property never transferred from the revo­
cable trust to the irrevocable trust. The district court
made this decision in part based on deeds that are
considered by California to have no ‘legal sufficiency or
correctness”. The district court also incorrectly
decided that Kast as an individual is an alter ego of
Kast as trustee of a trust, based on California’s
Fictitious Business Name law.
Kast appealed the district court’s decision case
no. 17-17157, Kast’s opening and reply briefs and
exhibits were filed as dkt 19, 28, 29 and dkt 311-312
of case no 5:13-cv-05472.
The panel resolved Kast’s appeal of the copyright
judgment, case no. 1516801, in a published opinion
F.3d _, 2019
See Erickson Prods., Inc. v. Kast,
WL 1605668 (9th Cir. Apr, 16 2019). The panel then
addressed Kast’s appeal of Erickson’s motion to amend
the copyright judgment, case no. 17-17157, District
court’s order that added Kraig Kast as Trustee of the
Black Oak Trust (a/k/a Kraig Kast, Trustee of the

App.l48a

Black Oak Trust dated March 11, 1995).” as a judgment
debtor. The panel had jurisdiction under 28 U.S.C.
§ 1291.
In its Memorandum dated May 1, 2019 (Memo­
randum) (Dkt 348), the panel affirmed the district
court’s order that there was no transfer of property
from Kast to his creditor, Baker, in 2007. It should be
noted that the district court’s order was almost word
for word what Erickson’s attorney submitted to the
district court.
SUMMARY OF THE ARGUMENTS
The panel’s conclusion that the district court
magistrate did not err in his order to amend the copy­
right judgment (Dkt 243) cannot be reconciled with
district court Article Three Judge Kho’s [sic “Koh”,
this change has been made going forward] order (Dkt
341) which cited FRCP 17(b) lack of Capacity as it
applies to Baker. In that order, Judge Koh correctly
recognized that the irrevocable trust is valid; that
Kast resigned as trustee of the irrevocable trust before
Erickson filed his motion to amend the copyright judg­
ment and Baker is the successor trustee and benefi­
ciary of the irrevocable Black Oak Trust.
Judge Koh’s order denied Erickson’s claims against
Baker as Trustee of the irrevocable Black Oak Trust
(who Erickson named as a co-defendant in the motion
to amend). In Erickson’s pleadings, his attorney Kevin
McCulloch reiterated that he didn’t hold Baker, as an
individual, liable for anything.
There is no federal probate code; all probate law
resides in the states, for this reason probate issues
are litigated in the states. Trusts that litigate in Fed-

App.l49a

eral Court are Employee Benefit Trusts (ERISA) and
private trusts where there is a bankruptcy or tax
issue. In this case there are no bankruptcy or tax
problems with the trust or with the trustee and the
trust is not an ERISA trust, it is a private trust
under California law which should be litigated in
state court.
It is settled law all 50 States that the instant a
private irrevocable trust is executed and funded by
the settlor nothing the settlor does or says after that
date makes the irrevocable trust revocable.
The panel’s memorandum can’t be reconciled with
the facts of this case as well as the superseding order
by Judge Koh; the California Probate Code (CPC); the
State of California and San Mateo County’s govern­
mental laws 27201 regarding the lack of “legal suffi­
ciency or correctness” of recorded of documents, the
California Business and Professions Code 6500-6592The Professional Fiduciaries Act, the Internal Revenue
Services’ recognition that private Trust’s are governed
by State law not Federal law, Subject Matter Juris­
diction Rule 12(b)(1), Rule 17(b) Baker’s lack of capac­
ity and the Statute of Limitations under FRCP 59(e),
FRCP 60(b) amended 1946. The memorandum did
not address California Government Code 27201 regard­
ing legal sufficiency of recorded documents. The panel
never addressed East’s reference to Laycock v.
Hammer, in the California Court of Appeal, No.
D046422. Decided: July 06, 2006, which is directly
relevant.
There are also issues for the En Banc Court to
consider related to East’s Res judicata rights and
Baker’s collateral estopple [sic] rights, Mariellen
Baker rights to due process under the Fifth Amend-

App.l50a

ment Section 1 and sustentative due process under the
Fourteenth Amendment Section 5 of the US Constitu­
tion. There are also California’s state’s rights issues
as to whether the state’s have the right to create and
enforce their own probate and governmental laws.
Kast asks the En Banc Court to review Kast’s
opening and reply briefs and evidence fairly and
impartially. The law is on Kast, Baker, First Ameri­
can Title, The County of San Mateo, California and
the lender’s side. As Kast’s briefs and exhibits in this
appeal amount to several hundred pages, Kast will
not burden the Court with a second set of the docu­
ments in this De Novo Petition. Kast asks the En
Banc Court to please review the documents in evi­
dence and attached here to for emphasis. Should the
En Banc Court wish Kast will provide additional doc­
umentation that occurred after the initial filing of
the appeal.
ARGUMENTS
I.

Jurisdiction
Memorandum Paragraph (MP) 3 T| 1.
Opinion

The panel asserted jurisdiction by citing two
cases Peacock v. Thomas, 516 U.S. 349 (1996) and
Hoffman v. Beer Drivers, 536 F.2d 1268 (9th Cir.
1976). The District court asserted jurisdiction based
on Peacock v. Thomas and Thomas, Head v. Buster,
95 F.3d 1440 (9th Cir. 1996)
a.

No Jurisdiction over Baker

Erickson sued Baker as Kast’s co-defendant on
the motion to amend the copyright judgment (dkt

App.l51a

189) in November 2016. Baker, as Trustee of the
Black Oak Trust, was never sued in the copyright
judgment; Baker was not added as a defendant after
the trial but before the judgment was entered, Baker
as Trustee of the Black Oak Trust declined the dis­
trict court’s jurisdiction (dkt 222); the panel should
have considered Baker’s collateral estoppel rights;
the panel should have considered the spendthrift and
Powers of Appointment clauses in the trust agree­
ment that prohibits taking a beneficiaries property;
the panel should have considered that Baker didn’t
have Capacity under FRCP 17(b) and the panel should
have considered Baker’s rights to due process under
the Fifth and Fourteenth Amendment to the US Con­
stitution.
The panel should have considered Judge Koh’s
order dkt 341. The panel should also have considered
sending the question of the Black Oak Trust’s valid­
ity to the California Superior Court for San Mateo
County.
As Judge Koh stated in her order (dkt 341)
Erickson sued Mariellen Baker as Trustee of the
Black Oak Trust dated 3-11-95. Under FRCP 17(b),
Baker doesn’t have Capacity to sue or be sued. Judge
Koh correctly dismissed Erickson’s claims against
Baker as Trustee of the Black Oak Trust dated 3-1195. The panel also should have dismissed Baker as
Trustee of the Black Oak Trust as well.
b.

No Subject Matter Jurisdiction

CPC 82 doesn’t recognize ERISA trusts as trusts
under California law. The panel and district court
cited Peacock v Thomas 516 U.S. 349 (1996), but that
dealt with ERISA issues, Hoffman v Beer Drivers

App.l52a

536 F.2d 1268 (9th Gir. 1976), but that dealt with a
National Labor Relations Board boycott issue. The
district court cited Thomas, Head et al Plaintiffsappellees, v. Jack Buster, Defendant-appellant, et al
24 F.3d 1114 (9th Cir. 1994), but this case also
involves ERISA trusts that are not considered trusts
under California law. These cases support why litiga­
tion of a California private trust should be litigated
in California Courts not Federal Courts.
These cases are irrelevant under California law
to establish subject matter jurisdiction in this case. A
more relevant case is Laycock v. Hammer that directly
challenged the validity of a California irrevocable
trust that was decided in the California Court of
Appeals. Kast briefed this case dkt 311-1 of case no.
5:13-cv-05472.
For the panel to determine that the district court
did not err, they should have decided that Amend­
ment 2 to the revocable Kraig Kast Living Trust
dated 3-11-95 is valid, even though it fails that test
under California Probate Code (CPC) 15202 and
15206, because it was never funded and never nota­
rized.
The panel should have decided whether Amend­
ment 2 or Amendment 3 was valid under California
law, they did not This lack of clarity resulted in the
panel creating two trusts that exist side by side,
where before there was only “a single” trust as stated
in the irrevocable trust agreement section 5.01.
The panel should have sought guidance from the
California Supreme Court, as it has in the past when
private trust issues are before it.

App.l53a

Because the panel didn’t request guidance from
California, the issue of which trust is or is not valid
remains unresolved. An irrevocable trust that was
easy to administer has become a quagmire.
Basic contract law states that the most recent
contract, i.e. Amendment 3, is the binding contract.
Therefore, Amendment 3 that created the irrevocable
trust and which was correctly funded is the only
valid trust agreement.
The panel cited California case Zanelli v. McGruth,
and California Probate Code (CPC) 18200 Please
note that while the panel ignored Lavcock v. Hammer
which is more relevant. The panel’s reliance on Zanelli
is wrong for the following reasons. CPC 21102(a)
says” The intention of the transferor (Kast) as
expressed in the instrument controls the legal effect
of the dispositions made in the instrument”. Amend­
ment 3 page 1 Dkt 213-1 states twice on page 1 that
the intent of the settlor is that the trust is irrevocable.
CPC 18200 and Zanelli are irrelevant in this case.
The district court and the panel said that the
properties never transferred from the revocable trust
to the irrevocable trust, this is wrong under Califor­
nia law. CPC 15202, 15206(b) state a trust is only
valid when it is funded.
CPC 15202 says: “A trust in relation to real
property is not valid unless evidenced by
one of the following methods:
(b) By a written instrument conveying the trust
property signed bv the settlor, or by the
settlor’s agent if authorized in writing to do
so. “

App.l54a

CPC 15206 says: “A trust in relation to real
property is not valid unless evidenced by
one of the following methods:
(a) By a written instrument signed by the trustee,
or by the trustee’s agent if authorized in
writing to do so.
(b) By a written instrument conveying the trust
property signed by the settlor, or by the
settlor’s agent if authorized in writing to do
so.”
The En Banc Court will please refer to the
irrevocable trust agreement Amendment 3 Schedule/
Amendment A (dkt 213-1) which lists the four prop­
erties Kast conveyed (transferred) into the irrevoca­
ble trust and is signed by Kast as settlor on Decem­
ber 30, 2007, which complies with CPC 15202(b) and
15206.
The En Banc Court will note there is NO written
instrument attached and signed that conveys the
property to the revocable trust therefore it is not
valid.
Kast asks the En Banc Court to reverse the dis­
trict court’s order Dkt 243.
c.

Relevant District Court Order

Following the retirement of district court magis­
trate the motion to amend the Copyright Judgment
(Dkt 189) was inherited by Judge Koh. While the
panel was deciding Kast’s appeal of the Copyright
Judgment, Erickson sought to enforce District court
Lloyd’s order (Dkt 243) and to take Baker’s property.
To do this Erickson filed a motion to assign (Dkt
321). In the motion to amend, Erickson’s attorney

App.l55a

Kevin McCulloch concocted a bizarre story that claimed
Kast’s revocable trust and irrevocable trust both
exist.
Judge Koh read the full case history of Erickson’s
motion to amend and Erickson’s motion to assign and
decided to deny the motion to assign (Dkt 341). In
Judge Koh’s order she decided three important things.
1.

Judge Koh agreed with First American Title.
The irrevocable trust’s lenders and the County
of San Mateo that Baker was and is the
successor trustee and beneficiary of the
irrevocable trust.

2.

Kast was not the trustee of the irrevocable
trust at the time Erickson’s attorney filed
the Motion to Amend the Copyright Judg­
ment (Dkt 189).

3.

Baker is not subject to the District Court’s
jurisdiction because of FRCP 17(b)’s capac­
ity to be sued.

With this appropriate order, Judge Koh denied
Erickson’s motion to assign to enforce the motion to
amend the Copyright Judgment.
Judge Koh’s order was submitted to the panel as
a Motion to Augment the Record and Request for
Judicial Notice (Dkt 338) on November 6, 2018, six
months before the panel made its decision.
Kast asks the En Banc Court to either grant
Kast’s appeal of Erickson’s motion to amend or at
the very least remand the question of the validity of
the irrevocable trust to the California Superior Court
for the County of San Mateo, which is the proper
jurisdiction.

App.l56a

II.

Statute of Limitations
Opinion

M4 | 2-3 and 4 | 3. The district court and the
panel asserted that the Statute of Limitations under
Rule 60(b) amended 1946 and 59 (e) didn’t apply
citing the In Levander case which said that a motion
could be filed within a “reasonable” time. The panel
stated “in light of the lengthy investigation Erickson
engaged in to learn about Kast’s assets, the motion to
amend was brought within a “reasonable time”
Argument
The truth is Erickson didn’t do or need to do a
“lengthy investigation”. In 2011 Erickson and Mc­
Culloch thought that Kast’s company Atherton Trust
Co. was a big wealthy company. They didn’t know
Atherton was a start-up company.
Kast borrowed money from Baker and hired a
attorney who claimed to be an experienced copyright
trial attorney. However, Kast realized during the
trial in April 2015, when his attorney didn’t object
when he should have, that he was receiving
inadequate legal representation. This was confirmed
by the panel in its decision on Kast’s appeal of the
copyright judgment (dkt 348). After the judgment
was entered in August 2015, Erickson learned in
Kast’s In forma Pauperis application and motion for
a stay of judgment without supersedes bond in Octo­
ber 2015, that Kast, as Kast had repeatedly said,
didn’t have any money and that Atherton had no
clients and no assets due to the copyright lawsuit.
McCulloch didn’t know Kast resigned as trustee
in December 2015. McCulloch placed a lien against a

App.l57a
Black Oak Trust property, in January 2016 long before
he filed the motion to amend. Erickson could have
filed his motion to amend before the statute of limi­
tations expired, but didn’t.
McCulloch filed the motion to amend after he
learned on November 3, 2016 that First American
Title had removed his illegal lien when Baker, the
successor trustee, sold the trust property on November
2, 2016. McCulloch concocted a bizarre story about
two trusts and took advantage of the district court
who knew almost nothing about California trust law.
Argument
a.

No Fictitious Name

see California B & P Code 17900
“(b) As used in this chapter, “fictitious busi­
ness name” means: (l) In the case of an
individual, a name that does not include the
surname of the individual or a name that
suggests the existence of additional owners,
as described in subdivision (c).”
see CPC 16222(b)
“(b) Except as provided in subdivision (c),
the trustee may continue the operation of a
business or other enterprise only as author­
ized by the trust instrument or by the court.
For the purpose of this subdivision, the
lease of four or fewer residential units is not
considered to be the operation of a business
or other enterprise.”
The district court used California’s FBN law as
justification for his saying “no transfer of property
occurred”, and applied it three ways: To say that

App.l58a
Kast as an individual is the same as Kraig Kast as
Trustee of the Black Oak Trust dated 3-11-95 to add
Kast as Trustee as a judgment debtor, to say no
transfer of property from Kast to the irrevocable
trust took place, and to say that Kast as Trustee
shows the FBN is Kast’s Alter Ego to support using
the In Levander case to extend and neuter Kast’s
statute of limitations defense. In fact, the district
court’s entire decision about the statute of limita­
tions decision relies on California’s FBN statute, and
stated that Kraig Kast as an individual is the same
as Kraig Kast as Trustee of the Black Oak Trust
because California’s legally mandated description
Kraig Kast Trustee of the Black Oak Trust is a
“Fictitious Name” for Kraig Kast as an individual. In
Levander is based on California CCP 187. Since that
didn’t directly apply, the district court had to use
California’s Fictitious Business Name (FBN) Statute
to try to support his decision on Alter Ego so he could
cite In Levander. The district court’s reasoning fails
on multiple fronts.
The legal description on the Trust’s loans
complies with CPC 16009(b) that says:
“The trustee has a duty to do the following:
(b) To see that the trust property is designated
as property of the trust.”
and the irrevocable trust agreement section 1.01.
Next, consider California’s Fictitious Business
Name Statute 17900(a)(1) and (b)(l) requirements
for when a Fictitious Name must be used. A FBN is
used when the business or person’s name “doesn’t
include the surname of the individual”. The legally
mandated description Kraig Kast Trustee of the Black

App.l59a

Oak Trust dated 3-11-95 contains his surname”
Kast” it is not a FBN, it is not Kast’s Alter Ego under
CCP 187. If the FBN is not Kast’s Alter Ego, then In
Levander doesn’t apply.
b.

Black Oak Trust Not a Business

There is a second FBN Alter Ego test that the
district court’s decision fails, “The Black Oak Trust is
not a business”. Under CPC 16222(b), for a trust to
be considered a business it must own more than four
(4) properties. The Black Oak Trust has never owned
more than four properties.
III. California Governmental Law
MP 3 If 2.
Opinion
The panel heavily relied on deeds to determine
that the irrevocable trust was revocable. It claimed
that Kast’s explanation as to why errors on the deeds
occur was “unpersuasive”.
Argument
Deeds
The deeds in evidence refer to property transac­
tions that took place between 2008-2011. The En
Banc Court will note that they read “from the Kraig
Kast Living Trust to the Black Oak Trust”. If it was
Kast’s intent to put the properties into the Kraig
Kast Living Trust the deeds would have read from
the Kraig Kast Living Trust to the Kraig Kast Living
Trust, they did not.

App.l60a
Please see Exhibits in the opening and reply
briefs that include copies of deeds that shows the
properties were correctly conveyed.
California knows that a significant amount of
deeds have transposed APN (parcel) numbers, spell­
ing and property description errors. That is why
under California governmental law 27201, California
and San Mateo County view recorded documents, i.e.,
deeds as not having any “legal sufficiency or cor­
rectness” (Exhibit in Reply brief-screenshot referring
to Gov Code 27201). The San Mateo County Recorder’s
website says: “When a document is presented to our
office for recording, it is only examined for “recording
requirements” and not for its correctness or legal suf­
ficiency”. Thus the deeds are irrelevant because they
lack legal sufficiency under California law.
IV. Behavior
Opinion
After Kast resigned as trustee, Kast “behaved”
as if he was the trustee therefore, Kast is the trustee
Argument
MP 3 1 3 and MP 4 1 1.
CPC 16247 says:
“The trustee has the power to hire persons,
including accountants, attorneys, auditors,
investment advisers, appraisers (including
probate referees appointed pursuant to Section
400). or other agents, even if they are associ­
ated or affiliated with the trustee, to advise
or assist the trustee in the performance of
administrative duties.”

App.l61a

The panel cited California case Gaynor v. Bulen, the
case is irrelevant because it involved a person who
was not a trustee conspiring with the trustees to
enrich himself and the trustees at the expense of the
beneficiaries. Kast and Baker didn’t conspire with
Baker at the expense of Baker (herself) as the
Beneficiary.
The panel also cited In re Allustiarte, 786 F 2d
910,914 (9th Cir 1986). This case is a bankruptcy
case that alleged fraudulent transfer. This case is
based on Intent. Kast stated his intent (CPC 15201)
to convey the property in compliance with CPC 15202
and 15206 listing the properties on the signed
Schedule A on December 30, 2007. There was no
intent by Kast to “confound” Kast’s creditors.
Next the panel cited Solomon v N. Am. Life and
Cas. Ins. Co., 151 F.3d 1132, 1138 (9th Cir. 1998 This
excerpt was taken out of context. The court said
“there is no evidence that Allianz and Solomon had a
fiduciary relationship from which a fiduciary duty
would flow”.
Kast is a licensed Professional Fiduciary (license
#558). The panel stating that Kast’s actions as a
licensed Professional Fiduciary amounted to “behav­
ing” as a trustee, when he was not the trustee, is in
direct conflict with California’s Professional Fiduciaries
Act-Bus & Prof Code 6500-6592 that permits him to
provide a broad range of services to his clients see
Exhibit in reply brief, in this case to Baker and the
irrevocable trust under CPC 16247. The other cases
cited are irrelevant for the same reasons.
Kast is a licensed Professional Fiduciary (License
#558), a licensed Real Estate Broker (#014226063) and

App.l62a

a licensed Insurance Broker (0G91440) with no nega­
tive notations on any of his licenses. It is perfectly
legal under CPC 16247 for Baker as trustee to ask
Kast to manage the trust property after he resigned
as trustee, given his licenses and experience with
managing the properties.
If Kast forgot to change a subtitle on a bank
account after he resigned as trustee, from Trustee to
POA (Exh 3) or Fiduciary it is not sufficient under
CPC 16247 and 6500 to say that Kast was “behaving”
as the Trustee.
After he resigned as trustee, Kast could not and
did not sign legal documents opening or closing a
trust bank account, sign property sales, rental or
purchase documents or any other legal document
after he resigned as trustee of the irrevocable trust
on December 30, 2015, only Baker the successor
trustee could do that.
Kast’s reply brief enclose correspondence from
First American Title showing that First American
read the same irrevocable trust agreement the panel
and district court read and decided Kast is not the
Trustee, that the irrevocable trust is valid and that
Baker is the legitimate successor trustee. They then
insured the title to the trust’s properties for hundreds
of thousands of dollars. Kast also included documents
related to the sale of a trust property that showed
they were signed by Baker not Kast. First American
Title’s and Judge Koh’s decision that Baker is the
legal successor trustee of the irrevocable Black Oak
Trust carries greater weight than Kast’s oversight on
a bank statement when he was under duress.

App.l63a

Clearly “behavior” is not the criteria for being
considered a trustee. Judge Koh saw no evidence that
Kast was acting as the Trustee.
V.

Taking Baker’s Property Violates the Trust’s
Spendthrift & Power of Appointment Clauses

Once again CPC 21102(a) states that the trust
agreement (instrument) controls the legal effect of
what happens after an trust is executed. Baker was
never a named defendant or judgment debtor. The
spendthrift provision CPC 15300-15301 and section
says:
“no beneficiary (Baker) may assign, anticipate,
encumber, alienate, or otherwise voluntarily
transfer the income or principal of any trust
created under this trust. In addition, neither
the income nor the principal of any trust
created under this trust is subject to attach­
ment, bankruptcy proceedings or any other
legal process, the interference or control of
creditors or others, or any involuntary trans­
fer.”
Under CPC 68l(a)-Powers of Appointment it says:
“property covered by a special power of
appointment is not subject to the claims of
creditors of the powerholder or of the powerholder’s estate or to the expenses of the
administration of the powerholder’s estate.”
There are also Constitution issues for the en
Banc Court to consider. The district court and the panel
cannot take Baker’s retirement savings, 10 years
after she was repaid, without due process under the
Fifth and Fourteenth Amendments.

App.l64a

Most importantly Judge Koh in her decision
(Dkt 341) recognized Baker is the trustee of the
irrevocable Black Oak Trust and cited FRCP 17(b)
capacity to be sued, as the basis for the district court
not having jurisdiction over Baker or the irrevocable
Black Oak Trust. Judge Koh’s order over road the
district court’s decision regarding the motion to
amend in Dkt 243.
VII. Baker Should Not Be Deprived of Her Constitu­
tional Right to Due Process
Opinion
The district court and the panel said that the
Kast never transferred (conveyed) the properties to
the irrevocable trust in settlement of his debt to
Baker.
Argument
Fifth Amendment, no person shall be deprived of
life, liberty, or property, without due process of law.
Fourteenth Amendment. Section 1. The district
court took Baker’s retirement savings without
consideration of her substantive due process.
Collateral Estoppel
As the motion to amend the copyright judgment
is the same suit as the copyright lawsuit, Baker’s
collateral estopple [sic] right is applicable.
Kast also raises the argument of the doctrines of
res judicata (United States Supreme Court Feder­
ated Department Stores, Inc. v. Moite (1981) No. 791517 which held that “Res judicata bars re-litigation
of the un-appealed adverse judgments against res­
pondents as to their federal-law claims”.

App.l65a

VIII. Constitutionality-States Rights
IRS recognizes that trust law resides in the
States not the federal government. The IRS states
it’s position on private trusts and jurisdiction, see:
https://www.irs.gov/businesses/small-businesses-self-employed/abusive-trust-taxevasion-schemes-questions-and-answers)
The panel should have asked the California
Supreme Court for its guidance before making its
decision, as it has on other probate and trust issues
because this decision directly effects California’s State’s
rights to establish and enforce its own Probate, Govern­
mental and Civil Laws.
The panel’s decision undermines and voids Cali­
fornia’s right to make laws regarding probate, private
trusts, what recorded documents lack “Legal Suffi­
ciency and Correctness” and what licensed profession­
als can do and cannot do.
XI. Pro Bono Representation
Kast respectfully asks for an En Banc review and
Pro Bono representation which was provided to him
by the panel on the related copyright appeal.
XII. Conclusion
Kast’s opening and reply briefs and this petition,
support his objection to the motion to amend the
copyright judgment. There is overwhelming evidence
and law that supports his motion to reverse Erickson’s
motion to amend. Kast respectfully asks the En Banc
Court to grant his petition for a rehearing. Kast asks
the En Banc Court to please ask the California Supreme

App.l66a

Court for its guidance as to the validity of the Irrevo­
cable Black Oak Trust dated 3-11-95.
Respectfully submitted:

/s/ Kraig R. Kast
Appellant and Defendant Pro Se
Dated: May 14, 2019

App.l67a

BLACK OAK TRUST DOCUMENT,
RELEVANT EXCERPT
The Black Oak Trust
Article One
This Irrevocable Trust Agreement is Created on
December 11, 2007 by amendment to the Kraig R.
Kast Living Trust dated March 11, 1995. The parties
to the agreement are: Kraig R. Kast, an individual
residing in Foster City, California (the “Settlor”) and
Kraig R. Kast, an individual residing in Foster City,
California (my “Trustee”).
I intend that this agreement create a valid trust
under the laws of California and under the laws of
any state in which any trust created under this
agreement is administered. The terms of this trust
agreement prevail over any provision of California
law, except those provisions that are mandatory and
may not be waived.
Section 1.01

Identifying My Trust

My trust may be referred to as “Kraig R. Kast,
Trustee of the Black Oak Trust dated December 11,
2007 or Kraig R. Kast, Trustee of the Black Oak
Trust dated March 11, 1995.”
For the purpose of transferring property to my
trust, or identifying my trust in any beneficiary or
pay-on-death designation, any description referring
to my trust will be effective if it reasonably identifies
my trust. Any description that contains the date of
my trust, the name of at least one initial or successor
Trustee and an indication that my Trustee is holding

App.l68a

the trust property in a fiduciary capacity will be suffi­
cient to reasonably identify my trust.
Section 1.02

Reliance by Third Parties

From time to time, third parties may require
documentation to verify the existence of this agree­
ment, or particular provisions of it, such as the name
or names of my Trustee or the powers held by my
Trustee. To protect the confidentiality of this agree­
ment, my Trustee may use an affidavit or a certification
of trust that identifies my Trustee and sets forth the
authority of my Trustee to transact business on
behalf of my trust in lieu of providing a copy of this
agreement.
The affidavit or certification may include pertinent
pages from this agreement, such as title or signature
pages.
A third party may rely upon an affidavit or
certification of trust that is signed by my Trustee
with respect to the representations contained in the
affidavit or certification of trust. A third party relying
upon an affidavit or certification of trust shall be
exonerated from any liability for actions the third
party takes or fails to take in reliance upon the repre­
sentations contained in the affidavit or certification
of trust.
A third party dealing with my Trustee shall not
be required to inquire into the terms of this agree­
ment or the authority of my Trustee, or to see to the
application of funds or other property received by
my Trustee. The receipt from my Trustee for any
money or property paid, transferred or delivered to my
Trustee will be a sufficient discharge to the person or
persons paying, transferring or delivering the money

App.l69a

or property from all liability in connection with its
application. A written statement by my Trustee is
conclusive evidence of my Trustee’s authority. Third
parties are not liable for any loss resulting from their
reliance on a written statement by my Trustee assert­
ing my Trustee’s authority or seeking to effectuate a
transfer of property to or from the trust.
Section 1.03

An Irrevocable Trust

This Trust is irrevocable, and I cannot alter,
amend, revoke, or terminate it in any way.
Section 1.04

Transfers to the Trust

I transfer to my Trustee the property listed in
Schedule A, attached to this agreement, to be held on
the terms and conditions set forth in this instrument.

suiSjbui

aqi apisui qj cq patjipora aSeiuj
g-ff

Sg§8|

3J

ll ifIll O
li5|l
“i
IS. 5a fa s33g
S3So5
|s

O
nt

Hi ti if it til!
INI! I| n2si &

inti
it mu s
If II! II Hill 2

f 1111 1! HI! f

ft Iff |1 f§Hs 3
§ S 1 I i
g- s* I I 3

3o
2|

g £ |- f ?
§ * &f §

-J
3

S?r|l
11 I i’S 3 | 3
32
O a no 3 2 = s ,g
3,

I: 3

IS S3
8 •“
» «

~u

p
3
2
M

3

<r>

£

3

“
^

ing
|

l» Illli: »
I lliffl

S’
o

S " " 5 3
J5?|H

§

■- O V 3 -?

gr s- -s a s a
“■8- 1:1 S | |
IIS8 ?

I

silS

i I Iff!

2

i !SIS

8' 2 ™ g.

I i § f 11 S
t $ 1111 8
|
§

s

Sl

Is

??
§s

10HSN3330S 31IS93M 93090039-33313
AiLNJ100-90SS3SSV 031VIM NVS 30 AXNfLOO

BOAi-ddy

